U.S. Department of Housing and Urban Development

Office of Inspector General


Semiannual Report
to Congress




October 1, 2008, through March 31, 2009
     Profile of Performance
                                         Audit profile of performance
                            for the period October 1, 2008, through March 31, 2009
       Results                                                                             This reporting period
       Recommendations that funds be put to better use                                         $1,638,500,723
       Recommended questioned costs                                                             $110,885,379
       Collections from audits                                                                  $144,108,065
       Administrative sanctions                                                                        5


                                      Investigation profile of performance
                            for the period October 1, 2008, through March 31, 2009
       Results                                                                            This reporting period
       Funds put to better use                                                                   $72,643,348
       Recoveries/receivables                                                                    $91,209,379
       Indictments/informations                                                                       561
       Convictions/pleas/pretrial diversions                                                          414
       Civil actions                                                                                  52
       Administrative sanctions                                                                       616
       Personnel actions1                                                                             34
       Arrests2                                                                                       771
       Search warrants                                                                                75
       Subpoenas issued                                                                               529



                                         Hotline profile of performance
                            for the period October 1, 2008, through March 31, 2009
       Results                                                                            This reporting period
       Funds put to better use                                                                   $2,465,727
       Recoveries/receivables                                                                     $374,025




1
  Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, State, or
local governments or of Federal contractors and grantees, as the result of Office of Inspector General (OIG) activities.
In addition, this reporting category includes actions by Federal agencies to suspend, debar, or exclude parties from
contracts, grants, loans, and other forms of financial or nonfinancial transactions with the government, based on
findings produced by OIG.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
Inspector General Message
                                   The U.S. Department of Housing and Urban Development Office of
                               Inspector General (HUD OIG) is proud to present its Semiannual Report
                               to the Congress for the first half of fiscal year 2009. HUD OIG
                               employees--auditors, agents, attorneys, and support staff--are filled with
                               a new spirit of commitment in their mission on behalf of the taxpayers
                               of the United States. Meetings with my staff around the country have
                               revealed a deep understanding that the very economic vitality of the
                               country depends on the work we do here to aid in our Nation's recovery.

                                   Consequently, we have become immersed in the operations of the
                               Department, specifically activities affecting the housing industry. Our
                               people have engaged in a strong forward outreach to the States'
                               comptrollers and auditors, advising them of their part in the American
                               Recovery and Reinvestment Act, the Housing and Economic Reform
                               Act, and the Neighborhood Stabilization Program. We are gearing up
                               to closely monitor stimulus spending and ensuring that the recipients
                               have the capacity to successfully use the funding for its intended
                               purposes.

    During this reporting period, we had $72.6 million in funds put to better use, questioned costs of
$110.8 million, and $91.5 million in recoveries and receivables while closing 636 cases, a 9 percent
increase over the last reporting period. This exceptional work has had an impact on reducing fraud
and the misuse of taxpayer dollars, and it is with gratitude that I acknowledge the HUD OIG staff who
worked so hard to achieve these results and their associated deterrent effect.

    Our high-profile audits and investigations have once again paralleled the Department's strategic
initiatives. HUD OIG staff continues to work with the Department to improve its effectiveness and as
a result, has developed and implemented better and more effective audit recommendations. Agents
from our Office of Investigation have enhanced their partnership with the Department in outreach
programs to warn the public of areas of potential fraud in HUD programs.

    HUD OIG has successfully combated fraud in the Federal Housing Administration (FHA)
single-family mortgage insurance program and the Government National Mortgage Association (Ginnie
Mae). An example is the owners of Marathon Mortgage of Detroit, Michigan, who were ordered to
repay $21.5 million to Ginnie Mae when we prosecuted defendants who used the funds they obtained
from terminated or satisfied mortgages for personal investments.

    We are deeply immersed in fighting the effects of the mortgage industry crisis. We have joined the
aggressive efforts of the U.S. Department of Justice and our partners in law enforcement in the
nationwide strategy to combat mortgage fraud. I have testified to Congress about potential fraud and
abuse, and my staff has been working diligently with congressional staff on legislation to tighten laws
to protect the FHA and borrowers. We are proud that our efforts have produced new laws that have
recently been signed by the president.

   With all of this, we continue our vigorous audit activities. During this reporting period, our audits
shined a light on the San Diego Block Grant program and recommended solutions to Chicago Section
8 subsidized housing problems that we uncovered. We asked HUD to take appropriate actions to




Inspector General Message                                                                                   iii
     tighten regulations governing Native American housing to prevent fraud and abuse and to ensure that
     FHA-approved lenders comply with federal requirements for FHA loans.

         We do all of this while maintaining our vigilance in hurricane-related and flood-related disaster
     relief, post-September 11 redevelopment efforts, Section 8 rental subsidy fraud, and any activity
     involving waste or abuse in HUD programs or operations.

         None of these achievements would have been possible without the staff of HUD OIG, and for them
     I am truly thankful.




        Kenneth M. Donohue
        Inspector General




iv                                                                               Inspector General Message
                                                                                   Inspector General’s Message
                                         Audit reports issued by program



                                                                                  Single-family housing, 13%
                                                                                  Multifamily housing, 10%
                                                                                  Public and Indian housing, 36%
                                                                                  Community planning and
                                                                                  development, 30%
                                                                                  Hurricane relief oversight, 3%
                                                                                  Other programs, 8%




                                      Monetary benefits identified by program



                                                                                  Single-family housing, 0%
                                                                                  Multifamily housing, 3%
                                                                                  Public and Indian housing, 6%
                                                                                  Community planning and
                                                                                  development, 3%
                                                                                  Hurricane relief oversight, 1%
                                                                                  Other programs*, 87%




      * Other programs include CFO and CIO related audits

                             Monetary benefits identified in millions of dollars

                                                                                              $1,523.0
           $1,600

           $1,400

           $1,200

           $1,000

               $800

               $600

               $400
                                                        $107.8       $56.7
                             $3.9           $50.6                                 $7.5
               $200

                $0
                      Single-family    Multifamily   Public and Community      Hurricane     Other
                        housing         housing        Indian   planning and     relief    programs*
                                                      housing development      oversight

      * Other programs include CFO and CIO related audits


 Audit Charts                                                                                                      v
Audit Charts
       Investigative cases opened by program area (total: 608)




                                                    Single-family housing, 23% (142)
                                                    Public and Indian housing, 53% (320)
                                                    Multifamily housing, 8% (46)
                                                    Community planning and
                                                    development, 12% (74)
                                                    Other, 4% (26)




     Investigative recoveries by program area (total: $91,209,379)




                                                    Single-family housing, 59%
                                                    ($54,204,565)
                                                    Public and Indian housing, 10%
                                                    ($9,110,822)
                                                    Multifamily housing, 1% ($1,009,812)
                                                    Community planning and
                                                    development, 6% ($5,156,194)
                                                    Other, 24% ($21,727,986)




vi                                                                   Investigation Charts
                                                                        Investigation Charts
 Acronyms List
 AFGE            American Federation of Government Employees
 AIGA            Assistant Inspector General for Audit
 AIGI            Assistant Inspector General for Investigation
 ARIGA           Assistant Regional Inspector General for Audit
 ASAC            Assistant Special Agent in Charge
 CDBG            Community Development Block Grant
 CPD             Office of Community Planning and Development
 DHAP            Disaster Housing Assistance Program
 DHS             U.S. Department of Homeland Security
 DOJ             U.S. Department of Justice
 EIV             Enterprise Income Verification
 FEMA            Federal Emergency Management Agency
 FFI             Fugitive Felon Initiative
 FFMIA           Federal Financial Management Improvement Act of 1996
 FHA             Federal Housing Administration
 FHAP            Fair Housing Assistance Program
 FHEO            Office of Fair Housing and Equal Opportunity
 FISMA           Federal Information Security Management Act
 FSS             Family Self-Sufficiency
 FY              fiscal year
 GAO             U.S. Government Accountability Office
 Ginnie Mae      Government National Mortgage Association
 GPRA            Government Performance Results Act
 HECM            Home equity conversion mortgages
 HERA            Housing and Economic Recovery Act (HERA) of 2008
 HOME            HOME Investment Partnerships Program
 HUD             U.S. Department of Housing and Urban Development
 IAA             Interagency agreement
 IG              Inspector General
 IOI             Identity of interest
 IRS             Internal Revenue Service
 IT              Information technology
 NAHASDA         Native American Housing Assistance and Self-Determination Act of 1996
 NAHRO           National Association of Housing and Redevelopment Officials




 Acronyms List                                                                           vii
Acronyms List
       NCDF     National Center for Disaster Fraud
       OA       Office of Audit
       OI       Office of Investigation
       OIG      Office of Inspector General
       OMB      Office of Management and Budget
       PFCRA    Program Fraud Civil Remedies Act
       PHA      Public housing agency
       PIH      Office of Public and Indian Housing
       REAP     Resource Estimation and Allocation Process
       RESPA    Real Estate Settlement Procedures Act
       RIGA     Regional Inspector General for Audit
       SA       Special Agent
       SAC      Special Agent in Charge
       SBA      Small Business Administration
       SEMAP    Section Eight Management Assessment Program
       SFA      Senior Forensic Auditor
       SHP      Supportive Housing Program
       SSA      Senior Special Agent
       SSA      Social Security Administration
       SSN      Social Security number
       TEAM     Total Estimation and Allocation Mechanism
       U.S.C.   United States Code
       USMS     United States Marshals Service
       USPS     United States Postal Service
       VA       U.S. Department of Veterans Affairs




viii                                                          Acronyms List
                                                                Acronyms List
  Table of Contents
  Executive Highlights                                                             1
  Chapter 1 - HUD’s Single Family Housing Programs                                 7
        Audits                                                                     8
        Investigations                                                            13
  Chapter 2 - HUD’s Public and Indian Housing Programs                            23
        Audits                                                                    24
        Investigations                                                            34
  Chapter 3 - HUD’s Multifamily Housing Programs                                  51
        Audits                                                                    52
        Investigations                                                            57
  Chapter 4 - HUD’s Community Planning and Development Programs                   61
        Audits                                                                    62
        Investigations                                                            69
  Chapter 5 - Disaster Relief Oversight                                           73
        Introduction and Background                                               74
        Audits                                                                    75
        Investigations                                                            78
  Chapter 6 - Other Significant Audits and Investigations/OIG Hotline             89
        Audits                                                                    90
        Investigations                                                            93
        OIG Hotline                                                               94
  Chapter 7 - Outreach Efforts                                                    97
  Chapter 8 - Review of Policy Directives                                        111
        Enacted Legislation Related to Single-Family Housing                     112
        Proposed Rules                                                           112
 Chapter 9 - Audit Resolution                                                    113
       Audit Reports Issued before Start of Period with No Management Decision   114
       Significant Revised Management Decisions                                  115
       Significant Management Decision with Which OIG Disagrees                  116
       Federal Financial Management Improvement Act of 1996                      117
 Appendix 1 - Audit Reports Issued                                               119
 Appendix 2 - Tables                                                             125
 Appendix 3 - Index                                                              145
 HUD OIG Operations Telephone Listing                                            149




  Table of Contents                                                                    ix
Table of Contents
    Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended
    by the Inspector General Act of 1988, are listed below:
    Source/Requirement                                                                               Pages
    Section 4(a)(2)-review of existing and proposed legislation and regulations.                         112
    Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to       1-95, 112
    the administration of programs and operations of the Department.
    Section 5(a)(2)-description of recommendations for corrective action with respect to                 7-95
    significant problems, abuses, and deficiencies.
    Section 5(a)(3)-identification of each significant recommendation described in               Appendix 2,
    previous semiannual report on which corrective action has not been completed.                   Table B
    Section 5(a)(4)-summary of matters referred to prosecutive authorities and the                       7-95
    prosecutions and convictions that have resulted.
    Section 5(a)(5)-summary of reports made on instances in which information or                 No Instances
    assistance was unreasonably refused or not provided, as required by Section 6(b)(2)
    of the Act.
    Section 5(a)(6)-listing of each audit report completed during the reporting period and  Appendix 1
    for each report, where applicable, the total dollar value of questioned and unsupported
    costsand the dollar value of recommendations that funds be put to better use.
    Section 5(a)(7)-summary of each particularly significant report and the total dollar value           7-95
    of questioned and unsupported costs.
    Section 5(a)(8)-statistical tables showing the total number of audit reports and the         Appendix 2,
    total dollar value of questioned and unsupported costs.                                         Table C
    Section 5(a)(9)-statistical tables showing the total number of audit reports       Appendix 2, Table D
    and the dollar value of recommendations that funds be put to better use by
    management.
    Section 5(a)(10)-summary of each audit report issued before the commencement                 Appendix 2,
    of the reporting period for which no management decision had been made by the                   Table A
    end of the period.
    Section 5(a)(11)-a description and explanation of the reasons for any                        No Instances
    significant revised management decisions made during the reporting period.
    Section 5(a)(12)-information concerning any significant management decision with which the           115
    Inspector General is in disagreement.
    Section 5(a)(13)-the information described under section 05(b) of the Federal Financial              117
    Federal Financial Management Improvement Act of 1996.




x                                                                                    Reporting Requirements
                                                                                        Reporting Requirements
    Strategic Initiative 1
    HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the reduction of fraud in single-family insurance programs
    through
    -   Audits uncovering single-family and loan origination abuse
    -   Audits of the U.S. Department of Housing and Urban Development's (HUD) internal policies to
        determine whether controls are adequate
    -   National strategy for single-family mortgage fraud task forces
    -   Outreach to industry and consumer groups and the Department

    Highlights: Results or impact of significant OIG work

    -   Audits of four Federal Housing Administration (FHA) single-family mortgage lenders found        page 9
        that lenders did not follow HUD requirements when underwriting loans and performing
        quality control procedures
    -   HUD did not implement a cohesive partial claims process to ensure that partial claims were     page 11
        processed in a timely manner
    -   Audit of Government National Mortgage Association's (Ginnie Mae) internal controls over        page 12
        its "match to terminated process" for mortgages and related documentation of the Mortgage
        Backed Securities Information System
    -   Florida, Pennsylvania, and Texas mortgage fraud schemes cause HUD losses in excess of $13      page 14
        million
    -   Fraudulent appraisals trigger $ 4 million in HUD losses                                        page 14
    -   False identities and Social Security numbers generate millions in HUD losses                   page 17
    -   More than 500 mortgage and real estate professionals attend a mortgage fraud presentation     page 101
        in Virginia

    Emerging Issues: Areas of OIG interest

    -   American Recovery and Reinvestment Act funding for tax credits
    -   Dramatic increase in lenders/brokers/issuers seeking to do business with FHA and Ginnie Mae
    -   FHA's ability and capacity to oversee its expanding market share
    -   FHAs refinancing of riskier loans than it has historically had in its portfolio
    -   Foreclosure rescue fraud
    -   Home Equity Conversion Mortgage program
    -   Implementation of Secure and Fair Enforcement for Mortgage Licensing Act of 2008
    -   Loan limitation increases open new metropolitan areas with unknown risks




2                                                                                         Executive Highlights
  Strategic Initiative 2
   HUD Strategic Goal: Promote Decent Affordable Housing

   OIG Strategy: Contribute to the reduction of erroneous payments in rental assistance
   programs through

   -   Audits of Section 8 Housing Choice Voucher program activities
   -   Investigative initiatives involving corruption in the management of troubled public housing authorities
       and multifamily developments
   -   Section 8 fraud initiatives in each Office of Inspector General (OIG) region
   -   Public Housing Fugitive Felon and Sex Offender Initiatives - locate and remove
   -   Public and Department-wide outreach initiatives

   Highlights: Results or impact of significant OIG work

   -   Indianapolis Housing Agency failed to meet HUD's lease-up thresholds for Section 8               page 25
       project-based units, resulting in 1,569 households not being housed and $8.7 million in
       funds not used to provide decent, safe, and sanitary housing
   -   More than 79 percent of East St. Louis Housing Authority's Section 8 units materially failed     page 28
       to meet HUD's housing quality standards
   -   HUD's policies allowed tribal housing authorities to redirect and abuse about $40 million        page 33
       in rent revenue per year from Native American Housing and Self-Determination Act of
       1996-assisted low-rent program units
   -   Indian housing developer found liable in U.S. Bankruptcy Court proceeding                        page 35
   -   Former East Haven Housing Authority executive director and her husband steal more than           page 35
       $397,000
   -   Fake landlord produces almost $300,000 for housing specialist                                    page 35
   -   San Bernardino Section 8 tenants illegally obtained more than $330,000 in housing assistance     page 40
   -   Section 8 tenant jailed for possession of child pornography                                      page 49
   -   HUD has not implemented recommendations calling for changes to the performance-based             page 53
       contract, which could result in payments of up to $1.9 million for services not performed
   -   Housing fraud schemes and prosecutions presented to 250 multifamily property managers           page 105

   Emerging Issues: Areas of OIG interest
   -   HUD's oversight of performance-based contract administrators
   -   Landlord fraud
   -   Public housing corruption and multifamily mismanagement
   -   Rental assistance fraud initiatives targeting public housing agencies (PHA) in receivership or on the
       HUD troubled list




  Executive Highlights                                                                                            3
Executive Highlights
    Strategic Initiative 3
    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    - Promote integrity, efficiency, and effectiveness of programs
    - Contribute to the reduction of fraud, waste, and abuse through

    -   Audits of the Community Development Block Grant (CDBG), Supportive Housing Program, and HOME
        Investment Partnerships program
    -   Audits of disaster activities
    -   Investigative initiative involving corruption in the administration of State or local community planning
        and development programs in each OIG region
    -   Hurricane relief fraud in HUD CDBG-funded programs
    -   Public dissemination of HUD OIG activities and outreach activities with State and local government
        agencies

    Highlights: Results or impact of significant OIG work

    -   City of San Diego failed to properly administer its CDBG funds, resulting in more than         page 63
        $1.8 million in ineligible and $11 million in unsupported costs
    -   City of Durham, NC, did not administer $1.3 million in CDBG funds in accordance with           page 63
        HUD requirements
    -   Chief financial officer pleads guilty to embezzling more than $183,000 in Emergency Shelter    page 70
        Grant funds
    -   New Brunswick housing preservation and rehabilitation director sent to prison for accepting    page 70
        bribes from contractors
    -   Gulfport mayor and wife indicted for allegedly making false statements and committing          page 79
        theft of government funds
    -   Hurricane relief fraud involving millions in CDBG funding for homeowners                    pages 79-83
    -   HUD homeless and Supportive Housing programs described for more than 50 Louisiana              page 87
        officials and nonprofit representatives
    -   An overview of the HUD Neighborhood Stabilization program presented to more than 275          page 105
        grant administrators

    Emerging Issues: Areas of OIG interest
    -   American Recovery and Reinvestment Act funding and the Neighborhood Stabilization program
    -   Gulf Coast hurricane assistance fraud
    -   Homeless and Emergency Shelter Grants




4                                                                                             Executive Highlights
                                                                                                 Executive Highlights
  Strategic Initiative 4
   HUD Strategic Goal: Embrace High Standards of Ethics, Management, and
   Accountability
   OIG Strategy:
   - Be a relevant and problem-solving advisor to the Department
   - Contribute to improving HUD's execution and accountability of fiscal responsibilities
     through
   -   Audits of HUD's financial statements
   -   Audits of HUD's information systems and security management
   -   Implementation of the U.S. Department of Justice Procurement Fraud Task Force at HUD
   -   FedRent data match operation - identifying Federal employees who fraudulently receive housing
       assistance

   Highlights: Results or impact of significant OIG work

   -   Marathon Mortgage owner and manager swindle $20 million from Ginnie Mae                         page 20
   -   HUD's Enterprise Income Verification System discovers U.S. Postal Service employees             page 47
       fleecing Chicago area housing authorities
   -   Recommendation that HUD seek $1.4 billion in offsets against PHAs' excess unusable funding      page 91
       held in net restricted asset accounts
   -   Identified $122.9 million in excess unexpended funds that could be deobligated and put to       page 91
       better use
   -   Recommendation to FHA to continue to modernize its information systems                          page 91
   -   Recommendation to strengthen Ginnie Mae's monitoring and management controls in regard          page 91
       to the Mortgage-Backed Securities program

   Emerging Issues: Areas of OIG interest
   -   Continued modernization and enhancement of HUDs information systems
   -   Contractor fraud reporting under Federal acquisition reporting
   -   Issuer accountability in loan portfolio defaults in Ginnie Mae Mortgage-Backed Securities program
   -   Mortgage crisis impact on soundness of FHA fund




  Executive Highlights                                                                                           5
Executive Highlights
       The Federal Housing Administration’s (FHA) single-family programs provide mortgage insurance
    to mortgage lenders that, in turn, provide financing to enable individuals and families to purchase,
    rehabilitate, or construct homes. In addition to the audits and investigations described in this chapter,
    the U.S. Department of Housing and Urban Development, Office of Inspector General (HUD OIG),
    has conducted numerous outreach efforts (see chapter 7, page 98).



    Audit
                             Strategic Initiative 1: Contribute to the reduction of fraud
                                         in single-family insurance programs

       Key program results                    Questioned costs                            Funds put to better use

      Audit          9 audits                       $753,000                                   $1.9 million
                      Page 9            - Mortgagees, loan correspondents, and direct endorsement lenders
                     Page 10            - Review of the asset control area program
       Our           Page 11            - Review of HUD's single-family partial claims collection process
      focus
                     Page 12            - Review of Government National Mortgage Association internal
                                          control process




                        Chart 1.1: Percentage of OIG single-family housing audit reports
                                          during this reporting period




                                                                                                       Region 1 - 0%
                                                                                                       Region 2 - 11%
                                                                                                       Region 3 - 11%
                                                                                                       Washington, DC - 22%
                                                                                                       Region 4 - 0%
                                                                                                       Region 5 - 0%
                                                                                                       Region 6 - 22%
                                                                                                       Regions 7/8 - 34%
                                                                                                       Regions 9/10 - 0%
                                                                                                       Region 11 - (N/A)*




       * This does not include disaster relief audits. See chapter 5 for these reviews.




8                                                                                 Chapter 1 - Single-Family Housing Programs
                                                                              Chapter 1: HUD’s Single-Family Housing Programs
 Mortgagees, Loan Correspondents, and Direct Endorsement Lenders
     Audits to uncover single-family lenders and loan origination abuses continued to be a priority
 during this semiannual period. Lenders are targeted for audit through the use of data mining
 techniques, along with prioritizing audit requests from outside sources. During this period, the U.S.
 Department of Housing and Urban Development's (HUD) Office of Inspector General (OIG) reviewed
 four Federal Housing Administration (FHA) single-family mortgage lenders. The following section
 illustrates the audits conducted in the single-family mortgage lender area.

                                                  

     HUD OIG audited CitiMortgage, Incorporated, in St Louis, MO, to determine whether CitiMortgage
 followed HUD requirements for underwriting loans and performing its quality control program for
 single-family production.

     CitiMortgage did not properly underwrite 20 of the 60 defaulted loans reviewed. These loans had
 material underwriting deficiencies that affected the insurability of the loans. In addition, CitiMortgage
 did not meet HUD's quality control requirements.

     OIG recommended that HUD (1) require CitiMortgage to indemnify HUD against future losses and
 reimburse HUD for loans that have already resulted in losses; (2) verify that CitiMortgage implements
 adequate controls that allow managers to identify, mitigate, and prevent underwriting problems; and
 (3) ensure that CitiMortgage implements a revised quality control plan that complies with HUD
 requirements. (Audit Report: 2009-KC-1001)

                                                  

    HUD OIG audited FHA loans originated by CTX Mortgage's Overland Park, KS, branch office to
 determine whether CTX Mortgage followed HUD requirements for (1) borrower eligibility and
 creditworthiness and property eligibility when underwriting loans and (2) developing a written
 quality control plan.

     CTX Mortgage did not follow HUD's requirements when underwriting 12 of 23 FHA loans reviewed.
 In addition, CTX Mortgage's written quality control plan did not contain all HUD-required elements.

     OIG recommended that HUD (1) require CTX Mortgage to indemnify HUD for 12 loans with unpaid
 principal balances totaling more than $1.2 million and (2) ensure that CTX Mortgage revises its quality
 control plan to fully comply with HUD's requirements. (Audit Report: 2009-KC-1003)

                                                  

     HUD OIG audited Allied Home Mortgage Capital Corporation in Houston, TX, a nonsupervised loan
 correspondent, to determine the validity of a hotline complaint that Allied operated its branches in
 violation of HUD requirements.

     Allied did not fully follow HUD's branch office requirements. It (1) required branch managers to
 personally enter into certain contractual agreements, such as office space leases, equipment
 contracts, and utility arrangements, at all five branches reviewed; (2) did not consistently pay rental,
 utility, and telephone expenses at all five branches; (3) requested that a former employee use
 personal funds to cover branch operating losses; and (4) hired an ineligible employee to originate
 FHA-insured single-family mortgages.




 Chapter 1 - Single-Family Housing Programs                                                                  9
Chapter 1: HUD’s Single-Family Housing Programs
         OIG recommended that HUD require Allied to (1) immediately discontinue its practices related to
     leases/agreements for all branch offices; (2) adopt new practices and controls that require it to
     directly enter into leases and/or agreements; and (3) implement the necessary policies, systems, and
     controls to ensure that it pays all required branch operating costs. Further, HUD should confirm that
     all Allied branch offices have appropriate agreements, take appropriate actions if compliance does
     not occur, and pursue civil money penalties and/or administrative sanctions, as appropriate, against
     Allied for the violations cited. (Audit Report: 2009-FW-1005)

                                                     

        HUD OIG audited the Leawood, KS, branch office of Clarion Mortgage Capital, an FHA-approved
     loan correspondent, to determine whether Clarion Mortgage Capital followed HUD requirements for
     implementing a quality control program.

         Clarion Mortgage Capital did not fully comply with HUD's or its own quality control process. It did
     not (1) ensure that its quality control contractor reviewed loans within the proper timeframes or (2)
     document on-site quality control reviews of the branch office or corrective actions taken to address
     deficiencies identified in the quality control reports.

        OIG recommended that HUD verify that Clarion Mortgage Capital has fully implemented a quality
     control program that complies with HUD requirements. (Audit Report: 2009-KC-1002)

     Review of the Asset Control Area Program
        HUD OIG audited the City of Camden, NJ's asset control area (ACA) program to determine whether
     the City complied with requirements in the ACA agreement pertaining to the resale of properties it
     acquired from HUD.

        The City did not comply with the provisions in the ACA agreement pertaining to the resale of its
     acquired ACA properties. It did not (1) ensure that 17 of 68 properties that it acquired from HUD were
     rehabilitated and sold within the required timeframe, (2) ensure that all expenses included in net
     development costs for rehabilitated properties were eligible, and (3) verify home buyers' eligibility
     and maintain the appropriate related supporting documentation. As a result, the City was unable to
     support property discounts from HUD for the 17 outstanding properties. It also included ineligible
     expenses in the net property development costs for four properties, which increased their sales prices
     and, consequently, the related mortgages by more than $11,700.

        OIG recommended that (1) HUD direct the City to obtain and provide evidence that it has the
     necessary resources to complete the rehabilitation and sale of the 17 outstanding properties or pay
     HUD $441,500, (2) the City buy down the mortgages for the four properties which had more than
     $11,600 in ineligible expenses included as part of their net development costs and verify and
     document the eligibility of each home buyer in the future, and (3) HUD not renew the ACA agreement
     with the City until it has demonstrated that it is in compliance with the requirements of the agreement.
     (Audit Report: 2009-PH-1004)

                                                     

        HUD OIG audited the City of Rochester, NY's ACA program to determine whether the City
     administered its program in compliance with program requirements to increase homeownership for
     low- and moderate-income borrowers and contribute to the revitalization of blighted communities.




10                                                                  Chapter 1 - Single-Family Housing Programs
                                                                Chapter 1: HUD’s Single-Family Housing Programs
    The City's ACA program generally met the program objectives for increasing homeownership for
 low- and moderate-income borrowers and contributed to the revitalization of blighted communities
 but was not always administered in compliance with program requirements. Specifically, the City did
 not (1) obtain HUD approval for a nonprofit organization to participate in its ACA program, (2) resell
 ACA properties within the required timeframe, (3) sell an ACA property within the price limit imposed
 by HUD, (4) obtain HUD's approval for conflict-of-interest issues, and (5) accurately calculate or
 report to HUD net development costs for each ACA property.

     OIG recommended that HUD instruct the City to (1) develop procedures to ensure that any
 nonprofit hired to administer or participate in the ACA program is approved by HUD in accordance
 with ACA policies, (2) ensure that ACA properties are resold within the established timeframe, (3) buy
 down the mortgage for an ACA property that was resold to the eligible purchaser for $4,700 more than
 the established limit, (4) cease participation with individuals or entities that have conflict-of-interest
 relationships unless HUD approval can be obtained, (5) establish procedures to ensure accurate
 calculation and reporting of net development costs and compliance with program requirements, and
 (6) review the noncompliance issues identified and decide whether to impose sanctions in
 accordance with section 8 of the ACA standard operating procedures. (Audit Report: 2009-NY-1007)

                                                  

     HUD OIG audited Enterprise Home Ownership Partners-Dallas, Inc. (EHOP-Dallas), in Dallas, TX, to
 determine whether EHOP-Dallas administered its ACA program in compliance with the agreement and
 the program objective to promote revitalization through expanded homeownership opportunities.

     EHOP-Dallas administered its ACA program in an effective manner, increasing homeownership in
 revitalization areas and contributing to reducing blight in some neighborhoods. However, it did not
 comply with requirements when it (1) provided home buyers excess equity in the homes it resold, (2)
 did not resell all homes within the time limits established under the agreement, and (3) included
 ineligible expenses associated with theft and vandalism in net development costs.

     OIG recommended that HUD require EHOP-Dallas to calculate home-buyer enforcement notes as
 defined in the agreement and exclude expenses associated with casualty losses in its calculations of
 net development costs. In addition, OIG recommended that HUD revise the agreement to address
 disposition of properties the purchaser cannot sell within 18 months because of market conditions or
 other factors beyond its control. (Audit Report: 2009-FW-1006)

 Review of HUD's Single-Family Partial Claims Collection Process
     HUD OIG audited HUD's single-family partial claims collection process and its effectiveness in
 protecting the FHA insurance fund to determine whether the single-family partial claims program
 operated effectively and efficiently to minimize the costs to the insurance fund and collect amounts in
 a timely manner. A partial claim is a loss-mitigation option that is used when a lender advances funds
 on behalf of a borrower in an amount necessary to reinstate a delinquent loan (not to exceed the
 equivalent of 12 months’ principal, interest, taxes, and insurance).

     HUD and its contractors did not properly implement a cohesive partial claims collection process
 to ensure that partial claims were serviced in a timely manner. HUD did not (1) fully develop and
 implement written policies and procedures, (2) define follow-up procedures for the forbearance plan
 option, (3) promptly transfer partial claims to the Albany Financial Operations Center, and (4) actively
 track and monitor lender billing.




 Chapter 1 - Single-Family Housing Programs                                                                   11
Chapter 1: HUD’s Single-Family Housing Programs
         OIG recommended that HUD (1) formulate and implement procedures to comply with Federal
     regulations and enhance training provided to its contractors so that debts can be transferred to the
     Albany Financial Operations Center in a timely manner, (2) develop procedures to pursue lenders for
     administrative offsets in a timely manner and improve the forbearance plans, and (3) fully implement
     the Single Family Mortgage Asset Recovery Technology system as the one system of record for partial
     claims. (Audit Report: 2009-DP-0001)

     Review of Government National Mortgage Association Internal
     Control Process
        HUD OIG audited the internal controls of the Government National Mortgage Association (Ginnie
     Mae) to assess the "match to terminated" process and related documentation of the Mortgage Backed
     Securities Information System. OIG determined that the contents of this report would not be
     appropriate for public disclosure and has limited its distribution to selected HUD officials. (Audit
     Report: 2009-DP-0002)

                                                   




12                                                               Chapter 1 - Single-Family Housing Programs
                                                              Chapter 1: HUD’s Single-Family Housing Programs
  Investigations
     Some investigations discussed in this report were generated from leads provided by HUD
  single-family housing program staff or conducted jointly with Federal, State, and local law
  enforcement agencies. The results of various significant investigations are described below.



                       Strategic Initiative 1: Contribute to the reduction of fraud
                                   in single-family insurance programs

    Key program           Cases                   $            Convictions/pleas/        Admin/civil
      results             closed              recovered            pretrials               actions
    Investigations          93                $54,204,565              90                       88
                         Page 14       - Loan origination fraud

         Our             Page 17       - Identity fraud and false Social Security numbers
        focus            Page 18       - Civil and administrative actions
                         Page 20       - Other single-family fraud




             Chart 1.2: Percentage of OIG single-family housing closed investigation cases
                                     during this reporting period




                                                                               Region 1 - 3%
                                                                               Region 2 - 14%
                                                                               Region 3 - 11%
                                                                               Region 4 - 12%
                                                                               Region 5 - 21%
                                                                               Region 6 - 9%
                                                                               Regions 7/8 - 13%
                                                                               Regions 9/10 - 16%
                                                                               Region 11 - 1%




 Chapter 1 - Single-Family Housing Programs                                                            13
Chapter 1: HUD’s Single-Family Housing Programs
     Loan Origination Fraud
         Robert and Patrick Singletary and Peter Russo, owners of CAL
     Investments, Universal Title Company, and Tropical and Sunshine
     Mortgage Companies, each pled guilty in U.S. District Court,
     Jacksonville, FL, to committing wire fraud and a conspiracy to make
     false statements to HUD. From 1997 to January 2004, the above
     defendants and others conspired and provided fraudulent gift fund
     checks used by unqualified borrowers to obtain FHA-insured mortgages.
     HUD realized losses in excess of $9 million after 139 mortgages defaulted.

                                       

         Ciriaco Gatta, an appraiser doing business as Gatta and Associates;
     Anthony Giampietro and Mary Diantonio, settlement agents for
     Rittenhouse Abstract or First City Abstract; and Trung Tam Dang and
     Zu Yun Kim, also known as Andy Kim, were collectively sentenced in
     U.S. District Court, Philadelphia, PA, to 92 months incarceration and 15
     years probation and ordered to pay HUD more than $4.46 million in
     restitution, jointly and severally, for their earlier guilty pleas to making
     false statements to HUD and committing wire and identity fraud and a
     conspiracy. The above defendants and others created fraudulent
     appraisals or documents used by unqualified borrowers to obtain                Copyright, 2008. The Times Union -
     FHA-insured mortgages. HUD realized losses in excess of $4.46                    Jacksonville, FL. Reprinted with
     million after 183 mortgages defaulted.                                                                permission.


                                                       

         Kandace Yancy Marriott, the former owner of One Way Home and Land, was sentenced in Navarro
     County District Court, Corsicana, TX, to 99 years incarceration and fined $10,000 for her earlier
     conviction of engaging in an organized criminal activity and misapplication of fiduciary funds. From
     October 2003 through August 2004, Marriott forged home buyers' signatures and provided fraudulent
     information or documents used by unqualified borrowers to obtain FHA-insured mortgages. HUD
     realized losses in excess of $4 million after 68 mortgages defaulted.

                                                       

                                           LaDonna Mullins, the owner of LaDonna's Realty and Management,
                                       was sentenced in U.S. District Court, Denver, CO, to 15 months home
                                       detention and 36 months probation and ordered to pay HUD $66,459 in
                                       restitution and forfeit $44,292 for her earlier conviction of committing
                                       wire fraud and aiding and abetting. Mullins and others submitted or
                                       caused the submission of fraudulent documents used by unqualified
                                       borrowers to obtain FHA-insured mortgages. HUD realized losses of
                                       about $1.25 million after 25 mortgages defaulted.

                                                                        

     Copyright, 2009. Rocky Mountain
     News - Denver, CO. Reprinted
     with permission.




14                                                                    Chapter 1 - Single-Family Housing Programs
                                                                   Chapter 1: HUD’s Single-Family Housing Programs
     Carey O'Laughlin, the president of National Housing Foundation, a nonprofit approved by HUD to
 obtain FHA-insured mortgages, was sentenced in U.S. District Court, Chicago, IL, to 33 months
 incarceration and 3 years probation and ordered to pay HUD $1.1 million and American Charter Bank
 $900,000 in restitution for his earlier guilty plea to making false statements to a federally insured bank.
 O'Laughlin provided false statements and documents to secure and later default on $1 million in credit
 from American Charter Bank, failed to disclose this liability on National Housing Foundation mortgage
 loan applications, and obtained and defaulted on about $2.47 million in FHA-insured mortgages. HUD
 realized losses of $1.1 million after 18 mortgages defaulted.

                                    

     Arvin Weiss, a real estate broker and president of Reserve Capital Funds
 (Reserve), and Reserve real estate sales assistant Jesus Guevara were
 collectively sentenced in U.S. District Court, Denver, CO, to 105 months
 incarceration and 72 months supervised release and ordered to jointly
 pay HUD $852,000 in restitution for their previous conviction or guilty
 plea to committing mail and wire fraud and tampering with a witness.
 From June 1998 to February 2002, Weiss, Guevara, and others submitted
 fraudulent documents or provided downpayment funds used by
 unqualified borrowers to obtain FHA-insured mortgages. HUD realized
 losses of about $852,000 after 18 mortgages defaulted.

                                    

     Juan Garcia, a mortgage broker for All Star Mortgage and president of
 J.G. Home Investment, and nine additional defendants were each indicted
 in U.S. District Court, Miami, FL, for allegedly making false statements
 and committing wire fraud and a conspiracy to commit wire fraud. Garcia
 allegedly provided fraudulent documents and downpayment funds used
 by the above defendants and others to obtain FHA-insured and
 conventional mortgages. HUD realized losses of about $727,000 after three
 mortgages defaulted. Garcia and eight of the above defendants were
 arrested after their indictments.
                                                                                Copyright, 2008. Rocky Mountain
                                                                                   News - Denver, CO. Reprinted
                                                                                                with permission.
                                                   

     Henry and Elizabeth Robertson, doing business as Elohim, Inc., were each indicted in U.S. District
 Court, Chicago, IL, for allegedly committing bank and wire fraud. Henry and Elizabeth Robertson
 allegedly provided fraudulent documents and downpayment funds used by unqualified borrowers to
 obtain FHA-insured and conventional mortgages. HUD realized losses of about $459,000 after 20
 mortgages defaulted.

                                                   

     Alberto Hernandez, president of ASH Homes Investment, Inc., and his partner John Fraga were
 collectively sentenced in U.S. District Court, Miami, FL, to 45 months incarceration and ordered to pay
 HUD $232,060 and others $201,086 in restitution, jointly and severally, for their earlier guilty pleas to
 committing mail fraud and a conspiracy. Hernandez sold properties he owned and provided the




 Chapter 1 - Single-Family Housing Programs                                                                        15
Chapter 1: HUD’s Single-Family Housing Programs
     downpayment or gift funds used by unqualified borrowers to obtain FHA-insured mortgages. Fraga
     and others converted the downpayment or gift funds provided by Hernandez to financial instruments
     used by the unqualified borrowers. In addition, Fraga obtained an FHA-insured mortgage on
     investment property he purchased from Hernandez. HUD realized losses of $232,060 after four
     mortgages defaulted.

                                                     

         Scott Hinkley, a loan officer for ABK Mortgage, was sentenced in Colorado District Court, Brighton,
     CO, to 10 years community corrections for his earlier guilty plea to committing forgery and violating
     the Colorado Organized Crime Control Act. Hinkley and others provided fraudulent loan applications
     used by unqualified borrowers to obtain FHA-insured and conventional mortgages. HUD realized
     losses of $153,814 after three mortgages defaulted.

                                                     

         Uriel Ortiz, a former office manager for Exclusive Rights Realty, was sentenced in U.S. District
     Court, Los Angeles, CA, to 36 months probation and ordered to pay HUD $143,384 in restitution for his
     earlier guilty plea to committing a conspiracy. Ortiz and others provided false documents used by
     unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of $143,384 after 13
     mortgages defaulted.

                                                     

         Rebecca Loeffler was indicted in U.S. District Court, Kansas City, MO, for allegedly making false
     statements and committing wire fraud. Loeffler allegedly provided false information to obtain an
     FHA-insured mortgage. HUD realized a loss of $115,051 after her mortgage defaulted.

                                                     

         Maria Gallucci, a realtor for Keller Williams Realty and loan officer for Uptown Mortgage Service,
     was sentenced in Adams County District Court, Brighton, CO, to a 2-year deferred sentence for her
     earlier guilty plea to committing forgery. Gallucci forged the signature of her former spouse on
     documents associated with her jointly owned FHA-insured mortgage. HUD realized a loss of $81,626
     after her mortgage defaulted.

                                                     

        Ricardo Bonilla and Abraham Rezex, former mortgage brokers for Consorcio Lending or American
     Loan Services, Inc., and Kathy Kilmer, a former real estate agent for Mortgage One Corporation, were
     each charged in U.S. District Court, Riverside, CA, with allegedly making false statements. Bonilla,
     Rezex, and Kilmer allegedly created or provided fraudulent information or documents used by
     unqualified borrowers to obtain FHA-insured mortgages. HUD losses are not yet determined.

                                                     

        Real estate closing attorney Anthony Natale and Kenneth Lagonia, the president of Quality Homes
     Are Us, each pled guilty in U.S. District Court, Newark, NJ, to making false statements to HUD or
     committing a conspiracy to commit wire fraud. From March 2003 through August 2005, Natale and
     others created and provided fraudulent documents used by unqualified borrowers to obtain




16                                                                 Chapter 1 - Single-Family Housing Programs
                                                                Chapter 1: HUD’s Single-Family Housing Programs
 FHA-insured mortgages, and Lagonie and others created and provided fraudulent information and
 documents used by real estate investors to obtain FHA-insured or conventional mortgages. HUD
 losses are not yet determined.

                                                  

    Dorie Dimarca, an individual claiming to be an FHA appraiser, was indicted in U.S. District Court,
 Concord, NH, for allegedly committing wire fraud. Dimarca allegedly used the FHA license of another
 and fraudulently prepared and submitted appraisals for 17 FHA-insured and 18 non-FHA mortgage
 loans. HUD losses are not yet determined.

                                                  

     Julie Weaver, a former loan officer for Alliance Guaranty Mortgage Corporation, was charged in
 Denver County Court, Denver, CO, with allegedly committing theft. Weaver allegedly signed closing
 documents for a straw buyer and stole $24,310 in mortgage loan proceeds from an FHA-insured
 refinance loan. HUD losses are not yet determined.

                                                  

     Frank Conti and Keith Rice, a manager and assistant mortgage broker for Regal Mortgage, each
 pled guilty in U.S. District Court, Erie, PA, to committing a conspiracy or mail fraud. In addition, Greg
 Finney, a former owner of the now-defunct A&M Homes, was sentenced to 53 months incarceration
 and 5 years probation and ordered to pay six FHA-insured mortgagors $56,500 and other victims $77,500
 in restitution for his earlier guilty plea to committing a conspiracy, mail fraud, and money laundering.
 Finney and others provided fraudulent property information and values to prospective buyers and
 directed them to Conti, Rice, and others, who provided the unqualified borrowers with false
 information and documents used to obtain FHA-insured and conventional mortgages.

 Identity Fraud and False Social Security Numbers
     Antonio Vitale, also known as Tony Vitale, a former loan officer for Sterling Capital Mortgage
 Company, was sentenced in Adams County District Court, Brighton, CO, to 60 months probation and
 ordered to perform 200 hours of community service for his earlier guilty plea to offering a false
 instrument for recording and attempting to influence a public servant. In addition, Iris Rodriguez pled
 guilty to offering a false instrument for recording, Jorge Barajas was sentenced to 24 months
 probation for his earlier guilty plea to offering a false instrument for recording, and previously
 sentenced Claudia Hernandez-Martinez was arrested when she attempted to reenter the United States.
 Vitale provided forged documents and a fraudulent Social Security number (SSN) used by an
 unqualified borrower to obtain an FHA-insured mortgage, Rodriguez sold her FHA-insured property to
 her undocumented immigrant spouse who fraudulently obtained an FHA-insured mortgage, Barajas
 provided a false SSN and other fraudulent documents to obtain and later default on his FHA-insured
 mortgage, and Hernandez-Martinez violated the terms of her probation. HUD realized losses of $3.2
 million after 49 mortgages defaulted.

                                                  

    Asifali Mahomed, a real estate broker formerly doing business as Luxor Real Estate Investment,
 was sentenced in U.S. District Court, Ft. Worth, TX, to 37 months incarceration and 36 months
 probation and ordered to pay HUD $445,862 in restitution for his earlier guilty plea to committing a




 Chapter 1 - Single-Family Housing Programs                                                                  17
Chapter 1: HUD’s Single-Family Housing Programs
     conspiracy to make false entries to HUD. Mahomed inflated financial information and provided
     downpayment funds and fraudulent SSNs used by unqualified borrowers to obtain FHA-insured
     mortgages. HUD realized losses of $445,862 after 12 mortgages defaulted.

                                                     

         Straw buyers John Prados and Caridad Paz were each sentenced in U.S. District Court, Newark,
     NJ, to 6 months home detention and 36 months probation for their earlier guilty pleas to using false
     SSNs to obtain FHA-insured mortgages and committing bankruptcy fraud or a conspiracy to defraud
     HUD. In addition, Prados was ordered to pay HUD $80,232 in restitution and was suspended from
     procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
     the Federal Government pending the outcome of criminal proceedings or any related debarment
     action. Prados, Paz, and others used or supplied fraudulent identity and other documents to obtain
     FHA-insured mortgages. HUD realized losses of $349,000 after 12 mortgages defaulted.

                                                     

         Karla Preciado, also known as Karla Venegas, a former loan processor for JLF Properties, pled
     guilty in U.S. District Court, Los Angeles, CA, to committing a conspiracy. Preciado and others
     created false identity and financial documents used by unqualified borrowers to obtain FHA-insured
     mortgages. HUD realized losses of about $220,695 after 10 mortgages defaulted.

                                                     

         FHA-insured mortgagors Juan Cantu, Jair Almaguer, and Jose Arellano Lopez were each indicted in
     Dallas County District Court, Dallas, TX, for allegedly securing execution of a document by deception.
     The above defendants allegedly used fraudulent SSNs and other documents to obtain FHA-insured
     mortgages. HUD realized losses of $83,855 after their mortgages defaulted.

                                                     

         Karla Martinez-Porras and Ludibeth Salazar, former loan officers for American United Mortgage
     Corporation or Primero Home Loan; Xochilt Alamillo, a former realtor for Frontier GMAC Real Estate;
     and FHA-insured mortgagors Prisciliano and Alma Peralta-Lopez, Alfredo Gomez-Rosales, and Rigoberto
     Olivas were each charged in Adams County Court, Brighton, CO, with allegedly attempting to
     influence a public servant; offering a false instrument for recording; and committing theft, conspiracy,
     forgery, and criminal impersonation. Martinez-Porras, Salazar, and Alamillo allegedly assisted
     undocumented immigrants who used fraudulent SSNs or documents to obtain FHA-insured mortgages;
     and Prisciliano and Alma Peralta-Lopez, Gomez-Rosales, and Olivas allegedly used false SSNs and
     other fraudulent documents to obtain FHA-insured mortgages. HUD realized a loss of $54,753 after
     one mortgage defaulted.

     Civil and Administrative Actions
         RBC Mortgage Company (RBC), a HUD direct endorsement lender, entered into a False Claims Act
     civil settlement filed in U.S. District Court, Chicago, IL, and agreed to pay the U.S. Department of
     Justice (DOJ) more than $10.9 million. From February 2001 to April 2004, RBC allegedly approved
     FHA-insured mortgages for unqualified borrowers and falsely certified that mortgages were current
     when they submitted loans for FHA insurance. HUD realized losses of about $2.6 million after 75
     mortgages defaulted.

                                                     


18                                                                  Chapter 1 - Single-Family Housing Programs
                                                                Chapter 1: HUD’s Single-Family Housing Programs
     Devon Bowie, the former owner and president of Neighborhood Mortgage Bankers who was
 previously sentenced in U.S. District Court, Newark, NJ, for his earlier guilty plea to committing a
 conspiracy to submit false documents to HUD, entered into a PFCRA settlement and agreed to pay
 HUD $10,000. Bowie conspired with others and provided false information or documents used by
 unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses in excess of $1.2 million
 after 33 mortgages defaulted.

                                                  

     Dolphin Mortgage Corporation (Dolphin), previously named in a False Claims Act complaint filed
 in U.S. District Court, Chicago, IL, was found liable and ordered to pay the U.S. Government and HUD
 more than $1.1 million. Dolphin failed to prevent the fraudulent actions of two employees who
 previously pled guilty to originating six fraudulent FHA-insured mortgages. HUD realized losses of
 more than $1.1 million after the six mortgages defaulted.

                                                  

     Demetri Coffee, an appraiser for Chase Residential Appraisal, Inc., who was previously sentenced
 in U.S. District Court, Atlanta, GA, for his earlier guilty plea to committing wire fraud; money
 laundering; and a conspiracy to commit mail, wire, bank, and bank loan frauds, was debarred from
 procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
 the Federal Government for 7 years. Coffee and others created or submitted false appraisals or
 documents used by straw borrowers to obtain FHA-insured and conventional mortgages. HUD
 realized losses of $300,000 after two mortgages defaulted.

                                                  

     Denise Baskerville, an administrative assistant for M.T. Real Estate Development, Inc., who
 previously pled guilty in U.S. District Court, Newark, NJ, to committing a conspiracy to make false
 statements, was debarred from procurement and nonprocurement transactions with HUD and
 throughout the Executive Branch of the Federal Government for 3 years. Baskerville and others
 created and provided fraudulent documents used by unqualified borrowers to obtain FHA-insured
 mortgages. HUD realized losses of $242,981 after 16 mortgages defaulted.

                                                  

     Wachovia Mortgage Company, a successor in interest for First Union Mortgage Corporation (First
 Union) located in Rochester, NY, entered into a PFCRA settlement and agreed to pay HUD $64,132.
 First Union allegedly certified a fraudulent FHA-insured mortgage submitted by previously sentenced
 Morgan Haines. Haines and others purchased homes in the Rochester area, flipped the properties to
 each other at inflated values, and provided fraudulent documents to obtain and later default on FHA
 and conventional mortgages. HUD realized losses of $186,475 after two FHA-insured mortgages
 defaulted.

                                                  

     Sammie Parr III, a HUD Officer/Teacher Next Door (Officer/Teacher) program participant and an
 officer with the Chicago Police Department, was ordered to pay DOJ $149,850 in a civil default
 judgment entered in U.S. District Court, Chicago, IL. Parr obtained a HUD-owned property and
 received a $49,950 discount, but Parr allegedly failed to report his ownership of additional real estate
 on HUD certifications.

                                                  


 Chapter 1 - Single-Family Housing Programs                                                                 19
Chapter 1: HUD’s Single-Family Housing Programs
         Burrell Robinson, a HUD Good Neighbor Next Door (Good Neighbor) program participant and an
     officer with the Baton Rouge Police Department, entered into a civil settlement filed in U.S. District
     Court, Baton Rouge, LA, and agreed to pay HUD $22,500. Robinson obtained a HUD-owned property
     and received a $22,500 discount, but Robinson failed to reside in the property or report his
     nonresidency on HUD certifications.

                                                     

         Madison Home Equities (Madison Home) and Nadine Malone, president of Madison Home, were
     each named in a civil complaint filed in U.S. District Court, Brooklyn, NY, and issued a temporary
     restraining order preventing them from using the mails or wire to fraudulently obtain mortgage
     insurance from the FHA; advertising or soliciting business to originate federally insured home
     mortgage loans; or originating, underwriting, or submitting any new loans or defaulted loan claims to
     HUD. Malone and Madison Home allegedly overstated assets, understated debts, or provided other
     false information on loan applications used by unqualified borrowers to obtain about $4 million in
     FHA-insured mortgages. HUD losses are not yet determined.

                                                     

        Richard Banach, a HUD-approved mortgage broker doing business as North Shore Financial
     located in East Meadow, NY, was suspended from procurement and nonprocurement transactions
     with HUD and throughout the Executive Branch of the Federal Government pending the outcome of
     criminal proceedings or any related debarment actions. Banach, who previously pled guilty to
     committing bank fraud, allegedly assisted unqualified borrowers who obtained fraudulent mortgages
     and failed to report his criminal history on annual HUD certifications.

                                                     

         Aspen Builders, Inc. (Aspen); Robert and Michelle Benes, the owners of Aspen; Lincoln Mortgage,
     Inc. (Lincoln); Lu Friend, the owner of Lincoln; Amy Wooten, a loan officer for Lincoln; appraisers Liga
     Coons and Aaron Wilson; and Jeremy Stickney were each named in a civil complaint filed in Lancaster
     County Court, Lincoln, NE, for allegedly committing a civil conspiracy and violating the Uniform
     Deceptive Trade Practices and the Nebraska Consumer Protection Acts. The above defendants
     allegedly made false representations and harmed mortgage lenders who approved undercollateralized
     FHA-insured and conventional mortgages and home buyers who owned properties with market values
     lower than their purchase price.

     Other Single-Family Fraud
         Aubrey Terbrack, the owner of Marathon Mortgage (Marathon), and Marathon manager Denise
     Money were collectively sentenced in U.S. District Court, Detroit, MI, to 78 months and 1 day
     incarceration, 180 days in a half-way house, 6 months home confinement, and 3 years supervised
     release and ordered to jointly pay Ginnie Mae more than $21.4 million in restitution for their earlier
     guilty pleas to committing wire fraud. From July 1998 to October 2007, Terbrack and Money failed to
     report 2,041 terminated or satisfied loans to Ginnie Mae and fraudulently used the funds they
     obtained from the terminated or satisfied mortgages for personal stock investments or to continue
     payments for nonexistent loans. Ginnie Mae realized losses of about $20 million.

                                                     




20                                                                  Chapter 1 - Single-Family Housing Programs
                                                                Chapter 1: HUD’s Single-Family Housing Programs
     Jermaine Spencer, an Officer/Teacher program participant and Bureau of Prisons employee, pled
 guilty in U.S. District Court, Denver, CO, to making false statements and was suspended from
 procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
 the Federal Government. Spencer obtained a HUD-owned property and received a $72,500 discount,
 but Spencer failed to reside in the property or report his nonresidency on HUD certifications.

                                                        

     Jason Lindsey, a Good Neighbor program participant and former University of Kansas police
 officer, was sentenced in U.S. District Court, Kansas City, MO, to 36 months probation and ordered to
 pay HUD $27,000 in restitution for his earlier guilty plea to making false statements. Lindsey obtained
 a HUD-owned property and received a $45,000 discount, but Lindsey failed to reside in the property or
 report his nonresidency on HUD certifications.

                                                        

     FHA-insured mortgagor Taeana Stokes was charged in U.S. District Court, Springfield, IL, with
 allegedly committing bankruptcy fraud. Stokes allegedly failed to report four prior bankruptcy
 petitions and delayed foreclosure proceedings relating to her FHA-insured property.

                                                        

    Twenty-two individuals employed as attorneys, appraisers, mortgage brokers, loan officers and
 processors, and others were each indicted in U.S. District Court, Chicago, IL, for allegedly committing
 wire and mail fraud. The above defendants allegedly obtained and flipped HUD real estate-owned
 properties and provided fraudulent appraisal, identity, income, and other documents used by
 unqualified borrowers to obtain conventional mortgages.




                        Reprinted with permission of the Chicago Tribune; copyright Chicago Tribune; all rights reserved.


                                                        

     Darrell Underwood, the owner of Walkwood Properties, a real estate company promoting
 foreclosure relief for distressed homeowners, was indicted in U.S. District Court, Richmond, VA, for
 allegedly engaging in unlawful monetary transactions and committing money laundering and mail,
 wire, and bank fraud. Underwood allegedly operated a "Ponzi" scheme through Walkwood Properties
 when he fraudulently obtained more than $18 million in investors' funds to purchase distressed or




 Chapter 1 - Single-Family Housing Programs                                                                                 21
Chapter 1: HUD’s Single-Family Housing Programs
     foreclosed properties, but Underwood only purchased about $2.1 million in properties, used about
     $13.4 million in subsequent investments to repay earlier investors, and misused the remaining funds.
     In addition, real estate closing attorney Colin Connelly, doing business as Connelly & Associates, pled
     guilty to committing a conspiracy to commit wire fraud. Connelly transferred the ownership of
     distressed properties to Walkwood Properties, falsified HUD-1 settlement statements, and stole about
     $376,465 in equity belonging to six homeowners, including three homeowners with FHA-insured
     mortgages.

                                                      

        Andre Johnson, doing business as Hat General Contractors, Inc., a HUD Rehabilitation Loan
     Insurance program contractor, and former HUD-approved Rehabilitation Loan Insurance program
     inspector Brian Lillie were each indicted in U.S. District Court, Chicago, IL, for allegedly committing
     mail fraud. Johnson and Lillie allegedly submitted fraudulent work completion documents and
     obtained $91,891 in rehabilitation loan escrow funds they were not entitled to receive.

                                                      

         Charlotte Schuett, a mortgage broker for Wall Street Mortgage, was sentenced in U.S. District Court,
     Chicago, IL, to 1 year incarceration and 3 years probation for her earlier guilty plea to committing mail
     fraud. Schuett used straw buyers to purchase FHA-insured and other distressed properties through
     companies she controlled, helped the distressed homeowners to file fraudulent Chapter 7 bankruptcy
     petitions, and then leased the properties back to the debtors and allowed the properties to go into
     foreclosure.

                                                      

         Robert Miller was sentenced in U.S. District Court, Washington, DC, to 17 years incarceration and
     3 years supervised release and ordered to pay numerous victims $495,000 in restitution for his earlier
     conviction of committing wire fraud and inducement to travel in interstate commerce in execution of
     a scheme to defraud. Miller posed as a lawyer, realtor, mortgage broker, foreclosure expert, and other
     professionals; obtained about $500,000 from investors to purchase HUD-owned and other properties
     to "flip" for a profit; and then failed to purchase the investment properties and personally used
     investor funds.

                                                      

         Henry Broussard, a real estate investor doing business as HBRE Development, pled guilty in U.S.
     District Court, St. Louis, MO, to committing mail fraud. Broussard purchased and flipped HUD real
     estate-owned properties and provided fraudulent loan documents used by unqualified buyers to
     obtain conventional mortgages.

                                                      




22                                                                  Chapter 1 - Single-Family Housing Programs
                                                                 Chapter 1: HUD’s Single-Family Housing Programs
Acronyms List
         The U.S. Department of Housing and Urban Development (HUD) provides grants and subsidies to
     3,496 public housing agencies (PHA) nationwide. Many PHAs administer both public housing and
     Section 8 programs. HUD also provides assistance directly to PHAs' resident organizations to
     encourage increased resident management entities and resident skills programs. Programs
     administered by PHAs are designed to enable low-income families, the elderly, and persons with
     disabilities to obtain and reside in housing that is safe, decent, sanitary, and in good repair. In addition
     to the audits and investigations described in this chapter, the Office of Inspector General (OIG), has
     conducted numerous outreach efforts (see chapter 7, page 102).



     Audit
                          Strategic Initiative 2: Contribute to the reduction of erroneous
                                            payments in rental assistance
        Key program results                   Questioned costs                          Funds put to better use

       Audit         24 audits                    $7.4 million                                   $95.5 million
                      Page 25           - Native American program activities

        Our           Page 25           - Section 8 Housing Choice Voucher and leased housing program
       focus                              activities at public housing agencies
                      Page 29           - Public housing program activities




                     Chart 2.1: Percentage of OIG public and Indian housing audit reports
                                         during this reporting period



                                                                                                          Region 1 - 17%
                                                                                                          Region 2 - 4%
                                                                                                          Region 3 - 17%
                                                                                                          Region 4 - 8%
                                                                                                          Region 5 - 12%
                                                                                                          Region 6 - 8%
                                                                                                          Regions 7/8 - 13%
                                                                                                          Regions 9/10 - 21%
                                                                                                          Region 11 - (N/A)*




        * This does not include disaster relief audits. See chapter 5 for these reviews.
                                                                           Chapter   2: HUD’s   Public and Indian Housing Programs



24                                                                          Chapter 2 - Public and Indian Housing Programs
     During this reporting period, OIG reviewed HUD's controls over the Native American program
 activities, Section 8 Housing Choice Voucher and leased housing program activities, and public
 housing activities.

 Native American Program Activities
     HUD OIG audited HUD's rules regarding calculation of program income under the Native American
 Housing and Self-Determination Act of 1996 (NAHASDA) to determine whether HUD's guidance for
 calculating program income for the NAHASDA-assisted United States Housing Act of 1937 (1937 Act)
 housing projects was consistent with generally accepted accounting principles and whether the
 effects of implementing this guidance were consistent with the purpose and goals of NAHASDA.

     HUD policies allowed tribal housing authorities to redirect and abuse rent revenue from NAHASDA-
 assisted low-rent program units developed under the 1937 Act. Further, HUD allowed tribal
 authorities to claim these funds as unrestricted income retroactively to 1998 and use the funds to
 cover expenditures not permitted under NAHASDA. As a result, tribal housing authorities redirected
 and abused millions of dollars in rent collected from low-income Native Americans living in NAHASDA-
 assisted units. About $400 million in NAHASDA-assisted rental revenue is currently unrestricted or
 available to be retroactively reclassified as unrestricted by restating accounting records back to 1998.
 HUD lacks assurance that all of these funds have been used to maintain existing rental properties or to
 assist other families in obtaining affordable housing in conformance with the purpose and goals of
 NAHASDA.

    OIG recommended that HUD (1) take immediate action to suspend the redirecting of revenue from
 NAHASDA-assisted 1937 Act units unless all costs for operation, maintenance, rehabilitation, and
 capital improvement have been reimbursed by offsetting expenses against revenue of those units in a
 method consistent with self-sufficiency and (2) rescind Public and Indian Housing Notice 2000-18 and
 associated guidance, such as Program Guidance Memorandums 2001-3T and 2002-12, until
 appropriate guidance can be designed that supports the purpose and goals of NAHASDA. (Audit
 Report: 2009-SE-0002)

 Section 8 Housing Choice Voucher and Leased Housing Program
 Activities at Public Housing Agencies
    Audits of the Section 8 Housing Choice Voucher program were a priority during this semiannual
 reporting period. PHAs were selected for audit based on risk analysis and/or hotline complaints.
 While OIG's objectives varied by auditee, the majority of the reviews were to determine whether the
 units met housing quality standards, whether the PHA managed the program according to HUD
 requirements, and whether the eligibility of the tenants was correctly determined. The following
 section illustrates the audits conducted in the Section 8 Housing Choice Voucher program area.

                                                      

     HUD OIG audited the Housing Authority of the City of Los Angeles in Los Angeles, CA, regarding
 Section 8 housing quality standards inspections for its Section 8 Housing Choice Voucher program. Of
 68 Section 8 units inspected, 43 did not meet HUD's housing quality standards, and 19 were in material
 noncompliance with HUD's standards.

    OIG recommended that HUD require the Authority to (1) implement adequate procedures and
 controls to ensure that all units meet HUD's housing quality standards to prevent $65.6 million in
 program funds from being spent on units that are in noncompliance with HUD's standards and



 Chapter 2 - Public and Indian Housing Programs                                                             25
Chapter 2: HUD’s Public and Indian Housing Programs
     (2) verify and certify that the owners have taken appropriate corrective actions for all applicable
     housing quality standards deficiencies identified. If appropriate actions have not been taken, the
     Authority should abate the rents or terminate the housing assistance payments contracts. (Audit
     Report: 2009-LA-1002)

                                                     

         HUD OIG audited the Housing Choice Voucher program of the Indianapolis Housing Agency in
     Indianapolis, IN, and found that the Agency failed to administer its program according to HUD's
     requirements. Further, its administration regarding the use of available program funding, selection
     and approval of project-based units, and housing conditions for its project-based units was inadequate.
     The Agency's failure to meet HUD's lease-up thresholds resulted in approximately 1,569 households
     not being housed in fiscal year (FY) 2008 and more than $8.7 million in program funds not being used
     to provide decent, safe, and sanitary housing for eligible households.

        The Agency lacked documentation to support its selection and approval of project-based voucher
     program projects. As a result, it could not support that any of the 11 projects was eligible for more
     than $2 million in project-based assistance and that nearly $212,000 in program administrative fees
     received by the Agency was appropriate. Of the 18 project-based units inspected, 17 did not meet
     minimum housing quality standards, and 11 had material violations that existed before the Agency's
     previous inspections. As a result, more than $24,000 in program funds was spent on units that were
     not decent, safe, and sanitary.

         OIG recommended that HUD require the Agency to (1) reimburse its Housing Choice Voucher
     program from nonfederal funds for the improper use of nearly $236,000 in program funds, (2) provide
     documentation or reimburse its program from nonfederal funds for the unsupported payments
     identified, (3) implement adequate procedures and controls to address the findings cited to prevent
     nearly $9 million in program funds from not being used over the next year to house needy families, and
     (4) implement a detailed comprehensive written action plan to improve its procedures and controls to
     ensure that it operates its program in accordance with HUD's and its own requirements. (Audit
     Report: 2009-CH-1002)

                                                     

        HUD OIG audited the Housing Authority of the City of Pittsburgh, PA's administration of its leased
     housing under its Moving to Work Demonstration program to determine whether the Authority
     ensured that its leased housing units met HUD's housing quality standards.

        The Authority failed to ensure that its leased program units met HUD's housing quality standards.
     Of 66 program units inspected, 62 did not meet HUD's standards, and 53 were in material
     noncompliance with standards. The Authority spent more than $100,000 in program and
     administrative funds for these 53 units.

        OIG recommended that HUD require the Authority to ensure that housing units inspected during
     the audit are repaired to meet HUD's housing quality standards, reimburse its program for the
     improper use of program funds for units that materially failed to meet HUD's standards, and
     implement adequate procedures and controls to ensure that program units meet housing quality
     standards to prevent an estimated $9.3 million from being spent annually on units that materially fail
     to meet HUD's standards. (Audit Report: 2009-PH-1003)

                                                     




26                                                             Chapter 2 - Public and Indian Housing Programs
                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     HUD OIG audited the Section 8 Housing Choice Voucher program of the Chicago Housing Authority
 in Chicago, IL, under its Moving to Work Demonstration program to determine whether the Authority
 administered its program in accordance with HUD's requirements and its program administrative plan
 regarding the enforcement of housing quality standards.

     The Authority's program administration regarding housing unit conditions and timeliness of
 annual housing unit inspections was inadequate. Of the 65 housing units inspected that did not
 receive a quality control inspection by CVR Associates, Incorporated, the Authority's inspections
 contractor, 52 did not meet HUD's housing quality standards, and 23 had exigent health and safety
 violations that existed at the time of CVR's previous inspections. Of the 39 housing units inspected
 that received a quality control inspection by CVR, 33 did not meet HUD's housing quality standards,
 and 12 had exigent health and safety violations that existed at the time of CVR's previous inspections.
 The Authority also failed to ensure that its housing unit inspections were conducted in a timely
 manner. Of the 300 household files reviewed, 62 contained inspections that were not conducted within
 the required 1 year of the previous inspections. The number of days late ranged from 4 to 1,001.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds
 for the improper use of nearly $102,000 in program funds and implement adequate procedures and
 controls to address the finding cited. These procedures and controls should help to ensure that more
 than $3.1 million in program funds is spent on housing units that meet HUD's requirements. (Audit
 Report: 2009-CH-1005)

                                                      

     HUD OIG audited the City of Hartford, CT's administration of its Housing Choice Voucher program
 and found that the City generally administered its program in compliance with its annual
 contributions contracts and HUD regulations. However, housing did not always meet minimum
 standards, the City continued to pay for housing with uncorrected housing quality standards
 violations, it could not support administrative fees charged, and it did not properly account for tenant
 fraud recoveries. Questioned costs and opportunities for funds to be put to better use totaled more
 than $2.4 million.

     Of the housing units inspected, 47 percent did not meet minimum standards, and 27 percent had
 serious safety hazards. In addition, rent payments were made when owners failed to correct
 deficiencies within required timeframes. The City may pay more than $1.5 million over the next year
 for units with material deficiencies--if it does not monitor its contract inspectors and implement
 effective quality control procedures--and more than $225,000 for housing with uncorrected
 deficiencies.

    The City also could not support more than $623,000 in administrative fees charged to the program
 and did not properly account for and monitor tenant fraud recoveries. During the audit, the
 contractor implemented corrective actions, and OIG estimates that the City will now receive more
 than $17,000 in additional funds from HUD in 2009.

     OIG recommended that HUD require the City to (1) implement controls to ensure that housing
 units meet minimum housing quality standards and abate rents when units are not repaired within
 required timeframes; (2) implement a reasonable method for allocating salaries, benefits, and other
 costs to its Housing Choice Voucher program and repay the program for any unsupported costs; and
 (3) properly monitor, account for, and report tenant fraud recoveries to HUD. (Audit Report:
 2009-BO-1004)

                                                      



 Chapter 2 - Public and Indian Housing Programs                                                             27
Chapter 2: HUD’s Public and Indian Housing Programs
         HUD OIG audited the Delaware County Housing Authority, Woodlyn, PA, regarding the
     administration of its housing quality standards inspection program for its Section 8 Housing Choice
     Voucher program and found that the Authority did not adequately administer its inspection program
     to ensure that its program units met housing quality standards as required. Of 61 housing units
     inspected, 60 did not meet HUD's housing quality standards, and 32 had health and safety violations
     that the Authority's inspectors did not report during their last inspection. The Authority spent more
     than $43,000 in program and administrative funds for these 32 units. It also did not properly abate
     rents when units failed its housing quality standards inspections. Of 25 program units that did not
     pass the Authority's housing quality standards inspections, it failed to abate payments for 21 of the
     units and inappropriately abated payments for four units, resulting in improper payments of nearly
     $7,000 and nearly $2,000 in underpayments to landlords.

         OIG recommended that HUD require the Authority to (1) ensure that housing units inspected
     during the audit are repaired to meet HUD's housing quality standards, (2) reimburse its program from
     nonfederal funds for the improper use of program and administrative funds for units that materially
     failed to meet HUD's housing quality standards, (3) implement adequate procedures and controls to
     ensure that program units meet housing quality standards to prevent an estimated $1.9 million from
     being spent annually on units that materially fail to meet HUD's housing quality standards,
     (4) reimburse its program for the 21 units for which it did not abate assistance payments, (5) pay
     landlords for payments that were not abated correctly, and (6) enforce its established policies and
     procedures to ensure that its abatements comply with HUD requirements, thereby preventing an
     estimated $26,000 from being spent annually on units that should have had assistance payments
     abated. (Audit Report: 2009-PH-1002)

                                                    

        HUD OIG audited the Housing Choice Voucher program of the Portage Metropolitan Housing
     Authority in Ravenna, OH, under its Moving to Work Demonstration program and found that the
     Authority inappropriately administered its program. It failed to properly select owners, approve
     program units, execute contracts, and monitor the operations of its project-based voucher program.
     As a result, it paid nearly $349,000 in improper housing and utility assistance, was unable to support
     nearly $300,000 in housing and utility assistance, and received more than $65,000 in improper Section
     8 administrative fees. Over the next 12 months, the Authority could spend more than $200,000 in
     program funds for inappropriate housing assistance and utility allowance payments and Section 8
     administrative fees.

         Of the 58 program units selected for inspection, 42 did not meet minimum housing quality
     standards, and 32 had material violations that existed before the Authority's previous inspections. As
     a result, more than $38,000 in program funds was spent on units that were not decent, safe, and
     sanitary. Over the next year, HUD could pay more than $1 million in housing assistance on units with
     material housing quality standards violations.

         OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds
     for the improper use of more than $450,000 in program funds; provide documentation or reimburse its
     program from nonfederal funds for the unsupported payments identified; and implement adequate
     procedures and controls to address the findings cited to prevent more than $1.2 million from being
     spent on housing that is not eligible for program assistance or decent, safe, and sanitary. (Audit
     Report: 2009-CH-1003)

                                                    




28                                                             Chapter 2 - Public and Indian Housing Programs
                                                           Chapter 2: HUD’s Public and Indian Housing Programs
    HUD OIG audited the Housing Choice Voucher program of the East St. Louis Housing Authority,
 East St. Louis, IL, and found that 79 percent of the Authority's Section 8 program units materially failed
 to meet HUD's housing quality standards.

     OIG recommended that HUD require the Authority to reimburse its program from nonfederal funds
 for the improper use of more than $64,000 and implement adequate procedures to address the finding
 cited. These procedures should ensure that approximately $1.7 million in program funds is spent on
 housing units that meet HUD requirements. (Audit Report: 2009-KC-1005)

                                                      

     HUD OIG audited the Richmond Redevelopment and Housing Authority, Richmond, VA, regarding
 the administration of its housing quality standards inspection program for its Section 8 Housing Choice
 Voucher program and found that the Authority did not adequately administer its inspection program
 to ensure that its program units met housing quality standards as required. Of 62 housing units
 inspected, 42 did not meet HUD's housing quality standards, and 26 had material health and safety
 violations that the Authority's inspectors neglected to report during their last inspection. As a result,
 the Authority spent nearly $69,000 in program funds on units that were not decent, safe, and sanitary.

      OIG recommended that HUD require the Authority to (1) ensure that housing units are repaired to
 meet HUD's housing quality standards, (2) reimburse its program from nonfederal funds for the
 improper use of program funds for units that materially failed to meet HUD's standards, and
 (3) implement adequate procedures and controls to ensure that program units meet housing quality
 standards to prevent an estimated $1.1 million from being spent annually on units that materially fail
 to meet HUD's standards. (Audit Report: 2009-PH-1001)

                                                      

    HUD OIG audited the Housing Choice Voucher program of the Taunton Housing Authority in Taunton,
 MA, and found that the Authority generally administered the program efficiently and effectively and in
 compliance with its annual contributions contract and HUD regulations. However, it could not readily
 identify whether program funds were used only for the administration of the program because it did
 not properly account for and report interprogram fund transactions between its Federal and State
 programs, resulting in unsupported transactions being recorded in its program accounts.

     OIG recommended that HUD require the Authority to (1) provide support for more than $593,000
 in interprogram fund transactions that were out of balance between Federal and State programs,
 (2) implement procedures for recording and reconciling interprogram transactions and correcting
 imbalances, and (3) establish controls to ensure that all interprogram transactions are recorded and
 reconciled monthly and inspections are properly performed and supported by adequate
 documentation. (Audit Report: 2009-BO-1001)

 Public Housing Program Activities
    HUD OIG audited the Housing Authority of the City of Conyers, GA's administration of its
 disbursements and procurement procedures to determine whether the Authority used its Federal
 funds in compliance with HUD regulations and other requirements. The Authority used more than
 $891,000 in Federal funds to pay ineligible and unsupported costs. Its board did not ensure that the
 former executive director expended funds in accordance with Authority and HUD requirements,
 adequately documented expenditures, and followed procurement policies.




 Chapter 2 - Public and Indian Housing Programs                                                               29
Chapter 2: HUD’s Public and Indian Housing Programs
         OIG recommended that HUD require the Authority to (1) repay nearly $186,000 to its public
     housing operating and capital improvement programs for ineligible payments made to or on behalf of
     the former board chairman, (2) support more than $182,000 in payments made to or on behalf of the
     executive director and the former lease enforcement officer, (3) provide documentation to support
     more than $523,000 in payments made for various purchases or repay its public housing program,
     (4) review and implement internal controls for purchasing goods and services, and (5) ensure that its
     board performs its oversight duties in a responsible manner. OIG also recommended that HUD take
     appropriate administrative action against the Authority officials responsible for the improper
     disbursements. (Audit Report: 2009-AT-1001)

                                                      

        HUD OIG audited the Area Housing Authority of the County of Ventura in Newby, CA, to determine
     whether the Authority fulfilled its payment-in-lieu-of-taxes obligations for its low-rent public housing
     program and if not, whether applicable funds were used in accordance with HUD requirements.

           The Authority disregarded its low-rent public housing program's payment-in-lieu-of-taxes
     obligations to the County, including the Cities of Ojai, Moorpark, Camarillo, and Thousand Oaks,
     contrary to its consolidated annual contributions contract and cooperation agreements. Specifically,
     it discontinued the payment of its payment-in-lieu-of-taxes obligations in 2001 and instead allocated
     more than $637,000 in reserves between 2001 and 2007, which it maintained in an interest-bearing
     bank account. It also requested and received additional funding from HUD to make this payment-
     in-lieu-of-taxes obligation as part of an additional $196,000 expense incurred for calendar years 2007
     and 2008.

         OIG recommended that HUD require the Authority to comply with HUD's requirements regarding
     the use of payment-in-lieu-of-taxes funds with the County and the Cities by settling its payment-in-lieu-
     of-taxes obligations to the County or reimburse HUD more than $736,000. (Audit Report:
     2009-LA-1003)

                                                      

        HUD OIG audited the Housing Authority of the City of El Paso, El Paso, TX, regarding its
     procurement process and board of commissioners' activities to determine whether the Authority
     properly followed procurement requirements and whether the executive director was selected in
     accordance with applicable procedures.

        The Authority did not follow its procurement policies or HUD's procurement requirements.
     Specifically, it inappropriately paid more than $700,000 because it did not properly administer its
     procurements. Also, a former board member and a former employee created conflicts of interest.
     Further, the Authority did not establish written procedures for the selection of its executive director,
     and its board members did not always file ethics questionnaires in a timely manner.

         OIG recommended that the Authority (1) repay from nonfederal funds nearly $662,000 to its
     restricted operating reserve for locally owned properties account, nearly $13,000 to HUD, and nearly
     $32,000 to its capital fund account; (2) implement procedures to ensure that it complies with its
     procurement policies and HUD regulations and requirements; and (3) ensure that its executive
     director and its contracting department employees attend HUD-approved procurement training.
     Further, OIG recommended that HUD take administrative or other actions regarding the conflicts of
     interest created by a former board vice-chair and a former employee. (Audit Report: 2009-FW-1003)

                                                      



30                                                              Chapter 2 - Public and Indian Housing Programs
                                                             Chapter 2: HUD’s Public and Indian Housing Programs
     HUD OIG audited the New York City Housing Authority in New York City, NY, regarding the
 administration of its capital fund program as part of the OIG strategic plan goals to improve HUD's
 fiscal accountability.

     There were weaknesses in the Authority's controls over the obligation and disbursement of capital
 funds. Specifically, the Authority (1) lacked adequate documentation to support that all funds were
 obligated within prescribed timeframes, (2) charged capital funds for routine maintenance costs that
 should have been charged to the low-rent program, and (3) executed contracts with timeframes that
 exceeded those authorized by its procurement policy. As a result, the Authority lacked support that
 $82 million was properly obligated, improperly charged more than $590,000 in routine maintenance
 expenses to the capital fund program, and executed contracts with terms that exceeded its policy
 limitations.

     OIG recommended that HUD instruct the Authority to (1) provide support that capital funds were
 obligated within prescribed timeframes, (2) reimburse the capital fund program from the low-rent
 housing program for the routine maintenance costs charged, and (3) strengthen procurement
 controls to ensure compliance with its policy. (Audit Report: 2009-NY-1002)

                                                      

     HUD OIG audited the Fort Smith Housing Authority in Fort Smith, AR, to determine whether the
 Authority and its instrumentality, North Pointe Limited Partnership, spent HUD-provided funds in
 compliance with HUD's rules and regulations for costs related to North Pointe Development, including
 relocation activities, and whether they complied with Federal procurement regulations.

    The Authority and its instrumentality improperly encumbered Authority assets and did not
 comply with Federal procurement regulations for three procurements, and the Authority
 inappropriately spent HUD program funds on activities that did not benefit HUD programs.

     OIG recommended that HUD require the Authority to (1) obtain the release of any encumbered
 assets and ensure that it will no longer encumber assets; (2) support or repay $400,000 to its HOME
 Investment Partnerships program, more than $94,000 to its Community Development Block Grant
 program, more than $30,000 to its capital fund grants, and more than $9,700 to its Section 8 project
 reserve or HUD as appropriate; (3) ensure that it procures goods and services as required; and
 (4) implement written procedures and controls to prevent future noncompliance. (Audit Report:
 2009-FW-1001)

                                                      

     HUD OIG audited the Section 8 funds transfer and public housing program tenant rent calculations
 of the Housing Authority of the County of Marin in San Rafael, CA, to determine whether (1) the
 transfer of Section 8 operating reserve funds to the public housing program in FY 2006 was made in
 compliance with HUD regulations and (2) the Authority calculated public housing tenant rents in
 accordance with HUD requirements.

     The Authority's transfer of Section 8 operating reserve funds to the public housing program in FY
 2006 was made using pre-2004 funds in compliance with HUD regulations. However, the Authority did
 not calculate public housing tenant rents in accordance with HUD requirements in 35 of the 71 files
 reviewed.




 Chapter 2 - Public and Indian Housing Programs                                                          31
Chapter 2: HUD’s Public and Indian Housing Programs
         OIG recommended that HUD require the Authority to (1) reimburse its program residents nearly
     $4,000 for overcharged tenant rents, (2) establish and implement procedures and controls to ensure
     that tenant rents are calculated in accordance with HUD requirements, and (3) provide appropriate
     training to Authority staff to ensure that they understand how to calculate tenant rents correctly. OIG
     also recommended that HUD perform a review of the Authority's tenant files within 6 months to
     ensure that tenant rents are calculated correctly. (Audit Report: 2009-LA-1001)

                                                     

         HUD OIG audited the Housing Authority of Douglas County in Roseburg, OR, to determine whether
     the Authority procured goods and services in accordance with HUD regulations and its procurement
     policy, accounted for HUD funds in accordance with HUD's administrative requirements, and managed
     its Housing Choice Voucher program in accordance with HUD regulations.

        The Authority had internal control weaknesses that resulted in incomplete procurement
     documentation, inadequate source documentation, inaccurate housing assistance calculations and
     payments, and unallowable expenditures. It spent more than $2,000 on charitable donations and
     social events that were unallowable.

        OIG recommended that HUD require the Authority to implement procedures and processes to
     remedy the internal control weaknesses and repay the ineligible expenditures from nonfederal funds.
     (Audit Report: 2009-SE-1001)

                                                     

        HUD OIG audited the Housing Authority of the City of Brush, CO, to determine whether the
     Authority performed contracting activities in accordance with Federal procurement requirements.

         The Authority did not perform contracting activities in accordance with Federal procurement
     requirements. It did not follow HUD requirements regarding price quotations, price analyses, written
     justification requirements, or contract determinations.

         OIG recommended that HUD require the Authority to properly train its staff regarding Federal
     procurement requirements. In addition, OIG recommended that HUD perform a postmonitoring
     review to ensure that the Authority took the recommended actions. (Audit Report: 2009-DE-1002)

                                                     

        HUD OIG audited the Housing Authority of the City of Annapolis, MD's management of lead-based
     paint in its public housing units to determine whether the Authority complied with HUD and State of
     Maryland requirements for inspecting and abating lead-based paint hazards in its public housing units.

         The Authority did not comply with HUD and State lead-based paint requirements in a timely
     manner. HUD regulations required the Authority to complete lead-based paint inspections by
     September 15, 2000, and risk assessments by March 15, 2002, for all of its public housing units. The
     Authority did not comply with these requirements until April 2004. Further, it did not comply in a
     timely manner with the terms of an agreement with the Maryland Department of the Environment
     obligating it to comply with State lead paint requirements by February 2007. On December 31, 2008,
     the Authority submitted documentation to the State as evidence of its compliance with the agreement
     and the State's lead paint requirements.




32                                                             Chapter 2 - Public and Indian Housing Programs
                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     OIG recommended that HUD ensure that the documentation the Authority provided to the State in
 December 2008 brought the Authority into compliance with State lead paint laws and if not,
 reemphasize to the Authority its obligation to comply with the State lead paint laws. OIG also
 recommended that HUD direct the Authority to develop and implement a written policy and
 procedures for its ongoing maintenance and reevaluation program for units with lead-based paint,
 including maintaining supporting documentation. (Audit Report: 2009-PH-1006)

                                                      




 Chapter 2 - Public and Indian Housing Programs                                                      33
Chapter 2: HUD’s Public and Indian Housing Programs
     Investigations
        Some investigations discussed in this report were generated from leads provided by HUD public
     and Indian housing program staff or conducted jointly with Federal, State, and local law enforcement
     agencies. The results of various significant investigations are described below.

                       Strategic Initiative 2: Contribute to the reduction of erroneous
                                         payments in rental assistance

       Key program         Cases                 $              Convictions/pleas/          Admin/civil
         results           closed            recovered              pretrials                 actions
      Investigations         356             $9,110,822                 273                        407
                           Page 35     - Public housing authority theft/embezzlement

            Our            Page 40     - Rental assistance fraud
           focus           Page 45     - FedRent initiative
                           Page 48     - Fugitive Felon Initiative
                           Page 48     - Other fraud and crimes




               Chart 2.2: Percentage of OIG public and Indian housing closed investigation
                                    cases during this reporting period




                                                                                  Region 1 - 4%
                                                                                  Region 2 - 13%
                                                                                  Region 3 - 12%
                                                                                  Region 4 - 14%
                                                                                  Region 5 - 18%
                                                                                  Region 6 - 13%
                                                                                  Regions 7/8 - 10%
                                                                                  Regions 9/10 - 15%
                                                                                  Region 11 - 1%




34                                                            Chapter 2 - Public and Indian Housing Programs
                                                           Chapter 2: HUD’s Public and Indian Housing Programs
 Public Housing Authority Theft/Embezzlement
     Lodgebuilder Inc. (Lodgebuilder), a former developer under contract with the Fort Defiance
 Housing Corporation (Fort Defiance), an organization that receives HUD funding through the Navajo
 Housing Authority (Navajo), and Lodgebuilder principals William Aubrey and Brenda Todd were each
 found liable in an adversary proceeding held in U.S. Bankruptcy Court, Phoenix, AZ, and collectively
 ordered to pay Fort Defiance more than $1.9 million for breaching their fiduciary duties. Lodgebuilder
 failed to complete Chilchinbeto Estates, a Navajo housing project located in Window Rock, AZ.

                                                      

     Carl Payne, the former executive director for the Harrisburg Housing Authority (Harrisburg) and
 president and chief executive officer for the now-defunct Greater Harrisburg Community Credit Union
 (Harrisburg Credit Union), was sentenced in U.S. District Court, Harrisburg, PA, to 5 months
 incarceration, 5 months home confinement, and 1 year probation and fined $10,000 for his earlier
 guilty plea to making false statements. Payne and others created false documents to obstruct a grand
 jury investigation involving the unauthorized diversion of $834,969 in Harrisburg housing funds to the
 Harrisburg Credit Union.

                                                      

    Rudolph Crawford, an individual claiming to be a Tampa Housing Authority landlord, was
 sentenced in U.S. District Court, Tampa, FL, to 4 months home detention and 5 years probation and
 ordered to pay HUD $23,152 in restitution for his earlier guilty plea to committing theft of government
 funds. Crawford and others conspired and used the Authority's computer system to fraudulently
 generate and obtain $455,168 in housing assistance payments.

                                                      

     Cassandra Ashe, the former East Haven Housing Authority (East Haven) executive director and
 New London Housing Authority (New London) Section 8 coordinator, and her husband Jonathan Ashe,
 a former New London employee, each pled guilty in U.S. District Court, Hartford, CT, to committing a
 conspiracy. From August 2003 through August 2005, Cassandra and Jonathan Ashe conspired and
 created a fictitious landlord to obtain $204,951 in New London housing contract payments, and from
 March 2007 through April 2008, they stole $192,600 in East Haven housing funds through unauthorized
 bank withdrawals. HUD realized losses of $397,191.

                                                      

     Juanita Cruz, a former housing specialist for the Deland Housing Authority, was arrested in Deland,
 FL, on probable cause for allegedly committing grand theft over $100,000. From November 2003 to
 September 2008, Cruz allegedly created a fictitious Section 8 landlord and fraudulently obtained $292,446
 in housing assistance payments.

                                                      

     Brent Wells, the former Crow Creek Housing Authority (Crow Creek) executive director; former
 Crow Creek finance officer Alyce McGhee, also known as Alyce Shields; and former Crow Creek
 employees Carla Big Eagle, Velsworth Hawk, and Terra Thompson, each previously sentenced in U.S.
 District Court, Fort Thompson or Pierre, SD, for their guilty pleas to committing embezzlement and
 theft from an Indian tribal organization, were debarred from procurement and nonprocurement




 Chapter 2 - Public and Indian Housing Programs                                                              35
Chapter 2: HUD’s Public and Indian Housing Programs
     transactions with HUD and throughout the Executive Branch of the Federal Government for 24 months
     to 3 years. From May 2004 through December 2005, the above defendants and others submitted
     fictitious receipts or invoices and embezzled $186,669 in Crow Creek funds.

                                                         

         Laura Morales, the former Bexar County Housing Authority (Bexar County) executive director,
     was charged in U.S. District Court, San Antonio, TX, with allegedly committing theft of Federal
     program funds. Morales allegedly stole more than $131,000 in Bexar County funds when she
     fraudulently inflated her annual leave hours and compensated herself by creating, endorsing, and
     negotiating unauthorized Bexar County checks.




                            Copyright, 2009. San Antonio Express - San Antonio, TX. Reprinted with permission.

                                                         

         Kristi and Ronnie Wilson, the former Conyers Housing Authority (Conyers) executive director and
     lease enforcement officer, were each indicted in U.S. District Court, Atlanta, GA, for allegedly
     committing a conspiracy, theft of government funds, mail fraud, and honest service violations. Kristi
     and Ronnie Wilson allegedly used Conyers credit cards for personal expenses, and Kristi Wilson




                          Copyright, 2008. Rockdale Citizen - Conyers, GA. Reprinted with permission.




36                                                                    Chapter 2 - Public and Indian Housing Programs
                                                                  Chapter 2: HUD’s Public and Indian Housing Programs
 allegedly approved and obtained unauthorized salary payments for herself and Ronnie Wilson. HUD
 losses are estimated at $130,000.

                                        

     Norman Taylor, a Housing Authority of New Orleans (New Orleans) security
 manager, was indicted in U.S. District Court, New Orleans, LA, for allegedly
 committing Federal program fraud. From January 2006 to March 2008, Taylor
 allegedly prepared, endorsed, and negotiated $85,000 in bogus New Orleans
 payroll checks.

                                                       

                                 Robert Newell, the former governor for the
                             Passamaquoddy Tribe Indian Township Reservation
                             (Passamaquoddy), a HUD-funded Indian tribal
                             organization, and former Passamaquoddy financial
                             officer James Parisi were each convicted in U.S.
                             District Court, Bangor, ME, of committing a conspiracy
                             and embezzlement and making false statements and
                             claims. From 2003 to 2006, Newell and Parisi diverted
                             and used more than $1.7 million in Passamaquoddy
                             funds without authorization, including $82,000 in HUD
                             funds.

                                                       

                                 James Pumpelly, a manager for Parkside
                             Management and Rental Company (Parkside), an
                             organization that receives housing assistance from both
                             the Barre and Vermont Housing Authorities, was
                             indicted in U.S. District Court, Rutland, VT, for
                             allegedly committing theft of government funds, bank
                             fraud, and fraud by interstate commerce. From             Copyright, 2008. The
                              October 2007 to January 2008, Pumpelly allegedly        Times-Picayune - New
   Copyright, 2008. Bangor                                                           Orleans, LA. Reprinted
   Daily News - Bangor,       embezzled more than $500,000 in Parkside funds,
                                                                                          with permission.
   ME. Reprinted with         including $75,000 in Section 8 subsidies.
   permission.
                                                      

      Audrey Hall, a former housing counselor for the Lancaster Housing Agency, pled guilty in U.S.
 District Court, Dallas, TX, to making a false writing or document to a Federal agency. Hall created a
 fictitious tenant and corresponding documents and fraudulently obtained about $65,000 in housing
 assistance payments

                                                      

    Rosita Colon, the former leased housing coordinator for the Everett Housing Authority and a
 Metropolitan Boston Housing Partnership Section 8 tenant, was arrested and charged in U.S. District
 Court, Boston, MA, with allegedly committing theft of public money and misrepresentation of a Social
 Security number (SSN). From September 1996 through November 2007, Colon allegedly used several




 Chapter 2 - Public and Indian Housing Programs                                                               37
Chapter 2: HUD’s Public and Indian Housing Programs
     fraudulent identities and SSNs, failed to report income on housing and other certifications, and
     obtained $37,301 in housing assistance and $167,079 in other benefits she was not entitled to receive.

                                                      

         Erica Spears, the former Omaha Tribal Housing Authority (Omaha Tribal) executive director, was
     sentenced in U.S. District Court, Omaha, NE, to 3 years probation and ordered to pay Omaha Tribal
     $23,000 in restitution for her earlier guilty plea to misapplication and unauthorized conversion of
     money from an entity receiving Federal funds. Spears embezzled approximately $30,000 from Omaha
     Tribal through unauthorized salary payments, falsified travel forms, and loans she failed to repay.

                                                      

        LaVina McNeil, the former executive director for the Wolf Creek Community Committee (Wolf Creek),
     a Navajo Housing Authority contractor, was indicted in U.S. District Court, Phoenix, AZ, for allegedly
     committing embezzlement and theft from an Indian tribal organization. McNeil allegedly embezzled
     Wolf Creek funds when she prepared, endorsed, and negotiated one $28,296 Wolf Creek check without
     authorization.

                                                      

         Ronnie Faison and Sergio Gonzalez, the former Englewood Housing Authority (Englewood) deputy
     director and bookkeeper, were each arrested and charged in U.S. District Court, Newark, NJ, with
     allegedly committing theft of government funds. Faison and Gonzalez allegedly used $7,400 in Englewood
     funds to purchase personal use items.

                                                      

                             William Stevens, Jacqueline Washington, and Barbara Johnson, the president,
                         vice-president, and treasurer of the local advisory council for Crestview Apartments
                         (Crestview), a housing development funded by the Cuyahoga Metropolitan Housing
                         Authority, were each charged in Cuyahoga County Court of Common Pleas,
                         Cleveland, OH, with allegedly committing theft. The above defendants allegedly
                         diverted and personally used $4,236 in Crestview funds.

                                                               

                             Carlos Madrid, the former board chairman for the Housing Authority of Bexar
                         County (Bexar County), pled guilty in U.S. District Court, San Antonio, TX, to
                         depravation of honest services. Madrid failed to disclose his relationship to or
                         employment with a developer involved in a Bexar County housing project, acted as
                         an advocate for the project before the Bexar County board and voted to approve the
                         project, and then altered the Bexar County board meeting minutes in an attempt to
                         corroborate his reported abstinence from the vote.

                                                               




      Copyright, 2008. San Antonio
      Express - San Antonio, TX.
      Reprinted with permission.



38                                                               Chapter 2 - Public and Indian Housing Programs
                                                             Chapter 2: HUD’s Public and Indian Housing Programs
     Benny Ramos, the former deputy director for the City of Paterson Section 8 program, was
 sentenced in U.S. District Court, Newark, NJ, to 37 months incarceration and 36 months supervised
 release and fined $1,100 for his earlier guilty plea to accepting cash intending to be influenced and
 rewarded. From 2004 through February 2006, Ramos solicited and accepted bribes from an unnamed
 conspirator in exchange for steering Section 8 tenants to specific properties.

                                                      

    Teresa Meegan, the Moline Housing Authority executive director, pled guilty in U.S. District Court,
 Rock Island, IL, to making false statements to HUD. Meegan falsified and altered public housing
 waiting lists to assist family members and friends.

                                                      

     Real estate appraiser Anthony Staph was indicted in U.S. District Court, Pittsburgh, PA, for
 allegedly committing bank fraud, and the Lawrence County Housing Authority (Lawrence County)
 board of directors chairman Gary Felasco was charged with allegedly failing to file a Federal income
 tax return. Staph allegedly prepared and provided seven fraudulent property appraisals used by
 Affordable Housing of Lawrence County, Inc., a nonprofit organization created by Lawrence County to
 obtain conventional mortgage loans. Felasco allegedly failed to file a 2005 Federal income tax return
 or report income he received for his involvement in the above scheme.

                                                      

     Michael Macaruso, a former Providence, North Providence, and Cranston Housing Authorities
 contractor, doing business as Ocean State Building Wrecking and Asbestos Removal, Inc., was
 sentenced in U.S. District Court, Providence, RI, to 2 years incarceration and 3 years supervised
 release, ordered to perform 720 hours of community service and pay his former employees $117,841
 in restitution, and fined $50,000 for his earlier guilty plea to obtaining kickbacks from public works
 employees and filing false Federal income tax returns. From July 2003 to December 2006, Macaruso
 submitted false employee wage and benefit certifications to the above housing authorities and failed
 to report income on his 2005 and 2006 Federal income tax returns.




                                         Copyright, 2009. Providence Journal - Providence, RI.
                                                                  Reprinted with permission.

                                                      

 Chapter 2 - Public and Indian Housing Programs                                                           39
Chapter 2: HUD’s Public and Indian Housing Programs
         John Fischer, a former Buffalo Municipal Housing Authority (Buffalo) administrator, was indicted
     in U.S. District Court, Buffalo, NY, for allegedly committing bribery and extortion and tampering with
     a witness. Fischer allegedly pressured a Buffalo contractor to provide and install a roof at a private
     residence in exchange for his support on a Buffalo project. In addition, Fischer allegedly attempted to
     influence the official statements provided by others after he learned of the ongoing investigation.

                                                        

         Darnell Johnson, a former Cook County Housing Authority (Cook County) employee, was indicted
     in Cook County Circuit Court, Chicago, IL, for allegedly committing theft, forgery, and identity theft.
     Johnson allegedly obtained, forged, and attempted to negotiate Cook County checks without
     authorization and allegedly used personal information belonging to other Cook County employees to
     obtain credit.

                                                        

        Roman Villa, a former maintenance employee for the El Paso County Housing Authority (El Paso
     County), was indicted in U.S. District Court, El Paso, TX, for allegedly making a false statement during
     a criminal investigation. Villa allegedly performed work at a privately owned apartment complex
     during his normal El Paso County work hours and denied his unauthorized activities when questioned
     by Federal agents.

                                                        

        Dora Rodriguez, a Nassau County Department of Housing and Homeless Services (Nassau County)
     Housing Choice Voucher program participant, pled guilty in Nassau County District Court, Nassau
     County, NY, to committing criminal facilitation. Rodriguez solicited and obtained $6,000 from a
     potential Housing Choice Voucher program participant and then contacted and paid Nassau County
     employees who fraudulently provided a housing voucher.

     Rental Assistance Fraud
         Twenty San Bernardino County Housing Authority (San Bernardino) Section 8 tenants were
     arrested in Victorville, CA, on probable cause for allegedly committing housing program fraud. San
     Bernardino Section 8 tenants Frances Navarro, Laquetta
     Carrington, and Sabrina Kendall were each charged with
     allegedly committing perjury and obtaining aid by
     misrepresentation; San Bernardino Section 8 tenant
     Rochelle Hampton pled guilty to fraudulently obtaining
     aid by misrepresentation; and San Bernardino
     Section 8 tenant Jose Arroyo was sentenced to 13 days
     incarceration for his earlier guilty plea to accessory to a
     felony. The above defendants allegedly or admittedly failed
     to report income, accurate household compositions, or
     unauthorized residents and their criminal histories on
     housing certifications and collectively obtained about
     $330,000 in housing assistance they were not entitled to
     receive.                                                       Copyright, 2008. The Daily Press - Victor valley
                                                                        and High Desert, CA. Reprinted with permission.
                                                        




40                                                                  Chapter 2 - Public and Indian Housing Programs
                                                                Chapter 2: HUD’s Public and Indian Housing Programs
     Chicago Housing Authority (Chicago) Section 8 landlord John Farano was indicted in U.S. District
 Court, Chicago, IL, for allegedly committing theft of government funds; Chicago Section 8 landlord
 Jonathon Hon pled guilty to committing wire fraud; Chicago Section 8 tenants Norma Lara and Myrtis
 Burkhart, also known as Myrtis Griffin, each pled guilty to committing theft of government funds; and
 fictitious Chicago Section 8 landlord Charles Woods was sentenced to 18 months probation and
 ordered to pay four property owners $12,000 in restitution for his earlier guilty plea to committing
 theft. Farano allegedly obtained $2,610 in housing assistance payments for a subsidized property he
 did not own, Hon failed to report the sale of his Section 8 subsidized properties and fraudulently
 obtained more than $210,000 in housing assistance payments, Lara and Burkhart failed to report
 income, and Woods illegally claimed ownership of four Chicago subsidized properties. Collectively,
 the above defendants obtained $284,423 in housing assistance and $140,144 in other benefits they
 were not entitled to receive.

                                                      

     Five former Las Vegas Housing Authority (Las Vegas) Section 8 tenants and a landlord were each
 charged in Clark County Justice Court, Las Vegas, NV, with allegedly committing theft by
 misrepresentation or intimidating a witness. In addition, current or former Las Vegas Section 8
 tenants Margree Geter, Aran and Marquita Tolliver, and Georgina Pedregon each pled guilty to
 committing theft by misrepresentation, attempted theft, or a conspiracy to commit theft; former Las
 Vegas Section 8 tenant Paulette Godfrey was sentenced to 12 months incarceration (suspended) and 3
 years probation and ordered to perform an unspecified number of community service hours for her
 earlier guilty plea to committing an attempted theft; and previously sentenced Las Vegas Section 8
 tenants Donald and Mayra Colbert were named in a joint consent judgment and ordered to pay HUD
 $109,168 for their earlier guilty pleas to committing a conspiracy. From May 2002 through October
 2008, the above defendants allegedly or admittedly failed to report income, assets, or accurate
 household composition on housing certifications and collectively obtained $282,470 in housing
 assistance they were not entitled to receive.

                                                      

     Abraham Aizenberg, Patricia Jackson, Tieta Wong, and Tasheka Coutrier, a New York City Housing
 Authority (New York City) Section 8 landlord and housing recipients, were each arrested and charged
 in U.S. District Court, Manhattan, NY, with allegedly committing theft of government funds or public
 money, aggravated identity theft, or misuse of an SSN. In addition, former New York City housing
 recipients Chun and Yi Li each pled guilty to committing a conspiracy to steal government funds,
 Sandra Feliciano entered into a deferred prosecution and agreed to undergo 6 months supervised
 release and pay New York City $12,370 in restitution, and Alfredo Solis was sentenced to 6 months
 home detention and 36 months supervised release and ordered to pay New York City $8,913 in
 restitution for his earlier guilty plea to committing theft of government funds. The above defendants
 allegedly or admittedly failed to report income, assets, familial relationships, nonresidency in their
 subsidized unit, or their concurrent receipt of other housing assistance and collectively obtained
 $234,838 in housing assistance and $50,000 in other benefits they were not entitled to receive.

                                                      

    Juana Nunez, a former Ventura County Housing Authority (Ventura County) Housing Choice Voucher
 program participant, was charged in Ventura County Superior Court, Santa Paula, CA, with allegedly
 committing grand theft and welfare fraud. In addition, former Ventura County housing recipients
 Corrina Arenas, Raquel Garcia, and Christina Edwardson were collectively sentenced to 105 days




 Chapter 2 - Public and Indian Housing Programs                                                           41
Chapter 2: HUD’s Public and Indian Housing Programs
     incarceration, 60 days home arrest, and 132 months supervised release; and Arenas was ordered to
     pay Ventura County $13,854 in restitution for their earlier guilty pleas to committing grand theft or
     welfare fraud. Nunez allegedly and the remaining defendants admittedly failed to report income or
     unauthorized residents and their criminal histories on housing certifications and collectively obtained
     $207,682 in housing assistance they were not entitled to receive.




                                 Copyright, 2008. Ventura County Star, Ventura, CA. Reprinted with permission.


                                                        

         Marion Oliver and Ronetta Ramos, West Palm Beach Housing Authority (West Palm Beach)
     Housing Choice Voucher program participants, and Rene Ramos, an unauthorized West Palm Beach
     tenant, were each arrested on probable cause for allegedly committing an organized scheme to
     defraud, grand theft, public assistance fraud, or a conspiracy to commit fraud. In addition, West Palm
     Beach housing recipients Martha Aguilar and Latoya Mills, Section 8 landlord Scott Epstein, and
     unauthorized tenants Reginald Bradley and Vivian Smith were each arrested and charged in Fifteenth
     Judicial Circuit Court, Wellington, FL, with allegedly committing an organized scheme to defraud, a
     conspiracy to commit fraud, grand and petit theft, or public assistance fraud. The above defendants
     allegedly failed to report accurate household composition or unauthorized residents and their
     criminal histories and collectively obtained $165,640 in housing assistance they were not entitled to
     receive.

                                                        

         Seven current or former Torrance Housing Authority (Torrance) Section 8 tenants, were each
     charged in Los Angeles County Superior Court, Torrance, CA, with allegedly filing false or forged
     instruments, obtaining money by false pretenses, defrauding another person of money, making false
     statements, or committing grand theft or perjury by declaration. The above defendants allegedly
     failed to report accurate household compositions or unauthorized residents and their criminal
     histories on housing certifications and together obtained $126,280 in housing assistance they were
     not entitled to receive. In addition, former Torrance Section 8 tenants Hannah Kyong Hui Agnola, Raja
     Ashiq, and Marouf Begum were collectively sentenced to 31 days incarceration and 13 years
     probation and ordered to pay Torrance $35,803 in restitution for their earlier conviction or guilty
     pleas to committing perjury by declaration or a scheme to defraud another person of money;




42                                                                   Chapter 2 - Public and Indian Housing Programs
                                                                 Chapter 2: HUD’s Public and Indian Housing Programs
 attempting to file false and forged instruments; or obtaining money, labor, or property by false
 pretenses. Agnola, Ashiq, and Begum failed to report income on housing certifications and together
 obtained $35,803 in housing assistance they were not entitled to receive. Collectively, the above
 defendants caused HUD losses of $162,083.

                                                      

     Andres Corporan, also known as Alberto Ayala, a former Boston Housing Authority (Boston)
 Section 8 tenant, was arrested after his indictment in U.S. District Court, Boston, MA, for allegedly
 making false statements, committing theft of public money, and misuse of an SSN. In addition, Boston
 Section 8 tenants Ana Cruz, Gladys Hill, and Zina Worley were each charged with allegedly committing
 larceny or making false claims to a government agency, and former Boston Section 8 tenant Suezanne
 Bruce was sentenced to 36 months probation and ordered to pay Boston $20,000 in restitution for her
 earlier guilty plea to committing larceny. Between October 1999 and January 2008, Andres allegedly
 failed to report income or his true identity, Cruz allegedly provided altered Section 8 vouchers for
 others in exchange for $1,330, and Hill and Worley allegedly and Bruce admittedly failed to report
 income. Collectively, the above defendants obtained $158,423 in housing assistance they were not
 entitled to receive.




                                Copyright, 2009. The Boston Globe, Boston, MA. Reprinted with permission.


                                                      

     Samuel Johnston, a former San Diego Housing Commission (San Diego) Section 8 tenant, was charged
 in San Diego County Superior Court, San Diego, CA, with allegedly making false statements and
 committing grand theft. In addition, five former San Diego housing recipients were collectively
 sentenced to 184 days incarceration and 240 months probation and ordered to perform 90 days
 community service and pay San Diego $106,442 in restitution for their earlier guilty pleas to
 committing grand theft. Johnston allegedly and the remaining defendants admittedly failed to report
 income, accurate household composition, or unauthorized residents on housing certifications and
 collectively obtained $148,742 in housing assistance they were not entitled to receive.

                                                      




 Chapter 2 - Public and Indian Housing Programs                                                             43
Chapter 2: HUD’s Public and Indian Housing Programs
         Cook County Housing Authority (Cook County) Section 8 landlord James Branthaver and Section 8
     tenant Lynnette Bridier-Grzelak were each indicted in Cook County Circuit Court, Chicago, IL, for
     allegedly committing theft by deception and forgery. In addition, former Cook County Section 8 tenant
     Aida Contreras was sentenced to 2 years probation and ordered to pay HUD $12,000 in restitution for
     her earlier guilty plea to committing theft by deception. Branthaver and Bridier-Grzelak allegedly and
     Contreras admittedly failed to report income, familial relationships, or their joint residency on
     housing certifications and collectively obtained more than $146,900 in housing assistance they were
     not entitled to receive.

                                                     

         Francis and Mary Turner, Sonya Pierce, and Debra Everett, Cuyahoga Metropolitan Housing
     Authority (Cuyahoga) Section 8 landlords or tenants, were each charged in U.S. District Court or
     Cuyahoga County Court of Common Pleas, Cleveland, OH, with allegedly making false statements,
     committing theft of government funds, or tampering with records. The above defendants allegedly
     used false identities or failed to report income, assets, an accurate marital status, or their familial
     relationships and criminal histories on housing certifications. In addition, Cuyahoga Homeownership
     Voucher Assistance (Homeownership) program participant Valerie Valentine was indicted for
     allegedly committing grand theft. Valentine allegedly failed to remit Homeownership funds to her
     lender or report an unauthorized resident and his criminal history on housing certifications and
     obtained $27,082 in housing assistance she was not entitled to receive. Collectively, the above
     defendants obtained $121,805 in housing assistance and $34,602 in other benefits they were not
     entitled to receive.

                                                     

        Betty Hidalgo, Andy Hart, and Linda Perez, current or former New York City Housing Development
     Corporation Section 8 tenants, were each arrested and charged in U.S. District Court, New York City,
     NY, with allegedly committing theft of government funds or making false statements. The above
     defendants allegedly failed to report income on housing certifications and collectively obtained about
     $119,052 in housing assistance they were not entitled to receive.

                                                     

         Jeromeia Franklin, Rohini Singh, Bridget Collins, and Nai Saechao, current or former Sacramento
     Housing and Redevelopment Agency (Sacramento) housing recipients, were each charged in
     California or Sacramento County Superior Courts, Sacramento, CA, with allegedly committing grand
     theft, perjury, and welfare violations or obtaining services by false pretenses. In addition, former
     Sacramento housing recipient Rickisa Garner was sentenced to 90 days incarceration and 3 years
     probation and ordered to pay HUD $6,193 in restitution for her earlier nolo contendere plea to
     allegedly committing grand theft. The above defendants allegedly failed to report income,
     unauthorized residents and their criminal histories, or their nonresidency in their subsidized units on
     housing certifications and collectively obtained $102,174 in housing assistance they were not entitled
     to receive.

                                                     

        Kisha Parks and Elaine Manor, also known as Elaine Thomas, former Rochester Housing Authority
     (Rochester) Housing Choice Voucher program participants, were each charged in U.S. District Court,
     Rochester, NY, with allegedly committing theft of government funds. In addition, former Rochester
     housing recipient Rita Gaston pled guilty to committing theft of government funds. The above




44                                                             Chapter 2 - Public and Indian Housing Programs
                                                            Chapter 2: HUD’s Public and Indian Housing Programs
 defendants allegedly or admittedly failed to report income or their concurrent receipt of other
 housing assistance on housing certifications and collectively obtained $101,498 in housing assistance
 they were not entitled to receive

                                                      

     Linda Mahogany, a former Prince Georges County Department of Housing and Community
 Development (Prince Georges County) Housing Choice Voucher program participant, was indicted in
 Prince Georges County Circuit Court, Upper Marlboro, MD, for allegedly making false statements and
 committing theft over $500. In addition, former Prince Georges County housing recipient Lenee Smith
 was sentenced to 5 years probation and ordered to pay Prince Georges County $10,000 in restitution
 for her earlier guilty plea to committing theft. From 2000 through 2007, Mahogany allegedly and Smith
 admittedly failed to report income or an unauthorized resident and his criminal history on housing
 certifications and together obtained $93,715 in housing assistance they were not entitled to receive.

                                                      

     Howard and Nancy Lewis, Cumberland County Housing and Redevelopment Authority (Cumberland
 County) Housing Choice Voucher program participants and the president and treasurer for the New
 Covenant Evangelistic Ministry (New Covenant), a Cumberland County landlord, each pled guilty in
 U.S. District Court, Harrisburg, PA, to committing a conspiracy to defraud HUD. Howard and Nancy
 Lewis failed to report their financial interests in their Cumberland subsidized or other New Covenant
 properties and together obtained $79,500 in housing assistance they were not entitled to receive.

                                                      

     Sandra Singleton and Michael Elmore, a former King County Housing Authority (King County)
 Section 8 tenant and unauthorized resident, were each indicted in King County Superior Court, Kent,
 WA, for allegedly committing theft. From January 2002 through November 2006, Singleton allegedly
 failed to report Elmore's residency or income on housing certifications and obtained $74,081 in
 housing assistance she was not entitled to receive.

                                                      

     Sandra Wade, Christopher Shaw, Deborah Price, and Pamela Govan, former Memphis Housing
 Authority Housing Choice Voucher program participants, were each indicted in U.S. District Court,
 Memphis, TN, for allegedly making false statements and committing embezzlement. The above
 defendants allegedly failed to report income on housing certifications and collectively obtained $71,491
 in housing assistance they were not entitled to receive.

                                                      

     Vanessa Ruiz, Stevie Sizemore, and Tina Cross, former Westminster Office of Housing (Westminster)
 Housing Choice Voucher program participants, were each sentenced in U.S. District Court, Baltimore,
 MD, to 60 months probation and collectively ordered to pay Westminster $70,394 in restitution for
 their earlier guilty pleas to committing theft. The above defendants failed to report accurate
 household compositions on housing certifications and together obtained about $70,394 in housing
 assistance they were not entitled to receive.

                                                      




 Chapter 2 - Public and Indian Housing Programs                                                             45
Chapter 2: HUD’s Public and Indian Housing Programs
         Tracie Wiggins, a former Baltimore County Housing Authority (Baltimore County) Section 8
     tenant, was charged in Baltimore County Circuit Court, Baltimore, MD, with allegedly committing
     theft by deception and fraudulently obtaining housing benefits. In addition, former Baltimore County
     housing recipient Beverly Beard was convicted in U.S. District Court of making false statements and
     committing Social Security Administration fraud. Wiggins allegedly and Beard failed to report income
     on housing and other certifications and together obtained about $69,976 in housing assistance and
     $125,024 in other benefits they were not entitled to receive.

     FedRent Initiative
         Constituting HUD's primary appropriated activity, housing assistance programs served more than
     4.8 million households and expended more than $24 billion in FY 2003. Recent studies indicate that an
     estimated 60 percent of all subsidized housing rents are miscalculated, and approximately $3.2 billion
     in erroneous and $2 billion in net annual subsidy overpayments are a result of both errors in program
     administration and tenants underreporting income.

         In an effort to combat administrative overpayments and tenant fraud, HUD and HUD OIG
     commenced "Operation FedRent," a joint effort to address rental assistance fraud involving Federal
     employees. Operation FedRent compares HUD tenant data to current and retired Federal employee
     information maintained by the U.S. Office of Personnel Management. After the data comparison, an
     income eligibility determination is made, and the SSNs for family members 6 years of age and older are
     verified. If a discrepancy exists, an investigation is opened, and appropriate administrative or legal
     actions are initiated to collect any overpaid housing assistance. Results of Operation FedRent during
     this semiannual reporting period are described below.

                                                      

         Diane Reid and Natasha Acoff, former Cook County Housing Authority (Cook County) Section 8
     tenants and current U.S. Postal Service (USPS) or U.S. Department of Homeland Security (DHS)
     employees, each pled guilty in U.S. District Court, Chicago, IL, to committing theft of government
     funds. In addition, former Cook County Section 8 tenants and current or former USPS employees
     Marsha Pate-Rollins and Latesia Foster were collectively sentenced to 3 years probation and ordered
     to pay HUD $30,803 in restitution for their earlier guilty pleas to committing theft of government funds.
     The above defendants failed to report income on housing certifications and collectively obtained
     $80,803 in housing assistance they were not entitled to receive.

                                                      

         Jonathan Harrington, a former Prince Georges County Department of Housing and Community
     Development Section 8 tenant and USPS employee, was indicted in Prince Georges County Circuit
     Court, Upper Marlboro, MD, for allegedly committing theft over $500. From 1998 through 2006,
     Harrington allegedly failed to report income on housing certifications and obtained $65,221 in housing
     assistance he was not entitled to receive.

                                                      

        Lakeesha Jefferson, a former San Francisco Housing Authority Section 8 tenant and Federal
     Emergency Management Agency (FEMA) employee, pled guilty in U.S. District, San Francisco, CA, to
     committing theft of government funds. From October 2004 through October 2006, Jefferson failed to
     report income or her familial relationship to her Section 8 landlord on housing certifications,




46                                                              Chapter 2 - Public and Indian Housing Programs
                                                             Chapter 2: HUD’s Public and Indian Housing Programs
 submitted fraudulent FEMA travel vouchers, and obtained about $41,029 in housing assistance and
 $16,252 in travel reimbursements she was not entitled to receive.

                                                      

     Doris Smith and Quinchitta Jackson, former Chicago Housing Authority housing recipients and
 current or former USPS employees, each pled guilty in U.S. District Court, Chicago, IL, to committing
 theft of government funds. Smith and Jackson failed to report income on housing certifications and
 together obtained $38,900 in housing assistance they were not entitled to receive.

                                                      

     Kenyada Spates and Cindy Valentine, also known as Cindy Engle, current or former Cuyahoga
 Metropolitan Housing Authority (Cuyahoga) housing recipients and Internal Revenue Service (IRS)
 employees, and Cuyahoga Section 8 landlord Daniel Engle were collectively sentenced in U.S. District
 Court, Cleveland, OH, to 30 months incarceration and 60 months probation and ordered to pay
 Cuyahoga $35,997 in restitution for their earlier guilty pleas to making false statements, committing
 theft, or tampering with records. Spates failed to report income or assets, and Valentine and Engle
 failed to report their familial relationship or their joint residency in and ownership of the subsidized
 unit. Collectively, the above defendants obtained $35,997 in housing assistance they were not entitled
 to receive.

                                                      

    Elizabeth Rosa, a former Orange County Housing Agency Section 8 tenant and USPS employee, was
 sentenced in U.S. District Court, Tampa, FL, to 90 days home detention and 3 years probation and
 ordered to pay HUD $28,931 in restitution for her earlier guilty plea to making false statements and
 committing theft of government funds. From June 2001 to July 2006, Rosa failed to report income on
 housing certifications and obtained $28,931 in housing assistance she was not entitled to receive.

                                                      

    Dora Fry, a former Kansas City Housing Authority Housing Choice Voucher program participant
 and IRS employee, pled guilty in U.S. District Court, Kansas City, MO, to committing theft of
 government funds. From 2000 through 2004, Fry failed to report income on housing certifications and
 obtained $25,424 in housing assistance she was not entitled to receive.

                                                      

    Mentha Jefferson and Lekeisha McKinney, former Memphis Housing Authority Housing Choice
 Voucher program participants and U.S. Department of Agriculture or IRS employees, were each charged
 in U.S. District Court, Memphis, TN, with allegedly making false statements and committing
 embezzlement. From 2000 to 2006, Jefferson and McKinney allegedly failed to report income on
 housing certifications and together obtained $23,702 in housing assistance they were not entitled to
 receive.

                                                      

    Lavon Wright, a San Bernardino County Housing Authority Section 8 tenant and U.S. Department of
 Veterans Affairs employee, was sentenced in U.S. District Court, Los Angeles, CA, to 6 months home
 detention and 24 months probation and ordered to pay HUD $14,411 in restitution for his earlier guilty




 Chapter 2 - Public and Indian Housing Programs                                                             47
Chapter 2: HUD’s Public and Indian Housing Programs
     plea to making false statements. Wright failed to report income on housing certifications and
     obtained $21,000 in housing assistance he was not entitled to receive.

                                                     

         Amy Pena, a former Ogden Housing Authority Housing Choice Voucher program participant and
     IRS employee, pled guilty in U.S. District Court, Salt Lake City, UT, to making false statements. From
     2004 through 2006, Pena failed to report income on housing certifications and obtained $17,125 in
     housing assistance she was not entitled to receive.

                                                     

        Tara Maxwell, a New York City Housing Authority public housing tenant and DHS employee, was
     arrested and charged in U.S. District Court, Manhattan, NY, with allegedly committing theft of
     government funds. Maxwell allegedly failed to report income on housing and other certifications and
     obtained $16,608 in housing assistance and $43,530 in other benefits she was not entitled to receive.

                                                     

        Dinorah Cancel, a former Tampa Housing Authority Section 8 tenant and USPS employee, was
     sentenced in U.S. District Court, Tampa, FL, to 90 days home detention and 5 years supervised release
     and ordered to pay HUD $10,601 in restitution for her earlier guilty plea to committing theft of
     government funds. Cancel failed to report income on housing certifications and obtained $10,601 in
     housing assistance she was not entitled to receive.

                                                     

         Sharlyn Thomas, a North Little Rock Housing Authority Section 8 tenant and USPS employee, was
     indicted in U.S. District Court, Little Rock, AR, for allegedly making false statements. Thomas
     allegedly failed to report income on housing certifications and obtained $9,024 in housing assistance
     she was not entitled to receive

     Fugitive Felon Initiative
         Enacted into law in 1996, Section 903 of Public Law 104-193, "Elimination of Housing Assistance
     with Respect to Fugitive Felons and Probation and Parole Violators," allows for the termination of
     housing subsidies for public or assisted housing tenants who flee to avoid prosecution, avoid
     confinement after conviction of a felony, or violate conditions of their parole or probation. The law
     also authorizes Federal, State, and local law enforcement agencies to exchange information and
     perform data matches.

         OIG supports a Fugitive Felon Initiative (FFI) by matching HUD housing assistance information
     with crime data from the National Crime Information Center, U.S. Marshals Service (Marshals), and
     other participating law enforcement data banks. In addition, OIG special agents actively participate in
     the Marshals' "Operation FALCON," a joint law enforcement effort to locate and apprehend fugitive
     felons wanted for violent crimes. Conducted in most major cities throughout the United States and its
     territories, Operation FALCON places a strong emphasis on apprehending fugitive felons involved in
     gangs, homicides, sexual assaults, or crimes against the elderly and children. Since the inception of
     OIG's FFI, hundreds of cases have been opened and closed, resulting in more than 8,467 arrests. OIG
     strongly supports Operation FALCON in an effort to make HUD public and assisted housing safe for
     families. FFI results during this semiannual reporting period are described below.

                                                     

48                                                             Chapter 2 - Public and Indian Housing Programs
                                                            Chapter 2: HUD’s Public and Indian Housing Programs
     Jacquelyn McFarland was sentenced in U.S. District Court, Wichita, KS, to 1 year supervised
 release for her earlier guilty plea to impeding a Federal law enforcement officer. McFarland assaulted
 a HUD OIG special agent and a deputy U.S. marshal during Operation FALCON.

                                                      

     Johanna Gurule, Angela Cockrell, and Kirsten Jewett, Salt Lake City Housing Authority Housing
 Choice Voucher program participants, were each arrested in Salt Lake City, UT, on outstanding
 warrants for allegedly driving with a measurable controlled substance or committing sexual
 solicitation, domestic violence, or theft.

                                                      

     Anthony Andrews, an unauthorized Sacramento Housing and Redevelopment Agency tenant, was
 arrested in Sacramento, CA, on an outstanding parole violation for allegedly failing to report his
 whereabouts.

 Other Fraud and Crimes
      Kim Nicholson and Edlan Jones were each indicted in U.S. District Court, St. Louis, MO, for
 allegedly committing a conspiracy to manufacture counterfeit securities and submitting false claims,
 and Laron Cook pled guilty to committing a conspiracy to manufacture counterfeit securities and
 submitting false claims. Nicholson and Jones allegedly and Cook admittedly conspired to fraudulently
 manufacture and negotiate $33,261 in St. Clair County Housing Authority, $17,292 in St. Louis Housing
 Authority, and $32,639 in other counterfeit checks and provided false information used by others to
 file fraudulent Federal income tax returns.

                                                      

     Robert Guerrero, Alison Edeleman, and Johanny Mendez, employees for Property Cash, a
 Huntington Housing Authority (Huntington) Section 8 landlord, were each arrested after their
 indictments in U.S. District Court, Greenlawn, NY, for allegedly committing theft of government funds.
 The above defendants allegedly obtained and fraudulently negotiated $25,279 in Huntington housing
 assistance payments belonging to another Huntington Section 8 landlord.

                                                      

     Jerry Carti, a former loan officer for U.S. Mortgage Corporation; Renford Davis, a property
 manager for Renhops Management, LLC; and real estate investor Norman Barna each pled guilty in
 U.S. District Court, Newark, NJ, to committing a conspiracy to commit wire fraud and money
 laundering or committing a conspiracy to commit wire fraud. Carti and others inflated home values
 through bogus appraisals, fabricated borrower deposit amounts, and caused the falsification of loan
 documents used by Davis, Barna, and others to fraudulently obtain conventional mortgages. The
 fraudulently mortgaged properties were then placed into the Paterson Housing Authority or the City
 of Paterson Section 8 programs.

                                                      

    Sharon Forest, a former Maine State Housing Authority and Aroostook County Action Program
 Section 8 tenant, was charged in U.S. District Court, Bangor, ME, with allegedly committing mail fraud.
 From August 1996 through April 2007, Forest allegedly stole about $18,193 in housing assistance




 Chapter 2 - Public and Indian Housing Programs                                                            49
Chapter 2: HUD’s Public and Indian Housing Programs
     payments from her Section 8 landlord, used her landlord's identity to secure multiple credit cards, and
     fraudulently obtained about $17,872 in goods and services.

                                                     

         Mayra Montano, a former Islip Housing Authority Section 8 tenant who previously pled guilty in
     Suffolk County Superior Court, Central Islip, NY, to committing grand larceny, entered into a Program
     Fraud Civil Remedies Act settlement and agreed to pay HUD $15,000. Montano failed to report her
     ownership of her subsidized property on housing certifications and obtained $107,000 in housing
     assistance she was not entitled to receive.

                                                     

         Helen Lowe, a former San Francisco Housing Authority Section 8 landlord previously sentenced in
     U.S. District Court, San Francisco, CA, for her earlier guilty plea to making false statements to HUD,
     was debarred from procurement and nonprocurement transactions as a participant or principal with
     HUD and throughout the Executive Branch of the Federal Government for 2 years. From August 1998
     to December 2006, Lowe failed to report her familial relationship to or the nonresidency of her Section
     8 tenant and obtained $126,934 in housing assistance payments she was not entitled to receive.

                                                     

         Anthony Woskow, a former Stover Housing Authority Section 8 tenant, was sentenced in U.S.
     District Court, Jefferson City, MO, to 87 months incarceration and 10 years supervised release for his
     earlier guilty plea to possession and receipt of child pornography through the U.S. mail. Woskow
     obtained and possessed child pornography at his subsidized housing unit.

                                                     

        Joseph Maddens pled guilty in Macomb County Circuit Court, St. Clair Shores, MI, to making false
     pretenses. Maddens posed as a State employee, sold phony Detroit Housing Commission housing
     vouchers, and fraudulently obtained about $2,000 from numerous victims.

                                                     

         Fawaz Najjar, a Syrian citizen and an unauthorized Jacksonville Housing Authority (Jacksonville)
     public housing tenant, was arrested and charged in U.S. District Court, Jacksonville, FL, with
     allegedly committing immigration violations. Najjar allegedly resided with his spouse in her
     Jacksonville public housing unit without authorization and violated immigration laws when he
     allegedly failed to carry immigration documentation and illegally obtained employment.

                                                     




50                                                             Chapter 2 - Public and Indian Housing Programs
                                                            Chapter 2: HUD’s Public and Indian Housing Programs
Chapter 2: HUD’s Public and Indian Housing Programs
        In addition to multifamily housing developments with U.S. Department of Housing and Urban
     Development (HUD)-held or HUD-insured mortgages, the Department owns multifamily projects
     acquired through defaulted mortgages, subsidizes rents for low-income households, finances the
     construction or rehabilitation of rental housing, and provides support services for the elderly and
     handicapped.



     Audit
                           Strategic Initiative 2: Contribute to the reduction of erroneous
                                             payments in rental assistance

        Key program results                    Questioned costs                            Funds put to better use

       Audit          7 audits                    $50.2 million                                      ---
                      Page 53            - Review of HUD's monitoring of performance-based contract
                                           administrators
        Our
       focus          Page 53            - Review of HUD's Sections 202 and 811 capital advance programs
                      Page 54            - Owner and management agent operations




                          Chart 3.1: Percentage of OIG multifamily housing audit reports
                                           during this reporting period




                                                                                                           Region 1 - 14%
                                                                                                           Region 2 - 14%
                                                                                                           Region 3 - 14%
                                                                                                           Region 4 - 0%
                                                                                                           Region 5 - 0%
                                                                                                           Region 6 - 29%
                                                                                                           Regions 7/8 - 0%
                                                                                                           Regions 9/10 - 29%
                                                                                                           Region 11 - (N/A)*




        * This does not include disaster relief audits. See chapter 5 for these reviews.




52                                                                                   Chapter 3 - Multifamily Housing Programs
                                                                                 Chapter 3: HUD’s Multifamily Housing Programs
 Review of HUD's Monitoring of Performance-Based Contract
 Administrators
    The HUD Office of Inspector General (OIG) audited HUD's monitoring of its annual contributions
 contract with its performance-based contract administrator, the New York State Housing Trust Fund
 Corporation, New York, NY, to determine whether HUD appropriately monitored the contractor with
 respect to contract performance.

      HUD did not effectively assess the performance and contractual compliance of the contractor and
 its subcontractor. Specifically, (1) HUD did not fulfill its monitoring responsibilities regarding appeals
 of fee determinations, monthly invoice reviews, and the annual compliance review; and (2) HUD
 headquarters and hub management failed to keep open lines of communication to provide clear and
 concise guidance. As a result, more than $2.08 million in reduced administrative fees that were
 reversed were unsupported, and the contractor's substandard performance was not adequately
 addressed.

     OIG recommended that HUD (1) establish policies and procedures defining the roles and
 responsibilities of hub staff; (2) provide training to hub staff in monitoring the contractor's
 performance; (3) examine the appeals and ensure that the appropriate supporting documentation
 exists for the fees reimbursed to the contractor; and (4) develop policies and procedures for
 monitoring the Section 8 contract administration initiative and reviewing challenges to HUD's fee
 determination, the monthly invoice review, and the annual compliance review. (Audit Report:
 2009-NY-0001)

                                                  

    HUD OIG audited HUD's recent invitation to submit applications for performance-based contract
 administrator services for Southern California to be effective June 1, 2009, and its related annual
 contributions contract to determine whether the invitation and proposed contract were consistent
 with the management decisions on Audit Report 2007-SE-0001 and to advise HUD of any inconsistency.

    HUD did not implement the two recommendations from Audit Report 2007-SE-0001 calling for
 changes to the contract. As a result, the deficiencies reported in that report were not corrected.
 Consequently, HUD could pay as much as $1.9 million or 19 percent of the contract's basic fee each
 year for work not required and not performed on this contract and will not achieve its objective of
 obtaining the best value for dollars spent for contract administrator services.

     OIG recommended that HUD immediately rescind the invitation until it and its related contract are
 revised to (1) not include tasks that are not required, (2) include a mechanism to adjust workload and
 commensurate fees as program needs change, and (3) include a provision for making adjustments to
 the contracts if requirements change. (Audit Report: 2009-SE-0801)

 Review of HUD's Sections 202 and 811 Capital Advance Programs
    HUD OIG audited HUD's processing of its Section 202 and Section 811 capital advances to
 determine whether HUD's program centers under the jurisdiction of its Region 3 processed Sections
 202 and 811 capital advances in accordance with HUD requirements.

    Program centers did not always process Sections 202 and 811 capital advances in accordance with
 applicable HUD requirements. Two of six program centers did not obtain required approval from HUD
 headquarters to extend the fund reservation period past 24 months for 21 of 58 open projects with



 Chapter 3 - Multifamily Housing Programs                                                                     53
Chapter 3: HUD’s Multifamily Housing Programs
     capital advances valued at $46.3 million. HUD had not implemented controls to monitor compliance
     with this requirement, which is intended to ensure that extending the fund reservation period is
     consistent with HUD's goal of increasing affordable housing for low-income families. Additionally, of
     the 60 projects that received fund reservation letters during the audit period, 50 were not approved
     for construction within HUD's 18-month guideline. Capital advance funding often did not cover
     housing development costs, and program centers did not consider canceling projects despite
     indications that they would be significantly delayed.

         OIG recommended that HUD direct responsible program centers to (1) justify and obtain approval
     from headquarters to extend the fund reservation period past 24 months for two projects with capital
     advances totaling $1.8 million that have not gone to initial closing or cancel them if appropriate;
     (2) justify and provide current status for 19 projects with capital advances of $44.5 million that went to
     initial closing, although program centers had not obtained required HUD approvals of the fund
     reservation period past 24 months, and ensure that the use of the funds is consistent with HUD's goal
     of increasing affordable housing for low-income families; and (3) establish and implement adequate
     controls for obtaining required headquarters approvals for extension of the fund reservation period
     past 24 months and for reviewing projects and making recommendations to cancel projects when
     warranted. OIG also recommended that HUD reevaluate the effectiveness of its current method for
     calculating capital advances to ensure that it covers the development costs for Sections 202 and 811
     projects or consider providing notice in the Federal Register that additional capital advance funds will
     generally be needed to cover the costs of developing the housing. (Audit Report: 2009-PH-0001)

     Owner and Management Agent Operations
         HUD OIG audited Ebony Lake Healthcare Center to determine whether the project's owner
     (1) transferred funds from the project in violation of its regulatory agreement with HUD and HUD
     directives and (2) expended property funds for only reasonable and necessary project expenses in
     accordance with the regulatory agreement.

         The owner violated the regulatory agreement when its managers ignored HUD directives by
     making 96 transfers from the project, totaling more than $4 million, of which $497,000 had not been
     repaid to the project. In addition, the managers did not follow the regulatory agreement and
     instructions from HUD, which caused ineligible and unsupported costs of nearly $341,000 to be charged
     to the project. Also, the managers' unauthorized transfers during June 2007 prevented more than
     $167,000 from being deposited into the project's residual receipts account. Further, the owner did not
     implement the required financial and accounting controls.

         OIG recommended that HUD require the owner to (1) ensure that unauthorized transfers of funds
     do not resume, (2) deposit more than $657,000 into the project's residual receipts account, (3) provide
     support for $180,000 in accrued legal fees or make the necessary adjustments to the financial records,
     (4) implement financial and accounting controls, and (5) correct and maintain accounting records in
     compliance with the regulatory agreement. OIG also recommended that HUD seek civil money
     penalties and administrative sanctions, as appropriate, against the responsible parties. (Audit
     Report: 2009-FW-1002)

                                                      

        HUD OIG audited the Orchard Court project in Bath, ME, to determine whether the project owner
     and/or management agents operated the project in accordance with HUD requirements.

        The project owner and/or prior management agents failed to operate the project in accordance
     with HUD regulations. They did not comply with HUD requirements with regard to (1) maintaining



54                                                                     Chapter 3 - Multifamily Housing Programs
vacancies at a reasonable rate; (2) making payments that were eligible, reasonable, and adequately
supported; (3) following proper procurement procedures; (4) maintaining the project in good
physical condition; and (5) ensuring that tenants qualified for subsidized rental housing. As a result,
the project had more than $265,000 in vacancy losses and incurred ineligible, unreasonable, and
unsupported costs of nearly $512,000.

    In violation of the regulatory agreement, the project owner and a prior management agent
executed two interest-bearing promissory notes as well as a "letter of agreement" that may have
violated the project owner's/management agent's certification. The two notes allowed for the
inappropriate accrual of more than $56,000 in interest. Further, accounting records were incomplete,
inaccurate, or unavailable. The project's certified public accounting firm refused to prepare the project's
2007 financial statements because it considered the project's records not auditable. The project also
lacked controls over the calculation of management fees and bad debts.

   OIG recommended that HUD require the project owner to (1) reimburse or require the responsible
management agents to reimburse the project more than $49,000 for ineligible fees paid to
management agents, (2) eliminate from the project's accounting records more than $151,000 in
accrued fees that were ineligible project costs, and (3) request from responsible management agents
supporting documentation for the more than $265,000 in unsupported costs charged to the project so
that the eligibility of these costs can be determined. For any amounts determined to be ineligible, the
project owner should repay or seek reimbursement from the responsible management agent to pay
the project from nonproject funds and remove the interest accrued on the notes payable from the
accounting records. In addition, HUD should consider pursuing administrative sanctions against the
project owner and three prior management agents, including recovering management fees paid and
removing payables representing unpaid management fees from the project's accounting records.
(Audit Report: 2009-BO-1002)

                                                  

   HUD OIG audited Stonebrook Apartments Phase I and Phase II (projects) in Baytown, TX, to
determine whether the projects' owners complied with the regulatory agreements and HUD
regulations; specifically, whether the owners (1) made unauthorized distributions of project funds
when the projects were in a non-surplus-cash position, (2) fully funded the tenant security deposit
accounts, and (3) supported disbursements with invoices or other supporting documentation.

    The owners and/or their management agents did not comply with the regulatory agreements and
HUD regulations. They paid more than $187,000 in questioned costs. The questioned costs included
unauthorized distributions from the projects' operating and tenant security deposit accounts when
the projects were in a non-surplus-cash position, underfunded tenant security deposit accounts,
ineligible and unsupported disbursements, duplicate payments, excessive management fees, and
unreasonable and unnecessary bonuses. Further, the owners and/or their management agents did
not maintain accurate financial information, did not submit annual audited financial statements in a
timely manner, and transferred the management of the projects without HUD's approval.

    OIG recommended that HUD require the owners to (1) repay the projects more than $81,000 for
unauthorized distributions, (2) fully fund the tenant security deposit accounts, (3) repay the projects
more than $62,000 for ineligible or unnecessary disbursements and either furnish supporting
documentation or repay the projects nearly $17,000 for unsupported expenses, and (4) correct and
maintain the projects' accounting records in compliance with the regulatory agreements. OIG also
recommended that HUD seek civil money penalties and administrative sanctions, as appropriate, against
the owners for violating the projects' regulatory agreements. (Audit Report: 2009-FW-1007)

                                                  


Chapter 3 - Multifamily Housing Programs                                                                      55
        HUD OIG audited Campaige Place at Jackson in Phoenix, AZ, to determine whether it used its
     project funds in compliance with HUD's regulatory agreement and other federal requirements.

        Campaige Place did not use its project funds in compliance with HUD's and other federal
     requirements. Specifically, (1) nearly $74,000 in owner advances was repaid when the project had no
     surplus cash, (2) tenant security deposit accounts were underfunded by nearly $58,000, (3) an
     unexplained payable of more than $26,000 was mistakenly recorded as a liability, (4) support was
     incomplete or missing for more than $8,000 in operating expenses, and (5) nearly $21,000 in
     management expenses was inappropriately charged to the project.

        OIG recommended that HUD require the project's owner/agent to repay or support more than
     $160,000 in questioned costs, less the more than $81,000 already repaid or supported, and remove the
     unsupported payable from the project's accounts. OIG also recommended that HUD require the project
     to establish controls to ensure compliance with HUD's regulatory agreement and other federal
     requirements. (Audit Report: 2009-LA-1008)

                                                   




56                                                                 Chapter 3 - Multifamily Housing Programs
Investigations
   Some investigations discussed in this report were generated from leads provided by HUD
multifamily housing program staff or conducted jointly with Federal, State, and local law enforcement
agencies. The results of various significant investigations are described below.


                   Strategic Initiative 2: Contribute to the reduction of erroneous
                                     payments in rental assistance

  Key program           Cases                  $            Convictions/pleas/        Admin/civil
    results             closed             recovered            pretrials               actions
  Investigations          63               $1,009,812               24                       144

       Our             Page 58       - Theft/embezzlement
      focus            Page 58       - Rental assistance fraud




               Chart 3.2: Percentage of OIG multifamily housing closed investigation
                                 cases during this reporting period




                                                                            Region 1 - 8%
                                                                            Region 2 - 24%
                                                                            Region 3 - 11%
                                                                            Region 4 - 11%
                                                                            Region 5 - 11%
                                                                            Region 6 - 8%
                                                                            Regions 7/8 - 14%
                                                                            Regions 9/10 - 11%
                                                                            Region 11 - 2%




Chapter 3 - Multifamily Housing Programs                                                                57
     Theft/Embezzlement
         Brenda Phillips, the former manager for Quail Ridge Apartments, a HUD-subsidized multifamily
     housing development, was charged in U.S. District Court, Wichita, KS, with allegedly making false
     statements. Phillips allegedly provided fraudulent tenant information on HUD certifications and
     obtained $160,234 in housing assistance overpayments.

                                                      

        Linda Copenhaver, a former manager for Kingston House, a HUD-subsidized multifamily housing
     development, was sentenced in U.S. District Court, Harrisburg, PA, to 1 year probation and ordered to
     pay HUD $4,589 in restitution for her earlier guilty plea to committing embezzlement. Copenhaver
     embezzled $12,000 in tenant rents.

                                                      

        Latonya Anderson, the office manager for Live Oak Masonic Housing, Inc. (Live Oak), a HUD-
     subsidized multifamily housing development, was arrested and charged in Vermillion Parish District
     Court, Abbeville, LA, with allegedly committing extortion. Anderson allegedly inflated Live Oak
     employee payroll checks and forced the employees to relinquish $7,000 in fabricated wages.

                                                      

        Nina Parker-Davis, an occupancy specialist for Pilgrim Baptist Village, a HUD-subsidized
     multifamily housing development, was arrested after her indictment in U.S. District Court, Newark,
     NJ, for allegedly accepting bribes. Parker-Davis allegedly accepted cash payments from prospective
     tenants in exchange for immediate placement into subsidized housing units. HUD losses are not yet
     determined.

                                                      

         Carol Aranjo, the former chief executive officer for D. Edward Wells Federal Credit Union (D.
     Edward Wells), was sentenced in U.S. District Court, Springfield, MA, to 54 months incarceration and
     5 years supervised release and ordered to pay the National Credit Union Association and others $1.4
     million in restitution for her earlier conviction of making false entries; filing false Federal income tax
     returns; and committing bank fraud, obstruction of an examination, and embezzlement. Aranjo and
     previously sentenced Mary Spruell, the former treasurer for D. Edward Wells and owner of Walnut
     Street Apartments, an Federal Housing Administration-insured multifamily housing development,
     embezzled and misused D. Edward Wells funds, including HUD funds held in D. Edward Wells accounts.

     Rental Assistance Fraud
         Fay Bobb-Sampson, Olanrewaju Abudu, Grantley Bacchus, and Sherland Renaud, Section 8 tenants
     at Parkhill Apartments, a HUD-subsidized multifamily housing development, were each arrested and
     charged in U.S. District or Staten Island Criminal Courts, Staten Island, NY, with allegedly submitting
     a false instrument for recording; falsifying business records; or committing theft of government funds,
     grand larceny, or forgery. The above defendants allegedly failed to report income on housing
     certifications and collectively obtained $181,158 in housing assistance they were not entitled to
     receive.

                                                      



58                                                                     Chapter 3 - Multifamily Housing Programs
                                                                   Chapter 3: HUD’s Multifamily Housing Programs
    Eight Section 8 tenants at Pemberton Manor Apartments, a HUD-subsidized multifamily housing
 development, were each charged in Maryland or Wicomico County District Courts, Salisbury, MD,
 with allegedly making false statements and committing theft by deception. Between April 2003 and
 November 2008, the above defendants allegedly failed to report unauthorized residents or their
 criminal histories on housing certifications and collectively obtained $80,563 in housing assistance
 they were not entitled to receive.

                                                  

     Shera Menes and Leonila Milanes, Section 8 tenants at Coral Gardens Apartments (Coral Gardens),
 a HUD-subsidized multifamily housing development, were each arrested in Homestead, FL, on
 probable cause for allegedly committing public assistance fraud and grand theft. In addition, Coral
 Gardens Section 8 tenants Marlenda Minnis, Jaime Sellers, and Trenell Peoples were collectively
 sentenced to 72 months supervised release and ordered to pay HUD an undetermined amount in
 restitution for their earlier guilty pleas to committing public assistance fraud and grand theft. The
 above defendants allegedly or admittedly failed to report their criminal histories or unauthorized
 residents and their criminal histories on housing certifications and collectively obtained $70,812 in
 housing assistance they were not entitled to receive.

                                                  

    Eric and Adenike Ogundipe, former Section 8 tenants at Mandela Homes, a HUD-subsidized
 multifamily housing development, were each sentenced in U.S. District Court, Boston, MA, to 3 years
 supervised release and ordered to jointly pay HUD $68,138 in restitution for their earlier guilty pleas to
 making false statements, misusing the Social Security number of another, or committing theft of public
 money or identity theft. Eric Ogundipe was also sentenced to 15 months incarceration (time served).
 From 1991 through August 2005, Eric and Adenike Ogundipe used false identities, failed to report
 income or assets on housing certifications, and together obtained $68,138 in housing assistance they
 were not entitled to receive.

                                                  

     Fazia Monroe, also known as Fazia Edwards, a Section 8 tenant at St. Johns Associates, a
 HUD-subsidized multifamily housing development, was arrested and charged in U.S. District Court,
 New York City, NY, with allegedly committing theft of government funds. From 2003 to 2008, Monroe
 allegedly failed to report income on housing certifications and obtained $59,942 in housing assistance
 she was not entitled to receive.

                                                  

     Five Section 8 tenants at Williamsport NSA Apartments, a HUD-subsidized multifamily housing
 development, were each charged in U.S. District Court, Harrisburg, PA, with allegedly making false
 statements. The above defendants allegedly failed to report income or their criminal histories on
 housing certifications and collectively obtained about $53,500 in housing assistance they were not
 entitled to receive.

                                                  

    Shiray Savoy, a former Housing Commission of Anne Arundel County (Anne Arundel) Section 8
 tenant and housing recipient at Bay Ridge Garden Apartments (Bay Ridge), a HUD-subsidized
 multifamily housing development, was sentenced in Anne Arundel County Circuit Court, Glen Burnie,
 MD, to 5 years supervised probation and ordered to pay HUD $48,583 in restitution for her earlier



 Chapter 3 - Multifamily Housing Programs                                                                     59
Chapter 3: HUD’s Multifamily Housing Programs
     guilty plea to committing theft by deception. From 2002 through 2007, Savoy failed to report her Anne
     Arundel housing assistance or an accurate household composition on Bay Ridge certifications and
     obtained $48,583 in Bay Ridge housing assistance she was not entitled to receive.

                                                     

        Genevieve Simmons, a Section 8 tenant at Lambert Houses, a HUD-subsidized multifamily housing
     development, was arrested and charged in U.S. District Court, New York City, NY, with allegedly
     making false statements and committing theft of government funds. From April 2003 through March
     2007, Simmons allegedly failed to report income on housing certifications and obtained more than
     $40,000 in housing assistance she was not entitled to receive.

                                                     

         Eight Section 8 tenants at Sherman Hills Apartments, a HUD-subsidized multifamily housing
     development, were each charged in U.S. District Court, Harrisburg, PA, with allegedly making false
     statements. The above defendants allegedly failed to report income or their criminal histories on
     housing certifications and collectively obtained about $40,000 in housing assistance they were not
     entitled to receive.

                                                     

         Monique Ellis, a Section 8 tenant at St. Ambrose Apartments, a HUD-subsidized multifamily
     housing development, pled guilty in U.S. District Court, Brooklyn, NY, to defrauding HUD. Ellis failed
     to report income on housing certifications and obtained $39,968 in housing assistance she was not
     entitled to receive.

                                                     

        Sheila, Glonita, and Michael Talton and Katrina Mitchell, Section 8 tenants at Lincoln Fields
     Apartments (Lincoln), a HUD-subsidized multifamily housing development, were each arrested on
     probable cause or charged in Eleventh Judicial Circuit Court, Miami, FL, with allegedly committing
     public assistance fraud and grand theft. The above defendants allegedly failed to report income or
     their concurrent receipt of other housing assistance on Lincoln certifications and collectively
     obtained $38,859 in housing assistance they were not entitled to receive.

                                                     

        Migdalia Diaz, a Section 8 tenant at Maria Estella Apartments, a HUD-subsidized multifamily
     housing development, was arrested after her indictment in U.S. District Court, Bronx, NY, for allegedly
     committing embezzlement of public money. Diaz allegedly failed to report income on housing
     certifications and obtained $36,000 in housing assistance she was not entitled to receive.

                                                     




60                                                                   Chapter 3 - Multifamily Housing Programs
                                                                 Chapter 3: HUD’s Multifamily Housing Programs
Chapter 3: HUD’s Multifamily Housing Programs
        The Office of Community Planning and Development (CPD) seeks to develop viable communities
     by promoting integrated approaches that provide decent housing, suitable living environments, and
     expanded economic opportunities for low- and moderate-income persons. The primary means
     toward this end is the development of partnerships among all levels of government and the private
     sector. In addition to the audits and investigations described in this chapter, the U.S. Department of
     Housing and Urban Development, Office of Inspector General (HUD OIG), has conducted numerous
     outreach efforts (see chapter 7, page 105).



     Audit
                      Strategic Initiative 3: Contribute to the strengthening of communities

        Key program results                    Questioned costs                            Funds put to better use

       Audit         20 audits                    $30.6 million                                 $17.6 million
                      Page 63            - Community Development Block Grant programs
        Our           Page 66            - HOME Investment Partnerships program
       focus          Page 68            - Supportive Housing Program grants
                      Page 68            - Section 108 Loan Guarantee program




                      Chart 4.1: Percentage of OIG community planning and development
                                   audit reports during this reporting period




                                                                                                        Region 1 - 0%
                                                                                                        Region 2 - 40%
                                                                                                        Region 3 - 10%
                                                                                                        Region 4 - 10%
                                                                                                        Region 5 - 10%
                                                                                                        Region 6 - 5%
                                                                                                        Regions 7/8 - 5%
                                                                                                        Regions 9/10 - 20%
                                                                                                        Region 11 - (N/A)*




        * This does not include disaster relief audits. See chapter 5 for these reviews.




62                                                             Chapter 4 - Community Planning and Development Programs
                                                           Chapter 4: HUD’s Community Planning and Development Programs
     The Office of Inspector General (OIG) audited the Community Development Block Grant (CDBG)
 program, the HOME Investment Partnerships Program (HOME), the Supportive Housing Program grants,
 and the Section 108 Loan Guarantee program. While OIG's objectives varied by auditee, the majority
 of the reviews were to determine whether the grant funds were administered for eligible activities and
 that the auditee met program objectives. The following section illustrates the audits conducted in the
 CPD area.

 Community Development Block Grant Programs
     The U.S. Department of Housing Development (HUD) OIG audited the CDBG program of the City of
 San Diego, San Diego, CA, and found that the City failed to properly administer its CDBG funds. It did
 not (1) enter into required agreements with its redevelopment agency, (2) list the projects in its action
 plan or subsequent amendments to HUD, or (3) monitor the project activities, resulting in more than
 $1.8 million in ineligible and $11 million in unsupported costs. The City also failed to execute loan
 agreements and repayment schedules for CDBG-funded loans issued to the agency with an overall
 principal and interest balance of more than $139 million, and the agency did not make consistent good
 faith efforts to repay the CDBG loans so that program income could be used for eligible CDBG activity.

     OIG recommended that HUD require the City to (1) pay back ineligible costs of more than $1.8
 million plus any applicable interest to HUD from nonfederal funds, (2) provide supporting
 documentation or reimburse HUD more than $11 million from nonfederal funds, (3) execute written
 interagency agreements and loan agreements with the agency for outstanding CDBG loans, and
 (4) implement procedures and controls to ensure that the City and the agency adequately monitor
 CDBG activity. (Audit Report: 2009-LA-1005)

                                                  

      HUD OIG audited the CDBG program administered by the Economic Development Corporation,
 Newark, NJ, a subgrantee of Essex County Consortium, and found that the Corporation did not
 adequately administer its CDBG program. It (1) did not properly administer economic development
 loan programs, (2) did not carry out adequate technical assistance and site search services, (3) could
 not support that its activities met the CDBG national objectives, and (4) lacked evidence to justify its
 CDBG administrative expenses. Also, it did not always ensure that adequate financial records were
 maintained for its two economic development loan programs, program income was properly accounted
 for, and adequate budget and cost allocation procedures were implemented.

     OIG recommended that HUD instruct the County to require the Corporation to (1) develop and
 implement appropriate program plans and controls to ensure that more than $662,000 in CDBG
 funds is used effectively to make economic development loans, (2) repay $100,000 for an ineligible
 loan and $33,000 for a duplicate drawdown, (3) obtain and submit all supporting documentation
 showing the appropriateness and eligibility of more than $1.6 million in administrative expenditures,
 (4) develop and implement proper financial controls to safeguard CDBG funds, and (5) establish
 adequate procedures to ensure that receipts and expenditures of program income are properly
 recorded and reported. OIG also recommended that the County discontinue further funding to the
 Corporation until HUD determines that it has the capacity to carry out CDBG activities in compliance
 with HUD regulations. (Audit Report: 2009-NY-1004)

                                                  

     HUD OIG audited the CDBG program administered by the City of Durham, NC, and found that the
 City did not administer its program in accordance with all of HUD's requirements. It was deficient in
 (1) documenting national objectives, (2) monitoring, (3) procuring services, (4) reporting program



 Chapter 4 - Community Planning and Development Programs                                                     63
Chapter 4: HUD’s Community Planning and Development Programs
     income, and (5) preparing accurate consolidated annual performance and evaluation reports. As a
     result, it had no assurance that more than $1.3 million in CDBG funds met HUD requirements.

         OIG recommended that HUD require the City to (1) establish and implement effective written
     procedures for documenting compliance with HUD's requirements for national objectives and
     monitoring, procurement, program income, and preparing performance reports; (2) record unreported
     program income in HUD's Integrated Disbursements and Information System, expend the funds on
     eligible CDBG activities, and repay the interest earned on unreported program income; and (3)
     provide adequate supporting documentation to show that CDBG funds disbursed were awarded to the
     lowest responsive and responsible bidder, met one of the three national objectives, and were properly
     monitored. (Audit Report: 2009-AT-1004)

                                                      

         HUD OIG audited the City of Newburgh, NY's administration of its CDBG program and found that
     the City did not always carry out its activities effectively, efficiently, and economically in compliance
     with HUD regulations and expended CDBG funds for activities that did not meet a national objective of
     the program. It (1) routinely charged certain costs to the CDBG program without adequate support or
     detail, (2) could not adequately demonstrate that program funds were used for eligible activities that
     achieved program objectives, (3) awarded a contract for consulting services without ensuring
     compliance with Federal procurement requirements, and (4) charged costs to the CDBG program
     without evidence that all of the contract services provided related to the program. As a result, the
     City could not ensure that only reasonable and necessary administrative costs were charged to its
     CDBG program.

        OIG recommended that HUD instruct the City to (1) provide supporting documentation to justify
     the eligibility of nearly $895,000 in questionable disbursements or reimburse the program from
     nonfederal funds any amounts not supported, (2) establish procedures to ensure adequate
     monitoring of subrecipient-administered activities, and (3) establish procedures to ensure
     compliance with CDBG program requirements. (Audit Report: 2009-NY-1008)

                                                      

         HUD OIG audited the City of Rome, NY's administration of its CDBG program and found that the
     City did not always carry out its activities effectively, efficiently, and economically in compliance with
     HUD regulations and expended CDBG funds for activities that did not meet a national objective of the
     program. Specifically, the City did not (1) adequately monitor a subrecipient-administered economic
     development revolving loan fund activity to ensure that performance goals were achieved,
     (2) establish adequate administrative and management controls to ensure that costs associated with
     a public facilities subrecipient and self-administered street improvement activities were eligible and
     met a national objective of the CDBG program, and (3) establish adequate controls to ensure that
     performance goals for subrecipient-supported activities were achieved. Consequently, its revolving
     loan fund activity expended program funds in an inefficient manner that did not effectively address
     program objectives, and ineligible and unsupported costs were expended for the planned renovation
     of a building previously owned by a subrecipient and for the purchase of ornamental streetlights.

        In addition, no progress had been made on a subrecipient rehabilitation and preservation activity,
     and a national program objective was not met, thus depriving other worthwhile activities of program
     resources. As a result, the revolving loan fund activity was deprived of program income that could
     have been used to make additional loans and create more jobs, and the City's ability to administer its
     programs efficiently and effectively and ensure that CDBG program objectives were met was
     diminished.



64                                                   Chapter 4 - Community Planning and Development Programs
                                                  Chapter 4: HUD’s Community Planning and Development Programs
     OIG recommended that HUD instruct the City to (1) reimburse the CDBG program from nonfederal
 funds the nearly $141,000 paid for ineligible program expenditures, (2) provide supporting
 documentation to justify the eligibility of more than $58,000 in questionable CDBG disbursements or
 reimburse the program from nonfederal funds any amounts not supported, (3) establish procedures
 to ensure adequate monitoring of subrecipient-administered activities, and (4) comply with CDBG
 program requirements. (Audit Report: 2009-NY-1006)

                                                  

    HUD OIG audited the City of Augusta, GA's CDBG Façade Rehabilitation Grant program and found
 that the City did not have adequate controls over its financial management of the façade program.
 Payments were not recorded in the general ledgers, and HUD could not be assured that the remaining
 program funds would be accurately recorded or expended in a timely manner. The City did not
 adequately monitor its façade program. It did not verify the program match requirements or
 complete façade grants in a timely manner. In addition, it did not ensure that program files were
 complete and contained all information required by its policies and procedures.

     OIG recommended that HUD require the City to (1) properly support or repay the façade program
 nearly $181,000 from nonfederal funds and establish controls to ensure that all program transactions
 are accurately recorded in the general ledgers and (2) establish controls to ensure that the remaining
 more than $270,000 in program funds is used for its intended purpose or reprogrammed to fund other
 eligible CDBG activities. OIG also recommended that HUD ensure that the City establishes controls to
 ensure that staff follows written policies and procedures for administering the façade program. (Audit
 Report: 2009-AT-1002)

                                                  

     HUD OIG audited the CDBG program administrated by the Township of South Orange Village, South
 Orange Village, NJ, a subgrantee of the Essex County Consortium, and found that the Township
 (1) did not always comply with HUD's rules and regulations while disbursing CDBG funds, (2) spent
 more than $76,000 for activities related to fundraising, and (3) paid nearly $8,000 in legal fees related
 to the Township's other general activities. It also did not execute a subgrantee agreement with a
 nonprofit entity, and its contracts did not include the required Federal contract provisions.

     OIG recommended that HUD instruct the County to require the Township to (1) repay nearly $84,000
 related to the ineligible expenses from nonfederal funds, (2) develop and execute an adequate
 subgrantee agreement, and (3) develop and implement contracts containing all mandatory provisions
 when using Federal funds. (Audit Report: 2009-NY-1005)

 HOME Investment Partnerships Program
     HUD OIG audited the HOME funds of the HOME Investment Partnership Consortium, Alameda
 County, CA, and found that the Consortium used $5.6 million in HOME funds to pay for construction
 and rehabilitation cost increases on six projects resulting from unreasonable delays. It also provided
 nearly $82,000 in excessive assistance to home buyers under the American Dream Downpayment
 Initiative and did not comply with HUD's requirements for committing HOME funds within 24 months
 from the date the funds became available.

    OIG recommended that HUD require the Consortium to (1) repay its HOME trust fund from
 nonfederal sources for HOME funds used to pay for the cost increases resulting from construction
 delays and implement policies and procedures to ensure that foreseeable construction delays do not




 Chapter 4 - Community Planning and Development Programs                                                     65
Chapter 4: HUD’s Community Planning and Development Programs
     occur; (2) repay its HOME trust fund from nonfederal sources for the ineligible use of Downpaynent
     Initiative assistance and implement policies and procedures to ensure that downpayment assistance
     is calculated using the purchase price; (3) review all agreements for the use of HOME funds entered
     into the information system from October 1998 to the present and change the entry dates to the dates
     of the agreements; and (4) repay HUD or have its future funding reduced by the amount determined
     not to have been committed within the requisite 24-month period and implement policies,
     procedures, and internal controls to comply with HUD's requirements. (Audit Report: 2009-LA-1004)

                                                     

         HUD OIG audited Adams County, CO's HOME program and found
     that Adams County inappropriately spent or could not support more
     than $2.1 million in HOME funds. Specifically, it (1) used nearly
     $73,000 for ineligible community housing development
     organization operating grants, (2) used $25,000 without entering
     into a contract with the subrecipient, (3) provided $10,000 to a
     subrecipient before the cost was incurred, (4) spent nearly $2
     million without documentation to support that the funds benefited
     eligible recipients, and (5) could not support two of the last three
     matching contributions that it reported to HUD totaling more than
     $1.8 million.

         OIG recommended that HUD ensure that Adams County
     reimburses its HOME trust fund from nonfederal funds for any
     ineligible expenditures. OIG also recommended that Adams County
     (1) provide supporting documentation showing that the funds
     benefited eligible recipients, (2) reduce the amount of HOME
     matching contributions recorded on its books that are not
     supported or eligible, (3) implement an acceptable internal
     control structure by preparing and implementing effective policies
     and procedures, and (4) receive technical assistance from HUD to
     ensure compliance. (Audit Report: 2009-DE-1001)

                                                                                Copyright, 2009. The Denver Post -
                                                                            Denver, CO. Reprinted with permission.
                                                     

         HUD OIG audited the City of Norfolk, VA's HOME program and found that the City generally
     followed HUD requirements related to home buyer assistance, modernization rehabilitation, and funds
     for community housing development organizations. However, it did not properly monitor its
     subrecipient to ensure that nearly $289,000 in program income was returned to its HOME program as
     required. The City has since implemented adequate procedures for monitoring its subrecipients to
     ensure that this problem does not recur.

         OIG recommended that HUD require the City to recover the program income that was not properly
     returned to its HOME program or repay the amount to its program from nonfederal funds. (Audit
     Report: 2009-PH-1007)

                                                     




66                                                  Chapter 4 - Community Planning and Development Programs
                                                 Chapter 4: HUD’s Community Planning and Development Programs
    HUD OIG audited Cook County, IL's HOME program and found that the County did not adequately
 manage its program. It incorrectly reported program contributions and the amounts of program
 contributions it was required to provide in its consolidated reports to HUD, thereby inappropriately
 reporting nearly $5.6 million in program contributions available for future fiscal years. It also
 inappropriately disbursed program funds drawn down from its HOME trust fund treasury account and
 program income from its HOME trust fund local account for multifamily projects and disbursed
 program funds drawn down from its treasury account for nonadministrative activities. As a result,
 HUD lost more than $59,000 in interest on nearly $7.2 million in program funds that the County did not
 use for eligible program costs within 15 days of being drawn down from its treasury account, and the
 County lost more than $6,000 in interest on more than $1.4 million in program income that it did not
 immediately use for eligible program costs.

    OIG recommended that HUD require the County to (1) implement a detailed comprehensive
 written action plan to improve its procedures and controls to ensure that it operates its HOME
 program in accordance with HUD's and its own requirements, (2) reimburse HUD more than $59,000
 and its local account more than $6,000 from nonfederal funds, and (3) implement adequate
 procedures and controls to address the findings cited. (Audit Report: 2009-CH-1004)

 Supportive Housing Program Grants
    HUD OIG audited its Supportive Housing Program grants to the New Phoenix Assistance Center in
 Chicago, IL, and found that the Center (1) materially failed to manage its program grants, (2) did not
 comply with Federal requirements regarding its use of program funds, and (3) lacked sufficient
 documentation to support that it followed HUD's requirements in providing contributions for its
 program grants. It (1) could not support that it used program funds for appropriate program
 expenses, (2) inappropriately used program funds, and (3) could not support that it followed HUD's
 requirements in providing contributions for its program grants. Further, it (1) could not support its
 use of more than $574,000 in program funds for appropriate lease payments and more than $72,000 in
 program funds for eligible nonlease expenses, (2) used nearly $16,000 in program funds for improper
 nonlease expenses, and (3) could not support that its transfers of $25,000 in program funds among its
 program grants were allowable. Due to the Center's lack of documentation, HUD could not be assured
 that the Center provided more than $333,000 in eligible contributions for its program grants.

     OIG recommended that HUD (1) terminate the Center's three current authorized program grants,
 (2) reallocate the nearly $92,000 in remaining program funds, (3) deny the Center's three applications
 for nearly $838,000 in future program funds, (4) require the Center to provide sufficient supporting
 documentation or reimburse HUD from nonfederal funds for the unsupported payments and
 contributions, (5) reimburse HUD from nonfederal funds for the improper use of program funds, and
 (6) pursue the appropriate administrative sanctions against the Center's officers for their failure to
 adequately manage its program grants. (Audit Report: 2009-CH-1001)

 Section 108 Loan Guarantee Program
     HUD OIG audited the City of Newburgh, NY's administration of its Section 108 Loan Guarantee
 program and found that the City failed to ensure that all Section 108 Loan Guarantee funds and related
 project costs pertaining to the Front Street Marina redevelopment project were proper, necessary,
 and fully supported. It (1) failed to enforce loan agreement provisions and adequately pursue loan
 collateral to satisfy the debt, (2) did not ensure that all funding sources were supported and
 documented, (3) unnecessarily used CDBG funds to repay the loan and deprived the project of funds
 that could have been used for other activities, and (4) improperly expended Economic Development
 Initiative (EDI) funds.



 Chapter 4 - Community Planning and Development Programs                                                  67
Chapter 4: HUD’s Community Planning and Development Programs
         In addition, (1) the City did not achieve the primary objective of job creation for the industrial park
     project, (2) loan proceeds remained unused in a bank account for more than 7 years, (3) possible
     collateral or program income for loan repayment was not pursued, and (4) the City did not ensure that
     the industrial site was feasible for commercial development and job creation. The failure of the
     industrial park project negatively impacted the City's CDBG program, as CDBG funds were used to
     repay the Section 108 debt and additional CDBG funds were scheduled to retire the debt, thereby
     hindering the program from effectively using future CDBG funds to provide maximum benefit to
     low- and moderate-income residents.

         OIG recommended that HUD instruct the City to (1) enforce the loan provisions for the marina
     redevelopment project within 90 days or reimburse the CDBG program from nonfederal funds the
     nearly $450,000 used for debt repayment, (2) take appropriate actions against the marina developer
     and ensure that nonfederal funds are used to repay the remaining $1.3 million in future loan
     obligations, (3) reimburse the EDI program from nonfederal funds the more than $144,000 paid for
     ineligible duplicate costs, (4) establish a plan for the industrial park site within 90 days or reimburse
     the CDBG program from nonfederal funds the approximate $1.8 million used for debt repayment, and
     (5) reprogram the approximate $1.7 million in CDBG funds currently scheduled to be used for future
     repayment of the industrial park project loan. (Audit Report: 2009-NY-1001)

                                                       

         HUD OIG audited the City of Yonkers, NY's administration of its Section 108 Loan Guarantee
     program and found that the City disbursed program funds for eligible activities in accordance with
     HUD rules and regulations and maintained a financial management system that adequately safeguarded
     funds. However, it did not (1) adequately document data on borrower compliance with job creation
     and retention requirements, (2) consistently monitor and report on the use of loan proceeds,
     (3) properly maintain its loan repayment account, and (4) notify HUD when loan collateral was changed
     or loans defaulted. As a result, the City lacked assurance that loan job creation and retention goals
     were achieved, loan disbursements were used for eligible purposes, and loan repayments would be
     sufficient to meet the City's future loan repayment obligations. In addition, HUD was not made aware
     of changes to loan collateral and defaulted loans, which could have affected its financial interest.

        OIG recommended that HUD instruct the City to strengthen its controls to (1) monitor and verify
     loan recipients' compliance with job creation and retention requirements, (2) obtain and review
     borrower documentation for expenditure of loan proceeds to ensure that they are used for eligible
     purposes, (3) properly maintain loan repayment records, and (4) report changes in loan collateral and
     defaults to HUD. (Audit Report: 2009-NY-1009)

                                                       




68                                                   Chapter 4 - Community Planning and Development Programs
                                                  Chapter 4: HUD’s Community Planning and Development Programs
  Investigations
     Some investigations discussed in this report were generated from leads provided by HUD CPD
  program staff or conducted jointly with Federal, State, and local law enforcement agencies. The
  results of various significant investigations are described below.


                Strategic Initiative 3: Contribute to the strengthening of communities

    Key program          Cases                $                Convictions/pleas/       Admin/civil
      results            closed           recovered                pretrials              actions
    Investigations         80             $5,156,194                  25                         24

         Our            Page 70      - Theft/embezzlement
        focus           Page 72      - Other fraud/crimes




                 Chart 4.2: Percentage of OIG community planning and development
                       closed investigation cases during this reporting period




                                                                              Region 1 - 1%
                                                                              Region 2 - 9%
                                                                              Region 3 - 3%
                                                                              Region 4 - 8%
                                                                              Region 5 - 5%
                                                                              Region 6 - 6%
                                                                              Regions 7/8 - 4%
                                                                              Regions 9/10 - 8%
                                                                              Region 11 - 56%




 Chapter 4 - Community Planning and Development Programs                                              69
Chapter 4: HUD’s Community Planning and Development Programs
     Theft/Embezzlement
         Raymond Vella, the owner of Pavel Construction, a contractor for the Linden Neighborhood
     Preservation program (Linden NP), an organization that receives HUD CDBG and HOME funds, was
     convicted in U.S. District Court, Trenton, NJ, of committing mail fraud, offering and giving a corrupt
     thing of value, and obtaining property by fraud. From January 1998 to December 2006, Vella paid
     bribes to previously indicted and former Linden NP employee Frank Rose in exchange for more than
     $652,448 in Linden NP contracts.

                                                    

         Barbara Alvarado, a former office manager for The Los Angeles House of Ruth (House of Ruth), a
     homeless and domestic violence shelter that receives HUD Supportive Housing funds, was indicted in
     U.S. District Court, Los Angeles, CA, for allegedly committing misapplication of property from an
     organization that receives Federal funds. Alvarado allegedly altered House of Ruth accounting records
     and victim funding requests and fraudulently obtained and personally used $238,000 in House of Ruth
     funds.

                                                    

         Carolyn Edwards Herron, the chief financial officer for Travelers Aid of Metropolitan Atlanta
     (Travelers Aid), an organization that receives HUD Emergency Shelter Grant funds, pled guilty in U.S.
     District Court, Atlanta, GA, to committing embezzlement. Herron used Travelers Aid funds and credit
     cards for personal expenses and created and deposited fabricated employee wages into her personal
     bank account. HUD realized losses in excess of $183,000.

                                                    

         William Walker, the former director for the New Brunswick Neighborhood Preservation and
     Housing Rehabilitation programs, organizations that receive HUD CDBG and HOME funds, was
     sentenced in U.S. District Court, Newark, NJ, to 87 months incarceration and 36 months supervised
     release and ordered to pay HUD $112,500 in restitution for his earlier guilty pleas to committing a
     conspiracy to extort under color of law, soliciting and accepting corrupt payments, and filing a false
     Federal income tax return. Walker accepted $112,500 in bribes from construction and maintenance
     companies under contract with both HUD-funded programs identified above and failed to report the
     kickbacks on his Federal income tax return.

                                                    

         Dawn Monteneri, a former bookkeeper for Support Ministries, Inc. (Support Ministries), an
     organization that receives CDBG, Emergency Shelter, and other HUD funding, was arrested and charged
     in Albany County Court, Albany, NY, with allegedly committing grand larceny and filing false business
     documents. Monteneri allegedly diverted and personally used $56,000 in Support Ministries' funds.

                                                    

         Connie Kuzma, a former program manager for the Northern Cambria Community Development
     Corporation (Northern Cambria), an organization that receives HUD HOME funds, was sentenced in
     U.S. District Court, Johnstown, PA, to 10 months home detention and 60 months probation and
     ordered to pay Northern Cambria $46,960 in restitution for her earlier guilty plea to committing




70                                                 Chapter 4 - Community Planning and Development Programs
embezzlement. Kuzma failed to report income or her actual household composition on Northern
Cambria loan applications, fraudulently obtained two Northern Cambria HOME loans and a grant
totaling $49,450, and then removed the Northern Cambria HOME liens from the property deed without
authorization.

                                                

    Marlene Woodson, the former chief executive officer for Christian Vision Center (Christian
Vision), an organization that receives HUD CDBG funds, entered into a pretrial diversion filed in U.S.
District Court, Chicago, IL, and agreed to pay HUD $46,109. Woodson admitted that she embezzled
and personally used $46,109 in Christian Vision funds.

                                                

    Latricia Collins, a resident program manager and public housing tenant at Glendale Apartments, a
housing development that receives HUD Supportive Housing funds, was charged in Hennepin County
District Court, Minneapolis, MN, with allegedly committing theft by swindle over $5,000. Collins
allegedly embezzled and personally used $35,566 in HUD Supportive Housing funds.

                                     

    Margare Segura, also known as Margare Lewis, a former case manager for
the Catholic Charities of the Archdioceses of New Orleans (Catholic Charities),
an organization that receives HUD Supportive Housing funds, was sentenced in
U.S. District Court, New Orleans, LA, to 20 months incarceration and ordered to
pay HUD $29,867 and the Federal Emergency Management Agency $1,596 in
restitution for her earlier guilty plea to making false statements and committing
theft of government funds and a conspiracy. In addition, fabricated Catholic
Charities landlords Deborah Knighten and Lola Davis were collectively sentenced
to 3 months home confinement and 8 years probation and ordered to pay HUD
$28,567 in restitution for their earlier guilty pleas to committing a conspiracy.
The above defendants and others conspired and created fake landlords and
nonexistent homeless families to conceal their personal use of $35,217 in
Catholic Charities funds.

                                     

    Robert Chiarappa, a former purchasing agent for both the John Galt
Corporation and Safeway Environmental, organizations under contract with
LMDC, an organization that receives HUD CDBG Disaster Recovery Assistance
funds, was indicted in New York State Supreme Court, Manhattan, NY, for
allegedly committing grand larceny. In addition, AW Meyer and James Kelly, a
supply manager for AW Meyer, a company that provides demolition and
abatement supplies for others under contract with LMDC, each pled guilty to
falsifying business records. From September 2006 through October 2007,
Chiarappa allegedly instructed AW Meyer and other vendors to submit more
than $24,500 in fraudulent invoices for goods not delivered to the Deutsche Bank
building deconstruction site; approved and submitted the false invoices to            Copyright, 2009. The
LMDC; and obtained cash, jewelry, and other personal use items in return.            Times-Picayune - New
                                                                                    Orleans, LA. Reprinted
                                                                                         with permission.
                                                




Chapter 4 - Community Planning and Development Programs                                                      71
         Steven Scott, a former New Brunswick housing inspector previously sentenced in U.S. District
     Court, Newark, NJ, for his earlier guilty plea to committing theft of public funds, was debarred from
     procurement and nonprocurement transactions with HUD and throughout the Executive Branch of
     the Federal Government for 3 years. Scott used the identification of another when he applied for and
     received $19,940 in HUD housing rehabilitation grant funds.

                                                     

        Staci Billings, the former executive director for the Adirondack Veteran's House (Adirondack), an
     organization that receives HUD CDBG and Supportive Housing funds, pled guilty in Warren County
     Court, Glens Falls, NY, to committing grand larceny. Billings diverted and personally used $11,600 in
     Adirondack funds.

                                                     

         Abdullah Aziz was sentenced in U.S. District Court, New York City, NY, to 6 months incarceration
     and 36 months probation and ordered to pay Empire State Development Corporation (Empire) $3,500
     in restitution for his earlier guilty plea to committing theft of government funds. Aziz submitted false
     applications and fraudulently obtained $2,430 in business recovery funds from Empire, a HUD-funded
     nonprofit established to provide assistance to businesses in lower Manhattan after the September 11,
     2001, terrorists attacks.

                                                     

         Anthony Saccomanno, the director for the Cherry Hill Department of Code Enforcement and
     Inspections (Cherry Hill), an organization that receives HUD CDBG funds, and Russell McLauglin, Jr.,
     the president of Building Inspections Underwriters, Inc., were each arrested and charged in U.S.
     District Court, Newark, NJ, for allegedly committing bribery. From July 2007 to December 2008,
     Saccomanno allegedly received cash payments from McLauglin in return for $240,000 in Cherry Hill
     contracts.

     Other Fraud/Crimes
         Michael Cenzi and Ronald Caceci, employees for Sinisgalli, Inc., a demolition contractor for the
     City of Rochester, a HUD CDBG-funded municipality, were each arrested and charged in Perinton County
     Court, Rochester, NY, with allegedly endangering public health and illegal dumping of hazardous waste.
     Cenzi and Caceci allegedly dumped asbestos and other illegal hazardous waste.

                                                     




72                                                  Chapter 4 - Community Planning and Development Programs
                                                 Chapter 4: HUD’s Community Planning and Development Programs
Chapter 4: HUD’s Community Planning and Development Programs
     Introduction and Background
         The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General (OIG),
     Offices of Audit and Investigation, monitor HUD disaster funds, conduct audits of disaster funding,
     identify program weaknesses, perform outreach to State agencies and HUD program partners,
     perform outreach to Federal, State, and local law enforcement partners, identify potential civil and
     criminal cases, and coordinate the efforts of HUD OIG field offices, auditors, and agents around the
     country in disaster-related audits and investigations.

         HUD OIG’s Office of Audit continues to be diligent in its efforts to pursue fraud, waste, and abuse
     in the audits of HUD's emergency supplemental funding provided to the Gulf Coast States. HUD OIG
     has expanded its disaster relief oversight to take an active role in the oversight of its audit functions
     relating to all disaster funding nationwide.

         The detection, deterrence, prevention, and punishment of frauds related to HUD disaster funding
     are the business of HUD OIG’s Office of Investigation. HUD OIG established the Disaster Response
     Oversight Division (DROD), previously known as the Hurricane Relief Oversight Division, in the wake
     of Hurricane Katrina. DROD coordinates with the investigating regions regarding all HUD disaster
     funding nationwide, from the World Trade Center disaster relief efforts to relief efforts related to last
     year's Hurricane Ike.

     Major Relief Programs
          Louisiana's Road Home program, the largest single-housing recovery program in U.S. history, uses
     funding provided through HUD's Community Development Block Grant (CDBG) program. Road Home
     offers up to $150,000 to eligible homeowners whose primary residences were destroyed or severely
     damaged following Hurricanes Katrina or Rita. In addition, Louisiana offers Road Home applicants up
     to $100,000 to elevate their homes. To date, the Road Home program has paid out approximately $7.9
     billion to more than 141,000 homeowners.

         The State of Mississippi's Homeowner Grant Assistance Program is designed to provide financial
     assistance to those homeowners outside the flood plain whose homeowners' insurance did not cover
     structural flood damage. Single-family homes, owner-occupied duplexes, and manufactured housing,
     including mobile homes, are eligible for grants under this program. Under the Homeowner Grant
     Assistance Program, homeowners may receive grants of up to $150,000. Phase II of the program
     expanded coverage to include homeowners whose homes flooded but were not eligible for the
     original program. In addition, homeowners who must elevate their homes when rebuilding to reduce
     the risk of damage from future storms may be eligible for grants of up to $30,000 to cover the higher
     cost of construction.

         The Disaster Housing Assistance Program (DHAP), funded by the Federal Emergency Management
     Agency (FEMA), is administered by HUD and public housing authorities and agencies to provide
     temporary housing assistance and case management services for about 45,000 families displaced by
     Hurricanes Katrina and Rita. Disaster Housing Assistance Program-Ike (DHAP-Ike) provides
     assistance to families displaced by Hurricane Ike.

        Iowa's Jumpstart Program, funded by HUD's CDBG program and other existing State and Federal
     funds, is a housing and small business program designed to help Iowans affected by last year's
     devastating severe weather.




74                                                                         Chapter 5 - Disaster Relief Oversight
                                                                             Chapter 5: Hurricane Relief Oversight
  Audit
      HUD OIG is responsible for conducting a variety of audits and other reviews in all program areas.
  OIG's significant workload is generally divided into four primary categories: performance audits,
  information system audits, financial audits, and advisory and assistance services. OIG has continued
  to work on audits related to HUD disaster funding and HUD's Gulf Coast Region. During the reporting
  period, OIG issued five audit reports on disaster-related areas: two on the Housing Authority of New
  Orleans (HANO), two on the Lower Manhattan Development Corporation (LMDC) (9-11 disaster), and
  one on the Texas disaster housing program. To date, HUD OIG has completed 12 audits of the
  supplemental funding with questioned costs of more than $28.7 million.

  Final Reports
     At the request of two United States Senators, HUD OIG initiated an audit of HUD's administration of
  HANO, New Orleans, LA. OIG's audit objective was to determine whether HUD's receiver provided
  adequate management oversight to ensure that HANO complied with HUD's requirements. OIG found
  that HUD's receiver did not provide adequate management oversight to ensure that HANO complied
  with HUD's requirements when operating its voucher program and public housing operations.
  Specifically, HUD's receiver did not ensure that eight of ten sample voucher program units complied
  with HUD's housing quality standards and six of nine sample public housing units were in good repair.
  Additionally, the receiver did not ensure that HANO used a rent reasonableness system to avoid
  excessive payments to landlords, properly calculated or paid voucher program tenant rents, and
  maintained a proper waiting list for its Section 8 program.

     OIG recommended that HUD require the receiver to ensure that HANO (1) conducts annual
  inspections of all of its voucher program units and supervisory quality control inspections, as
  required by its (HANO's) administrative plan; (2) implements a process to routinely review the
  performance of its public housing managers and the physical condition of its public housing units to
  ensure compliance with HUD's requirements; and (3) develops and implements a method for
  assessing rent reasonableness to owners, properly calculates and pays rental assistance, and
  maintains a proper waiting list that complies with HUD's requirements for its Section 8 applicants.
  (Audit Report: 2009-AO-0001)

                                                 

      HUD OIG audited HUD's administration of HANO, New Orleans, LA, to determine the effect of
  HUD's receivership on HANO's performance in its contracting activities and financial functions.
  Specifically, OIG wanted to determine whether HUD's receivership ensured that HANO properly
  (1) accounted for its fungibility funds, (2) monitored and paid its contractors, and (3) disbursed its
  accounts payable. OIG found that HUD's receiver did not ensure that HANO (1) correctly supported,
  expensed, or reported its expensed fungible funds in accordance with HUD requirements, resulting in
  at least $4.9 million in unsupported and $2.3 million in ineligible expenses (2) monitored and/or paid
  two of its contractors in accordance with contract terms and HANO's procurement policy, resulting in
  $97,193 in ineligible and $1,153 in unsupported costs; and (3) supported 10 of 20 accounts payable
  disbursements in accordance with HANO's financial policy, resulting in at least $15,000 in unsupported
  costs.

     OIG recommended that HUD require the receiver to ensure that HANO provides support or repays
  the ineligible and unsupported costs. OIG further recommended that HANO provide an accurate



  Chapter 5 - Disaster Relief Oversight                                                                    75
Chapter 5: Hurricane Relief Oversight
     annual progress report, including all eligible fungibility funds expensed in its 2006 annual report, and
     develop and implement the appropriate controls to ensure that it (1) maintains adequate financial
     records for the accounts payable disbursements and (2) properly authorizes its accounts payable
     disbursements to safeguard the accounts payable funding. (Audit Report: 2009-AO-0002)

                                                     

         HUD OIG audited the HUD CDBG Supplemental I Disaster Recovery program, administered by
     the Texas Department of Housing and Community Affairs (Department), as part of OIG's commitment
     to HUD to implement oversight of the Disaster Recovery Assistance funds to prevent fraud, waste,
     abuse, and duplication of benefits. OIG's objective was to determine whether the Department
     administered Supplemental I Disaster Recovery funds (funds) in compliance with the supplemental
     appropriation's Federal Register requirements, HUD's policies, and the State of Texas' (State) disaster
     recovery action plan.

        The Department administered the funds in compliance with requirements. The funds were
     accounted for and were used for eligible program applicants and projects that met national program
     objectives. (Audit Report: 2009-FW-1004)

                                                     

          The eleventh in HUD OIG's series of ongoing audits of LMDC's administration of the $2.783
     billion in CDBG Disaster Recovery Assistance funds, provided to the State of New York following
     the September 11, 2001, terrorist attacks on the World Trade Center in New York City, concluded that
     the auditee administered the grant funds reviewed in accordance with HUD regulations and continued
     to maintain a financial management system that adequately safeguarded funds and prevented misuse.
     However, two concerns were raised for HUD's attention: the auditee (1) charged legal costs to the
     World Trade Center Memorial and Cultural program as activity delivery costs instead of
     administrative and planning costs and (2) had not corrected drawdowns inadvertently charged to the
     wrong program budgets in HUD's Line of Credit Control System. As a result, the auditee has fewer
     funds than would otherwise be available for the World Trade Center Memorial and Cultural Program,
     and HUD's Line of Credit Control System is reporting incorrect amounts for individual budget line
     items.

         OIG recommended that HUD direct the auditee to (1) provide documentation for the rationale to
     classify legal costs as direct program activity delivery costs instead of as administrative and planning
     costs so that HUD can make an eligibility determination and (2) enhance its procedures to allow for
     correction of misclassifications within HUD's Line of Credit Control System as funds are drawn down.
     (Audit Report: 2009-NY-1003)

                                                     

         As part of the tenth of HUD OIG's ongoing audits of LMDC's administration of CDBG Disaster
     Recovery Assistance funds, we reviewed the nature of costs incurred under the activity entitled "World
     Trade Center Memorial and Cultural" program related to the deconstruction of the Deutsche Bank
     building in New York City. The review raised concern about funding of the deconstruction activity;
     specifically, that escalating costs since July 2007 have resulted in LMDC reallocating $67.5 million in
     HUD funds from other previously approved activities and LMDC officials maintaining that, as of
     September 30, 2007, LMDC had disbursed $27.1 million more than its share of applicable costs. In
     addition, other costs which LMDC had paid may qualify for cost sharing. As a result, other programs




76                                                                        Chapter 5 - Disaster Relief Oversight
                                                                             Chapter 5: Hurricane Relief Oversight
  previously approved by HUD have been impacted, and more HUD funds than may have been
  necessary were used to pay for deconstruction activity.

      OIG recommended that HUD instruct LMDC to (1) provide an updated accounting of deconstruction
  costs, both aggregate and nonaggregate, and an estimate of anticipated additional expenditures in
  each of these categories so that HUD may assess the extent to which additional funds may need to be
  reprogrammed for deconstruction activity; (2) periodically provide HUD a report on the status of
  efforts to resolve the escrow account underfunding; and (3) provide documentation to support why
  funds disbursed for the initial building characterization study and air monitoring should not be
  classified as aggregate deconstruction costs. In addition, OIG recommends that HUD closely
  monitor the remaining disbursement of HUD funds under this activity. (Audit Report: 2009-NY-0801)

                                                




  Chapter 5 - Disaster Relief Oversight                                                                 77
Chapter 5: Hurricane Relief Oversight
     Investigations
     Summary of Accomplishments
     Prosecution and Enforcement

         During the reporting period, HUD OIG prosecuted 37 individuals in Federal, State, and local
     judicial districts throughout the country for disaster-related frauds. Judicial actions include 31
     individuals charged or indicted, 31 arrested, and 23 individuals or corporate entities convicted. In
     addition, 16 individuals investigated by OIG regarding disaster-related crimes were sentenced during
     the reporting period.

     Deterrence and Returned Funds

         Working with the Louisiana Recovery Authority (LRA) and the Mississippi Development Authority
     (MDA), HUD OIG has taken a proactive role to prevent payments on fraudulent disaster-related claims.
     As a result of OIG investigations during the reporting period, the LRA stopped payments on fraudulent
     claims totaling more than $2 million.

         As a result of investigations conducted by OIG and its investigative partners during the reporting
     period, OIG reported financial recoveries of $729,852 in funds returned by recipients of individual
     assistance programs and disaster program funds.

        OIG investigations during the reporting period resulted in funds put to better use of more than
     $37.7 million.

        In addition, HUD suspended, debarred, and removed 47 individuals from participation in HUD and
     other Federal programs. These suspensions and debarments were based on findings of OIG
     investigations during the reporting period.

     Continued Agency Coordination

        HUD OIG has been and continues to be a dedicated partner in the National Center for Disaster
     Fraud (NCDF) Task Force (previously known as the Hurricane Katrina Fraud Task Force). The Task
     Force's Joint Command Center in Baton Rouge, LA, to which OIG has provided personnel support, has
     proved to be a major source of support for disaster-related investigative efforts throughout the
     country. OIG is making sound use of the Command Center for the receipt and referral of complaints
     and timely information sharing with other relevant law enforcement agencies.

        To coordinate efforts, OIG performs outreach actions with law enforcement partners, State and
     local agencies, HUD personnel, HUD multifamily property owners and managers, HUD public housing
     agencies and authorities, and community partners.

         OIG continues to work closely with law enforcement agencies on complaints, intelligence, and
     joint investigations of disaster-related fraud. Most of the investigations discussed in this report were
     conducted jointly with Federal, State, and local law enforcement agencies and in coordination with the
     NCDF.




78                                                                        Chapter 5 - Disaster Relief Oversight
                                                                             Chapter 5: Hurricane Relief Oversight
  Training and Proactive Detection

      HUD OIG has continued to provide HUD fraud-related training for other law enforcement agencies
  including the Louisiana State Inspector General's Office, the Federal Bureau of Investigation (FBI), and
  other investigative partners. OIG continues to play a significant role in proactively identifying
  patterns of potentially fraudulent activities in applications for disaster benefits and to provide
  outreach to community partners, such as the Texas Office of Rural Community Affairs, to continue
  efforts to prevent frauds. In Iowa, OIG has established investigative contacts with the United States
  Attorney's Office and local police departments in Des Moines and Cedar Rapids. OIG has also reached
  out to the FBI, the Small Business Administration (SBA), and the U.S. Department of Homeland
  Security (DHS) OIG in Iowa to initiate coordination of efforts.

  Prosecution and Enforcement
     The most tangible proof of the commitment of HUD OIG is the number of prosecutions stemming
  from disaster fraud investigations. For the reporting period, OIG has charged 31 individuals in
  25 separate cases with disaster-related frauds. These prosecutions span Federal judicial districts
  throughout six States. State and local prosecutors' offices have also continued to bring criminal cases
  involving disaster-related fraud.

     As of March 31, 2009, more than 175 individuals have been arrested, more than 127 have been
  indicted, and more than 87 have been convicted of disaster-related crimes as a result of OIG
  investigations. In addition, since the initiation of the Disaster Relief Oversight Division, OIG has
  recorded more than 106 administrative actions, two civil actions, six personnel actions, and more
  than $13.3 million in investigative recoveries.

     While the majority of OIG prosecutions during the reporting period still involve fraud to obtain
  individual assistance benefits, OIG is pursuing more cases involving public corruption and
  procurement fraud.

      The following summaries of recent disaster fraud-related cases are offered as a sample of the
  fraudulent schemes being successfully investigated and prosecuted.

  Homeowner Grant Fraud Cases
  Mississippi
      Gregory Warr, the mayor of Gulfport, MS, a city directly impacted by Hurricane
  Katrina, and Laura Warr, his wife, were each charged in a 16-count federal
  indictment with mail fraud, wire fraud, theft of public money, false statements, false
  claims and conspiracy. The case is now pending in U.S. District Court in Gulfport,
  MS. According to the indictment, the Warrs fraudulently obtained disaster
  assistance from HUD and FEMA and filed fraudulent insurance claims in the wake of
  Hurricane Katrina. Mayor Warr and his wife applied for and received $150,000 in
  HUD CDBG Disaster Recovery Assistance funds through the MDA and $9,558 in FEMA
  disaster assistance for hurricane-damaged residential property, but allegedly the
  damaged property was not their primary residence during Hurricane Katrina.

                                          

                                                                          Copyright, 2009. Hattiesburg American -
                                                                      Hattiesburg, MS. Reprinted with permission.


  Chapter 5 - Disaster Relief Oversight                                                                             79
Chapter 5: Hurricane Relief Oversight
         Wayne Rogers and Latanicia McMillan, also known as Latanicia McMillan-Rogers, were arrested
     and indicted by a Federal grand jury. The criminal case is now pending in U.S. District Court, Jackson,
     MS. Rogers and McMillan were charged with three counts of theft of government funds and one count
     of false claims. They applied for and received $91,021 in CDBG Disaster Recovery Assistance funds
     through the MDA, $4,358 in FEMA disaster assistance, and $152,000 in SBA disaster loan funds for
     hurricane-damaged residential property, but allegedly the damaged property was not their residence
     during Hurricane Katrina.

                                                      

         Roger and Annette Williams were sentenced in U.S. District Court, Gulfport, MS, to a combined 28
     months incarceration, 4 months home confinement, and 10 years supervised release. They were
     ordered to pay $116,505 in restitution and perform 200 hours of community service. The two had pled
     guilty to charges making false statements, submitting false loan or credit applications, and committing
     theft of government funds or Federal program fraud. Roger and Annette Williams applied for and
     received FEMA, U.S. Department of Agriculture (USDA), and SBA disaster loan funds and attempted to
     obtain $150,000 in CDBG Disaster Recovery Assistance funds through the MDA for hurricane-damaged
     residential property. They admitted that they did not occupy the damaged property as their primary
     residence during Hurricane Katrina.

                                                      

         Beatrice E. Moses, of Ocean Springs, MS, was
     sentenced in U.S. District Court to serve 15 months
     in federal prison for fraud against HUD, FEMA, the
     SBA, and USDA. Moses was also ordered to make
     restitution to FEMA in the amount of $24,779, to the
     Mississippi Emergency Management Agency (MEMA)
     in the amount of $50,929 (for a MEMA cottage), and
     to USDA in the amount of $1,810. A forfeiture order
     of a money judgment in the sum of $24,779 was also
     entered against Moses. Moses pled guilty on
     October 28, 2008, to making false statements to the
     MDA for a HUD disaster home grant, making false
     statements to USDA and the SBA, and stealing
     government funds from FEMA. In the same case,
     Leverne Moses, husband of Beatrice Moses, entered
     a plea of guilty to making a false statement to the SBA                    Copyright, 2009. The Sun Herald -
     and was sentenced to 5 years probation.                             Gulfport, MS. Reprinted with permission.


     Louisiana
         Barbara Dowl was indicted by a federal grand jury and charged with theft of government funds,
     false statements, mail fraud, and wire fraud. The case is now pending in U.S. District Court, New
     Orleans, LA. Dowl's ex-husband, Nathaniel Dowl, was charged in Orleans Parish Criminal District
     Court, New Orleans, LA, and pled guilty to filing false public records. According to the indictment,
     before Hurricane Katrina, Nathaniel and Barbara Dowl's property was foreclosed on by the City of
     New Orleans for unpaid taxes. After Hurricane Katrina, Nathaniel Dowl filed a false quit claim deed on
     the property in his and Barbara Dowl's name. Barbara Dowl allegedly, using the quit claim deed,




80                                                                        Chapter 5 - Disaster Relief Oversight
                              applied for and received $132,000 in CDBG Disaster Recovery Assistance
                              funds through the Road Home program and $75,000 in SBA disaster
                              assistance for hurricane-damaged residential property. Dowl is scheduled
                              to go to trial on June 1, 2009.

                                                                 

                                  Ryant Price, a resident of Saint Rose, LA, was charged in a one-count
                              indictment by a Federal grand jury on charges of theft of government funds
                              in connection with his 2006 application for Louisiana Road Home program
                              funds. The case is now pending in U.S. District Court, New Orleans, LA.
                              According to the indictment, before and during the time of Hurricane Katrina,
                              Ryant Price resided in his primary residence in Saint Rose. It is alleged that
                              in 2006, Price applied for funds from the Louisiana Road Home program,
                              claiming that a second home he owned, located in New Orleans, was his
                              primary residence at the time of the storm. According to court documents,
                              as a result of his application, Price received approximately $105,000 in
                              Louisiana Road Home program funds to which he was not entitled.


Copyright, 2009. The Times-Picayune -
New Orleans, LA. Reprinted with permission.
                                                    

   Billy Lawrence, a resident from New Orleans, LA, was charged with one count of theft of
government funds. According to the bill of information, Lawrence applied for and received a Road
Home grant of $98,486 for a rental property he owned on Short Street in New Orleans. It is alleged that
Lawrence fraudulently represented that he was a full-time resident of the Short Street property, when
he had been renting the property to tenants and lived elsewhere at the time of the storm.

                                                    

    Pearl DiLeo, a New Orleans resident, was charged in a one-count indictment by a Federal grand
jury for theft of government funds in connection with her 2007 application for Louisiana Road Home
program funds. According to the indictment, before and during the time of Hurricane Katrina, DiLeo
resided in her primary residence on St. Charles Avenue in New Orleans, LA. It is alleged that in 2006,
DiLeo applied for funds from the Louisiana Road Home program, claiming that a second home she
owned, located in Mandeville, LA, was her primary residence at the time of the storm. According to
court documents, as a result of her application, she received approximately $149,925 in Louisiana
Road Home program funds to which she was not entitled.

                                                    

   Robert Lombardino was charged with committing theft of government funds. The case is now
pending in U.S. District Court, New Orleans, LA. Lombardino applied for and received $134,000 in
CDBG Disaster Recovery Assistance funds through the Road Home program for hurricane-damaged
property, but allegedly the damaged property was not Lombardino's primary residence, but rather a
rental property, during Hurricane Katrina.

                                                    




Chapter 5 - Disaster Relief Oversight                                                                          81
         Jacqueline Foreman-Pottinger, a resident of Metairie, LA,
     was charged via a bill of information with and pled guilty to
     one count of theft of government funds. Pottinger applied for
     and received a Road Home grant of $148, 078 for a rental
     property she owned on Florida Boulevard in New Orleans.
     Pottinger fraudulently represented that she was a full-time
     resident of the Florida Boulevard property, when she had been
     renting the property to tenants at the time of the storm.

                                   

        Eva Baptiste, a New Orleans resident, pled guilty to a
     one-count bill of information for theft of government funds in
     connection with her 2007 application for Louisiana Road Home
     program funds. According to the bill of information, before             Copyright, 2009. The Times-Picayune -
     and during the time of Hurricane Katrina, Eva Baptiste resided New Orleans, LA. Reprinted with permission.
     in her primary residence on North Roman Street in New
     Orleans, LA. In 2007, Baptiste applied for funds from the
     Louisiana Road Home program, claiming that a second home she owned, located in the 1500 block of
     Lesseps Street in New Orleans, LA, was her primary residence at the time of the storm. According to
     court documents, as a result of her application, Baptiste received approximately $110,420 in Louisiana
     Road Home program funds to which she was not entitled.

                                                        

        Raymond Cuccia pled guilty in U.S. District Court, New
     Orleans, LA, to charges of theft of government funds. Cuccia
     applied for and received $64,320 in CDBG Disaster Recovery
     Assistance funds through the Road Home program for
     hurricane-damaged residential property, but the damaged
     property was not his primary residence during Hurricane
     Katrina.

                                   

         Angelica Williams and her sister Carrie Williams each pled
     guilty in U.S. District Court, Baton Rouge, LA. Angelica                    Copyright, 2009. The Times-Picayune -
     Williams pled guilty to charges of false statements; Carrie                     New Orleans, LA. Reprinted with
     Williams pled guilty to charges of false statements and aiding                                       permission.
     and abetting. Angelica Williams was not the legal, registered
     owner of the home in which she resided at the time of
     Hurricane Katrina. Using a computer, Angelica Williams
     created a false and fraudulent bill of sale showing that she had
     purchased the property. Carrie Williams forged the signature
     of the seller on the fraudulent bill of sale. Angelica Williams,
     using the bogus bill of sale, applied for and received $28,967 in
     CDBG Disaster Recovery Assistance funds through the Road
     Home program for hurricane-damaged residential property.

                                                                                 Copyright, 2009. The Times-Picayune -
                                                                                     New Orleans, LA. Reprinted with
                                                                                                          permission.




82                                                                            Chapter 5 - Disaster Relief Oversight
                                                                                Chapter 5: Hurricane Relief Oversight
  Maryland
      Months before Hurricane Katrina hit Louisiana, Schewanda Baptiste rented out her home in New
  Orleans and moved to Maryland. After Katrina, Baptiste applied for and received FEMA disaster
  assistance, claiming that she had evacuated Louisiana as a result of the storm. When Baptiste's
  tenant, who did evacuate as a result of Katrina, applied for FEMA disaster assistance, the tenant was
  denied assistance because someone had already filed a claim from the address. In addition to
  receiving FEMA disaster assistance, Baptiste applied for and received $30,000 in CDBG Disaster
  Recovery Assistance funds through the Road Home program. In the first Hurricane Katrina fraud case
  prosecuted in the District of Maryland, Schewanda Baptiste pled guilty in U.S. District Court, Greenbelt,
  MD, to charges of theft of government property.

                                                   

  HUD and FEMA Disaster Housing Assistance Fraud

  Nevada
      Zelda Richardson pled guilty in Clark County District Court, Las Vegas, NV, to reduced charges of
  attempted theft. Richardson, who resided in Nevada during Hurricane Katrina, claimed that she had
  resided in New Orleans and evacuated as a result of the hurricane. Richardson applied for and
  received about $17,241 in HUD DHAP payments.

  California
      Kim Pounds, a former HUD and FEMA DHAP participant, was convicted in U.S. District Court, Los
  Angeles, CA, on charges of mail fraud and aiding and abetting. From September 2005 to May 2008,
  Pounds applied for and received $14,194 in HUD and $34,507 in FEMA disaster assistance after she
  claimed Hurricane Katrina evacuee status, but Pounds resided in California during the storm.

  Arizona
      Sheila Johnson, a HUD DHAP participant, was sentenced in U.S. District Court, Phoenix, AZ, to 36
  months probation and ordered to pay the Arizona Department of Housing $1,520 and FEMA $2,000 in
  restitution for her earlier guilty plea to making false statements to defraud HUD. Johnson applied for
  and received HUD DHAP and FEMA disaster assistance after she claimed Hurricane Katrina evacuee
  status, but Johnson resided in Arizona during the storm.

  Mississippi
      Pamela Burdine, a HUD DHAP participant and Mississippi Regional Housing Authority VIII
  (Mississippi Regional) Section 8 tenant, pled guilty in U.S. District Court, Gulfport, MS, to committing
  theft of government funds. From September 2006 to February 2007, Burdine sublet her subsidized
  housing unit and obtained $4,506 in Mississippi Regional and $2,345 in FEMA housing assistance she
  was not entitled to receive.

  Texas
     Shandrika Smith and Rodney Cordova were each charged in Harris County District Court,
  Houston, TX, with committing theft. According to the charges, in 2007, Shandrika Smith applied for
  DHAP through the Montgomery County Housing Authority. Smith was provided a DHAP voucher that
  she used to rent a property she claimed was owned by Rodney Cordova, doing business as RCC



  Chapter 5 - Disaster Relief Oversight                                                                       83
Chapter 5: Hurricane Relief Oversight
     Properties LLC. Smith and Cordova allegedly failed to disclose that they were married and further
     that Smith and Cordova jointly owned the property. As a result of the concealment of her marriage to
     Cordova and her ownership of the rented property, Smith received $8,309 in rental assistance benefits
     to which she was not entitled.

                                                     

         Eric Gibbs, a HUD DHAP participant, was sentenced in U.S. District Court, Houston, TX, to 6 months
     incarceration and 3 years supervised release and ordered to pay FEMA $15,068 in restitution for his
     earlier guilty plea to making false claims. Gibbs applied for and received HUD and FEMA DHAP and
     FEMA disaster assistance after he claimed residential property damage from Hurricane Katrina, but
     Gibbs did not own any property in Louisiana and resided in Texas during the storm.

                                                     

        Phyllis Taylor, a Houston, TX, resident and a former New Orleans Housing Authority public
     housing tenant, pled guilty in U.S. District Court, Houston, TX, to charges of mail fraud and aggravated
     identity theft. Taylor filed numerous false claims for disaster assistance, using variations of her name
     and claiming damage to various New Orleans and Texas addresses, some of which did not exist.
     Taylor was the first Houston-area person charged in connection with Hurricane Ike.

     FEMA and Other Fraud by HUD Tenants
     Mississippi
         Numerous Section 8 tenants of the Royal Oaks Apartments, a HUD-subsidized multifamily housing
     development in Hattiesburg, MS, filed for HUD housing assistance and FEMA disaster assistance,
     claiming Hurricane Katrina evacuee status and property damage, although Royal Oaks suffered no
     storm damage and no tenants were evacuated. In U.S. District Court, Jackson, MS, Royal Oaks housing
     recipients Merica Carter, Diedra Hardy, and Cheryl Lewis were collectively ordered to pay FEMA $6,850
     and were each sentenced to 3 years probation and ordered to perform 40 hours of community service
     for their earlier guilty pleas to committing theft of government funds. Three additional Royal Oaks
     residents were indicted on charges of false statements, theft of government funds, wire fraud, and mail
     fraud. Those cases are now pending in U.S. District Court, Jackson, MS.

     California
        Numerous San Francisco Housing Authority Section 8 tenants and public housing residents have
     been investigated for claiming Hurricane Katrina evacuee status, although they resided in San
     Francisco at the time of the storm. Moreshia Williams was charged in U.S. District Court, San
     Francisco, CA, with committing theft of government funds; Carmen Mack pled guilty to mail fraud
     charges; and Michelle Chapman and Janale King were collectively sentenced to 5 years probation and
     ordered to pay FEMA $9,955 in restitution for their earlier guilty pleas to committing theft of
     government funds.

                                                     

        Brenda Frazier, a Housing Choice Voucher program participant at both the City and County of
     Fresno Housing Authorities, was sentenced in U.S. District Court, Fresno, CA, to 60 months probation
     and ordered to pay FEMA $9,790 in restitution for her earlier guilty plea to filing a false claim and
     making false statements. Frazier applied for and received FEMA disaster assistance after she claimed
     Hurricane Katrina evacuee status, but Frazier resided in California during the storm.



84                                                                        Chapter 5 - Disaster Relief Oversight
                                                                             Chapter 5: Hurricane Relief Oversight
  Louisiana
     Debra Jackson, an East Baton Rouge Housing Authority (East Baton Rouge) public housing tenant,
  was sentenced in U.S. District Court, Baton Rouge, LA, to 3 years supervised probation and ordered to
  pay FEMA $2,000 in restitution for her earlier guilty plea to committing wire fraud. Jackson applied for
  and obtained FEMA disaster assistance after she claimed Hurricane Katrina evacuee status, but East
  Baton Rouge suffered no hurricane damage, nor were tenants evacuated.

  Other Fraud
  New York
      Robert Chiarappa was indicted on multiple grand larceny charges related to his work for John Galt
  Corp. on the former Deutsche Bank tower, located across from the former World Trade Center site.
  Manhattan, NY, prosecutors said the construction official overbilled LMDC, an organization that
  receives HUD CDBG Disaster Recovery Assistance funds, more than $1 million for work on the
  condemned skyscraper. Investigators described Chiarappa's massive alleged scheme as an invoice-
  padding racket. The district attorney stated that Chiarappa signed off on fake invoices for $1.2
  million in materials that were never delivered and took kickbacks including clothes, cars, trips, and
  cash. AW Meyer, a company that provides demolition and abatement supplies for others under
  contract with LMDC, and James Kelly, a supply manager for AW Meyer, each pled guilty to falsifying
  business records related to their roles in the Chiarappa scheme.

  Louisiana
      Shawnzell Venson and Willie Smith, both residents of New Orleans, were
  charged in a one-count indictment by a Federal grand jury for conspiracy to
  steal government funds. The case is now pending in U.S. District Court, New
  Orleans, LA. The indictment charges Venson and Smith with conspiracy to
  steal federal funds intended for grants to homeowners through the Louisiana
  Road Home program. According to the indictment, Venson and Smith
  conspired to have elderly individuals' Road Home grants deposited into their
  personal bank accounts. It is alleged that Venson and Smith changed the bank
  routing instructions in the recipients' closing documentation so that the grants
  would be directly transferred to Venson and Smith's bank accounts. According
  to the indictment, Venson and Smith would then call the bank and pose as
  relatives of the grantees. Over the course of the conspiracy, it is alleged that
  Venson and Smith attempted to steal more than $600,000 in government funds
  intended for five different elderly Road Home recipients.

                                          

      Roy Johnson, of Baton Rouge, LA, was convicted of three counts of mail
  fraud in connection with a fraudulent application for expedited disaster
  assistance benefits. Johnson applied for disaster assistance from FEMA, falsely
  claiming to be a HANO resident during Hurricane Katrina and claiming that he
  had evacuated to Denham Springs, LA. However, at the time of the storm and
  for all of 2005, Johnson was in State custody in the Baton Rouge area. Before
  being incarcerated, Johnson lived in Baton Rouge. Through his false and


                                                                                     Copyright, 2008. The Times-
                                                                                     Picayune - New Orleans, LA.
                                                                                      Reprinted with permission.


  Chapter 5 - Disaster Relief Oversight                                                                            85
Chapter 5: Hurricane Relief Oversight
     fraudulent representations to FEMA, Johnson caused FEMA to mail him three checks for disaster
     assistance totaling more than $14,000. Johnson was sentenced to 33 months imprisonment and 3
     years supervised release.

     Texas
        Stanley Burrell pled guilty in U.S. District Court, Beaumont, TX, to making false claims. Burrell
     applied for and received $12,750 in FEMA disaster assistance after he claimed to be a HANO Hurricane
     Katrina evacuee, but Burrell never resided in HUD-subsidized housing.

                                                      

         Shannon Isadore was indicted in Harris County District Court, Houston, TX, on charges of theft of
     government funds. Isadore applied for and received $5,202 in HUD DHAP and FEMA disaster
     assistance after he claimed to be a Hurricane Katrina evacuee, but Isadore allegedly resided in Texas
     during the storm.

     Arizona
         Kenneth Hart was sentenced in U.S. District Court, Tucson, AZ, to 60 months probation and
     ordered to collectively pay FEMA, the Red Cross, and the Tucson Community Services $5,365 in
     restitution for his earlier guilty plea to making false statements. Hart applied for and received disaster
     assistance after he claimed Hurricane Katrina evacuee status, but Hart resided in Arizona during the
     storm.

     Deterrence and Returned Funds
        -    Proactive investigations conducted by HUD OIG determined that numerous individuals
             approved for MDA grants were ineligible. As a result of these OIG investigations, MDA did
             not pay grants totaling more than $1 million.

        -    Proactive investigations conducted by HUD OIG determined that numerous individuals
             approved for Louisiana Road Home grants were ineligible. As a result of these OIG
             investigations, Road Home grants totaling more than $1 million were not paid.

        -    HUD OIG reported funds put to better use totaling more than $37.7 million during the reporting
             period.

        -    Six Section 8 tenants were removed from the Section 8 low-income Housing Choice Voucher
             program after being charged with disaster-related fraud in Jackson, MS.

        -    A Section 8 tenant was removed from the Section 8 Housing Choice Voucher program after
             being charged with disaster-related fraud in Texas; the tenant's husband was removed from
             DHAP and the Housing Choice Voucher program after also being charged with disaster-related
             fraud.

        -    During the reporting period, HUD OIG reported 47 administrative actions, including
             suspensions and debarments.




86                                                                          Chapter 5 - Disaster Relief Oversight
                                                                              Chapter 5: Hurricane Relief Oversight
  Continued Coordination
      -   HUD OIG has been and continues to be a dedicated partner in the NCDF Task Force. It has
          provided personnel support to the Task Force and is making sound use of the Task Force's
          Joint Command Center for the receipt and referral of complaints, review and analysis of
          potentially fraudulent applications for disaster-related benefits, and timely information
          sharing with other relevant law enforcement agencies. During this reporting period, the NCDF
          Task Force received 5,243 complaints and referred 3,317 complaints for investigation,
          including 296 referred to HUD OIG.

      -   HUD OIG continues to work closely with law enforcement agencies, including the FBI, SBA, DHS
          OIG, State Inspector General's Offices in Louisiana and Mississippi, and the City of New
          Orleans, among others, on complaints, intelligence, and joint investigations of disaster-related
          fraud. OIG also continues to contract with partners KPMG, the Reznick Group, and ICF
          International.

      -   HUD OIG continues to perform outreach actions with law enforcement partners, State and
          local agencies, HUD personnel, HUD multifamily property owners and managers, HUD public
          housing agencies and authorities, and community partners.

  Training and Proactive Detection
      -   Special Agent in Charge (SAC) Thomas Luke provided an overview of the HUD
          Neighborhood Stabilization program, the State of Louisiana Action Plan, and action plans for
          both Baton Rouge and New Orleans and described funding availability and contractual
          requirements during a meeting with the Louisiana Inspector General in Baton Rouge, LA. The
          Louisiana Inspector General and six staff members attended.

      -   SAC Thomas Luke provided an overview of the HUD Neighborhood Stabilization program and
          the New Orleans Action Plan and described funding availability and contractual requirements
          during a meeting held with the interim New Orleans Inspector General in New Orleans, LA.
          The interim New Orleans Inspector General and five staff members attended.

      -   Assistant Special Agent in Charge Fernando Ramos and Assistant Regional Inspector General
          for Audit Tracey Carney provided an overview of HUD OIG's mission and described funding
          and oversight for HUD disaster and homeless programs at a HUD-sponsored Homeless and
          Supportive Funding seminar in New Orleans, LA. Approximately 50 individuals representing
          HUD and various organizations from the State of Louisiana, Calcasieu and Terrebonne
          Parishes, and other nonprofit organizations attended.

                                                   




  Chapter 5 - Disaster Relief Oversight                                                                      87
Chapter 5: Hurricane Relief Oversight
Chapter 5: Hurricane Relief Oversight
Chapter 5: Hurricane Relief Oversight
        In addition to the audits and investigations described in this chapter, the U.S. Department of
     Housing and Urban Development (HUD) Office of Inspector General (OIG), has conducted numerous
     outreach efforts (see chapter 7, pages 108-109).



     Audit
                    Strategic Initiative 4: Contribute to improving HUD’s execution and
                 accountability of fiscal responsibilities as a relevant and problem-solving
                                          advisor to the Department

        Key program results           Questioned costs                     Funds put to better use
       Audit       5 audits                $92,000                              $1.523 billion
                   Page 90        - Audit of HUD's financial statements
                   Page 91        - Federal Housing Administration financial statements
        Our
                   Page 91        - Audit of the Government National Mortgage Association's financial
       focus
                                    statements
                   Page 92        - Review of HUD's centralized HUD account management process




     Audit of HUD's Financial Statements
        HUD OIG provided additional details to supplement the report on HUD's fiscal years (FY) 2008 and
     2007 financial statements, which is included in HUD's Fiscal Year 2008 Performance and
     Accountability Report.

        In our opinion, HUD's FY 2008 and 2007 financial statements were fairly presented. The report
     details the following significant deficiencies in internal controls related to the need to

        -   Continue improvements in the oversight and monitoring of subsidy calculations and
            intermediaries' program performance and promote full utilization of Housing Choice Voucher
            program funds,
        -   Improve the processes for reviewing obligation balances,
        -   Comply with Federal financial management systems requirements,
        -   Further strengthen controls over HUD's computing environment,
        -   Improve personnel security practices for access to the Department's critical financial systems,
        -   Continue to enhance and modernize the Federal Housing Administration's (FHA) financial
            information systems, and
        -   Strengthen the Governmant National Mortgage Association's (Ginnie Mae) monitoring and
            management controls in regard to the Mortgage-Backed Securities program.




90                                           Chapter 6 - Other Significant Audits and Investigations/OIG Hotline
                                                 Chapter 6: Other Significant Audits and Investigations/OIG Hotline
     The report also includes the following instances of noncompliance with applicable laws and
  regulations:

      -   HUD did not substantially comply with the Federal Financial Management Improvement Act
          regarding system requirements,
      -   HUD did not substantially comply with the Antideficiency Act,
      -   FHA did not comply with the Credit Reform Act of 1990, and
      -   Ginnie Mae did not comply with the Federal Information Management Security Act.

     The audit further identified $122.9 million in excess obligations recorded in HUD's records, and
  OIG recommended that HUD seek legislative authority to implement $1.4 billion in offsets against
  housing agencies' excess unusable funding held in net restricted assets accounts at the housing
  agencies. These amounts represent funds that HUD could put to better use.

     OIG assessed the actions taken by HUD to mitigate the deficiencies noted and recommended
  corrective actions. (Audit Report: 2009-FO-0003)

  FHA Financial Statements
     Urbach, Kahn, and Werlin LLP (UKW) audited FHA's financial statements for the fiscal years ending
  September 30, 2008 and 2007.

      The financial statements presented fairly, in all material respects, FHA's financial position as of
  September 30, 2008 and 2007, and its net costs, changes in net position, and combined budgetary
  resources for those years in conformity with accounting principles generally accepted in the United
  States of America. The report also details a significant deficiency in internal controls concerning the
  need for FHA to continue its efforts to enhance and modernize its financial information systems. Two
  reportable instances of noncompliance with laws, regulations, and government-wide policies were
  also identified.

      UKW assessed management's responses to the report and recommended corrective actions.
  (Audit Report: 2009-FO-0002)

  Audit of the Government National Mortgage Association's Financial
  Statements
      Carmichael, Brasher, Tuvell, and Company (CBTC) audited Ginnie Mae's financial statements for
  the fiscal years ending September 30, 2008 and 2007.

      The financial statements presented fairly, in all material respects, Ginnie Mae's financial position
  as of September 30, 2008, and September 30, 2007, and the results of its operations and its cash flows
  for those years in conformity with accounting principles generally accepted in the United States of
  America. One significant deficiency was identified regarding internal control and the need for Ginnie
  Mae to strengthen monitoring and management controls in the Mortgage-Backed Securities program.
  In addition, the audit identified one reportable instance of noncompliance with laws, regulations, and
  government-wide policies concerning noncompliance with the Federal Information Management
  Security Act.

     CBTC assessed management's responses to the report and recommended corrective actions.
  (Audit Report: 2009-FO-0001)



  Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                        91
Chapter 6: Other Significant Audits and Investigations/OIG Hotline
     Review of HUD's Centralized HUD Account Management Process
        HUD OIG audited the Centralized HUD Account Management Process (CHAMP) to determine whether
     HUD efficiently and effectively managed its information system user access accounts in accordance
     with Federal security requirements. OIG assessed the accuracy and completeness of data in CHAMP
     and verified the adequacy of HUD's user account management, including establishing, activating,
     modifying, disabling, and removing of the user accounts.

        OIG has determined that the contents of this report would not be appropriate for public disclosure
     and has, therefore, limited its distribution to selected HUD officials. (Audit Report: 2009-DP-0003)

                                                    




92                                           Chapter 6 - Other Significant Audits and Investigations/OIG Hotline
Investigations
                Strategic Initiative 4: Contribute to improving HUD’s execution and
             accountability of fiscal responsibilities as a relevant and problem-solving
                                      advisor to the Department
  Key program            Cases                   $                Convictions/pleas/   Admin/civil
    results              closed              recovered                pretrials          actions
  Investigations            44              $21,727,986                   2                5




   The investigation discussed below was conducted jointly with other Federal law enforcement
agencies.

   Sheena Wade was indicted in U.S. District Court, Nashville, TN, for allegedly committing wire fraud
and aggravated identity theft and producing counterfeit U.S. and State securities. From September
2006 through March 2007, Wade allegedly obtained or created and negotiated several HUD counterfeit
checks.

                                                    




Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                                      93
     OIG Hotline
         The HUD OIG hotline is operational 5 days a week, Monday through Friday, from 10:00 a.m. to 4:30
     p.m. The hotline is staffed by 10 full-time OIG employees, who take allegations of waste, fraud, abuse,
     or serious mismanagement in HUD or HUD-funded programs from HUD employees, contractors, and
     the public. The hotline also coordinates reviews with internal audit and investigative units or with
     HUD program offices.

        During this reporting period, the hotline received and processed 8,265 complaints--84 percent
     received by telephone, 8 percent by mail, and 8 percent by e-mail. Every allegation received by the
     Hotline is logged into a database and tracked.

         Of the complaints received, 667 were related to the mission of OIG and were addressed as hotline
     cases. Hotline cases are referred to OIG's Offices of Audit and Investigation or to HUD program offices
     for action and response. The following illustration shows the distribution of Hotline case referrals by
     percentage.


                              Chart 6.1: Hotline cases opened by program area




                                                                                Single-family housing, 3%
                                                                                Public and Indian housing, 61%
                                                                                Multifamily housing, 11%
                                                                                Community planning and
                                                                                development, 3%
                                                                                OIG Audit and Investigation, 18%
                                                                                Other, 4%




         The hotline closed 505 cases this reporting period. The closed Hotline cases included 114
     substantiated allegations. The substantiated allegations resulted in 33 administrative sanctions,
     including action taken against four supportive service activities that were found to be ineligible to
     receive community planning and development grant funds. The Department also took 102 corrective
     actions that resulted in $374,025 in recoveries of losses and more than $2.4 million in HUD funding that
     could be put to better use. The recoveries included repayments of overpaid rental subsidies. Some of
     the funds that could be put to better use were the result of cases in which tenants were terminated
     from public housing or multifamily housing programs for improperly reporting their incomes or
     family composition to qualify for rental assistance.




94                                            Chapter 6 - Other Significant Audits and Investigations/OIG Hotline
                                                  Chapter 6: Other Significant Audits and Investigations/OIG Hotline
                           Chart 6.2: Hotline dollar impact from program offices




         $2,500,000                 $2,024,412



         $2,000,000



         $1,500,000



         $1,000,000

                                                                           $276,316
           $500,000                              $125,055
                                                                                          $24,685


                 $0
                                 Public and Indian                          Multifamily
                                     housing                                 housing

                                       Funds put to better use          Recoveries




                                                        




  Chapter 6 - Other Significant Audits and Investigations/OIG Hotline                               95
Chapter 6: Other Significant Audits and Investigations/OIG Hotline
Chapter 6: Other Significant Audits and Investigations/OIG Hotline
         To foster cooperative, informative, and mutually beneficial relationships with agencies and
     organizations assisting the U.S. Department of Housing and Urban Development (HUD) in
     accomplishing its mission, the Office of Inspector General (OIG) participates in special outreach
     efforts. The outreach efforts described below complement routine coordination with Federal, State,
     and local law enforcement agencies; various congressional committees or subcommittees; and other
     OIGs. During outreach efforts, OIG personnel present information about HUD OIG's role and function,
     provide audit and investigative results, and discuss desired goals and objectives.

     Single-Family Housing Programs
        Special Agent in Charge (SAC) Peter Emerzian and Assistant Special Agent in Charge (ASAC) Diane
     DeChellis provided an overview of HUD OIG's mission and priorities, described HUD's role in
     mortgage fraud investigations, and discussed the Housing and Economic Recovery Act and the
     Economic Stimulus Act of 2008 at a Commonwealth of Massachusetts Division of Banks meeting in
     Boston, MA. Approximately 25 senior bank executives attended.

                                                   

         SAC Barry McLaughlin, Assistant U.S. Trustee Sandra Rasnak, and Federal Bureau of Investigation
     (FBI) Supervisory Special Agent (SSA) Steven Secor provided an overview of HUD OIG's mission and
     role and described common fraud findings in HUD's single-family housing and Home Equity
     Conversion Mortgage programs for two Illinois Mortgage Bankers Association (MBA) conference
     sessions in Lombard, IL. Approximately 65 MBA members attended.

                                                   

        SAC Peter Emerzian, ASAC Diane DeChellis, and Special Agent (SA) Ed Redmond provided an
     overview of HUD OIG's mission and priorities, described HUD OIG's role in mortgage fraud
     investigations, and discussed the Housing and Economic Recovery Act and the Economic Stimulus
     Act of 2008 at a New Hampshire State Banking Commission conference in Concord, NH.
     Approximately 25 banking executives and Federal law enforcement personnel attended.

                                                   

         SAC Barry McLaughlin and the Chicago HUD Supervisory Operations Officer Judy Heaney
     provided an overview of HUD's increased role in the Federal Housing Administration (FHA) insurance,
     HOPE for Homeowners, Neighborhood Stabilization, and Home Equity Conversion Mortgage programs
     for Illinois Mortgage Fraud Working Group members meeting in Chicago, IL. More than 20 Federal,
     State, and local regulatory agency representatives attended.

                                                   

         SAC Peter Emerzian and ASACs Diane DeChellis and Michael Wixted provided an overview of the
     Housing and Economic Recovery Act and the impact it will have on HUD programs at a meeting with
     New England Mortgage Fraud Group members in Boston, MA. Approximately 60 assistant U.S.
     attorneys (AUSA) and Federal, State, and local law enforcement officials and regulators attended.

                                                   




98                                                                            Chapter 7 - Outreach Efforts
                                                                                  Chapter 7: Outreach Efforts
     SAC Michael Powell, ASAC Cortez Richardson, and SA Jerome Winkle provided an overview of HUD
  OIG's mission and role and described FHA program responsibilities at a mortgage fraud meeting
  sponsored by the FBI in Augusta, GA. More than 40 representatives from financial institutions, the
  Georgia Department of Banking and Finance, the U.S. Attorney's and District Attorney's Offices, and
  other Federal law enforcement agencies attended.

                                                 

      SAC Barry McLaughlin described mortgage fraud trends and schemes and provided information
  on the national loan officer and mortgage lender database at an Illinois Mortgage Fraud Working Group
  meeting in Chicago, IL. Approximately 25 representatives from the financial and real estate
  industries, along with Federal and State regulatory and law enforcement personnel, attended.

                                                 

      SAC Peter Emerzian, Regional Inspector General for Audit (RIGA) John Dvorak, ASAC Diane DeChellis,
  Assistant Regional Inspector General for Audit (ARIGA) Michael Motulski, and SA Alex Rosania
  provided an overview of fraud found in the HUD HOPE for Homeowners, Home Equity Conversion
  Mortgage, and FHA-insured mortgage programs and described mortgage fraud involving Rhode Island
  banking institutions at a Rhode Island Division of Banking and Securities meeting in Cranston, RI. At
  the conclusion, a question and answer forum was held for 15 employees in attendance.

                                                 

     SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Steven Tufts provided an
  overview of fraud found in the HUD HOPE for Homeowners, Home Equity Conversion Mortgage, and
  FHA-insured mortgage programs and described fraud involving mortgage companies in the State of
  Maine at meetings in Gardiner, ME, for staff members from both the Maine Bureaus of Consumer
  Credit Protection and Financial Institutions. At the conclusion of each presentation, a question and
  answer forum was held for approximately 20 employees in attendance.

                                                 

      SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Brian Gosselin provided
  an overview of fraud found in the HUD HOPE for Homeowners, Home Equity Conversion Mortgage,
  and FHA-insured mortgage programs and described fraud involving mortgage companies in the State
  of Vermont at a meeting in Montpelier, VT, with Thomas Canton, the Deputy Commissioner for the
  Vermont Commission on Banking, Insurance, Securities, and Health Care Administration.

                                                 

     SAC Peter Emerzian, RIGA John Dvorak, ASAC Diane DeChellis, ARIGA Michael Motulski, and SA
  Alex Rosania provided an overview of fraud found in the HUD HOPE for Homeowners, Home
  Equity Conversion Mortgage, and FHA-insured mortgage programs; described mortgage fraud
  involving Rhode Island banking institutions; and discussed HUD-funded programs found in the
  American Recovery and Reinvestment and the Housing and Economic Recovery Acts at a meeting
  held in Providence, RI, with employees of the Rhode Island Office of the Auditor General. At the
  conclusion, a question and answer forum was held for 15 staff members in attendance.

                                                 




  Chapter 7 - Outreach Efforts                                                                             99
Chapter 7: Outreach Efforts
          ASAC Brad Geary provided a presentation, entitled "The Latest Trends in Mortgage and Real
      Estate Fraud," and described common mortgage fraud schemes, criminal statutes, and HUD's increased
      role as a result of the current economic crisis at a meeting in Chicago, IL, sponsored by the law firm of
      Holland & Knight, LLP. Approximately 75 mortgage industry representatives and attorneys attended.

                                                       

          ASACs Jeanne Daumen and Cary Rubenstein and SA Jennifer Schofield-Lake provided an overview
      of the legal aspects involving mortgage fraud at a Certified Fraud Examiners conference at the
      Columbia Bank in Fairlawn, NJ. Approximately seven certified fraud examiners, auditors, and Freddie
      Mac employees attended.

                                                       

          ASAC Wallace Merriman provided an overview of HUD OIG's mission and described predatory
      lending, property flipping, equity skimming, appraisal fraud, and the potential for Home Equity
      Conversion Mortgage program fraud at a HUD-sponsored Loss Mitigation training conference in
      Washington, DC. Approximately 50 nonprofit and State and local government representatives
      attended.

                                                       

         ASAC Michael Gibson provided an overview of HUD OIG mortgage fraud investigations and
      described HUD OIG's response to and plan for mortgage rescue and loss modifications scams at a
      Southern California congressional briefing in Los Angeles, CA. Approximately 30 congressional
      representatives and HUD officials attended.

                                                       

          ASAC Suzanne Steigerwald provided an overview of HUD OIG's mission and authority and described
      fraud detection and enforcement methods used to successfully prosecute investigations at a real
      estate fraud training seminar hosted by the HUD Homeownership Center in Denver, CO. More than 50
      real estate professionals attended.

                                                       

          ASAC Edwin Bonano, ARIGA Michael Rivera, and SAs Hector Mercado and Jose Laureano provided
      an overview of HUD OIG's mission and role and described the organization structure and Offices of
      Audit and Investigation functions at a meeting with MBA members in San Juan, PR. Approximately 20
      financial institution representatives attended.

                                                       

          ASAC Brad Geary provided a presentation, entitled "Introduction to Mortgage Fraud," and described
      the current trends in mortgage fraud schemes, HUD OIG's role in mortgage fraud investigations, and
      the prosecutorial process at an International Association of Financial Crimes Investigators meeting in
      Chicago, IL. Approximately 60 loss prevention specialists from various financial institutions and law
      enforcement agencies attended.

                                                       




100                                                                                 Chapter 7 - Outreach Efforts
                                                                                       Chapter 7: Outreach Efforts
     SA Michael Wagenhauser and AUSA Robert Krask presented an educational seminar, entitled
  "Common HUD/FHA Fraud and Fraud Schemes," at the Virginia Association of Mortgage Brokers
  annual convention in Virginia Beach, VA. SA Wagenhauser provided an overview of HUD OIG's
  mission and authority and described common mortgage fraud schemes, and AUSA Krask provided an
  overview of the U.S. Department of Justice mortgage fraud prosecutions. Approximately 500
  mortgage industry representatives attended.

                                                 

      SA Scott Tanchak, AUSA Ellen Cohen, and FBI SSA William Stern provided a presentation, entitled
  "Effectiveness of the Mortgage Fraud Task Force Approach," and described the West Palm Beach
  Mortgage Fraud Task Force operations at a mortgage fraud conference sponsored by the MBA in Las
  Vegas, NV. At the conclusion, a question and answer forum was held for approximately 100
  individuals in attendance.

                                                 

      SA Heather Yannello provided a presentation, entitled "Holding on to Your Home," and described
  refinancing, reverse mortgages, foreclosure initiatives, and bankruptcies at a workshop sponsored by
  the Erie County Fair Housing Partnership and Predatory Lending Task Force in Amherst, NY.
  Approximately 100 area lenders, legal aid and housing counselors, HUD representatives, and
  individuals confronting foreclosures attended.

                                                 

     SA Robert Jones provided an overview of current FHA-insured and Home Equity Conversion
  Mortgage program fraud trends and described fraud prevention methods and reporting procedures at
  the National Association of Hispanic Real Estate Professionals conference in Dallas, TX.
  Approximately 50 representatives from the mortgage and realty professions attended.

                                                 

      SA Heather Yannello provided an overview of HUD OIG's role in mortgage fraud at a Mortgage
  Fraud Investigations training course sponsored by the New York State Division of Criminal Justice and
  Department of Banking in Batavia, NY. Approximately 30 State and local government investigators
  attended.

                                                 

      SA Eric Huhtala provided an overview of HUD OIG's mission for members of the Sacramento
  Association of Realtors attending a real estate and finance forum in Sacramento, CA. More than 70
  real estate and mortgage industry personnel attended.

                                                 

      SA Nelson Sanchez provided an overview of the FHA mortgage insurance, Home Equity
  Conversion Mortgage, and HUD Section 8 programs and described financial exploitation of the elderly
  at a training seminar, entitled "Investigating Elder Abuse," hosted by the Adams County District
  Attorney's Office in Brighton, CO. More than 50 social workers, law enforcement personnel,
  prosecutors, and others providing elderly services attended.

                                                 



  Chapter 7 - Outreach Efforts                                                                            101
Chapter 7: Outreach Efforts
          SA DeChantel Bahr provided an overview of HUD OIG's mission, described the challenges involved
      in Home Equity Conversion Mortgage program and foreclosure recovery fraud investigations, and
      discussed recent legislation involving the FHASecure, HOPE NOW, and HOPE for Homeowners
      programs at a Security Association of Financial Institutions training seminar in Springfield, VA.
      Approximately 65 financial institution officials and security officers attended.

                                                        

         SA Joshua Stockman provided an overview of HUD OIG's history and mission and described the
      investigative process and specific investigations involving HUD mortgage, rental assistance, and grant
      programs at a Society of Exchange Counselors meeting in Carefree, AZ. Approximately 45 real estate
      brokers and investors attended.

                                                        

          SA Alisha Mahabir participated as a panelist and provided an overview of HUD OIG mortgage fraud
      trends at the 2008 Houston Bar Association's Real Estate Institute in Houston, TX. Approximately 60
      real estate attorneys attended.

                                                        

         SA James Carrieres provided an overview of HUD OIG's mission and described successful Arizona
      mortgage fraud investigations for students attending criminal justice courses at the Arizona State
      University campus in Phoenix, AZ. About 100 students attended.

                                                        

          SA Nicholas Fasciglione provided an overview of HUD OIG's mission and priorities at a Central
      Oklahoma Clearing House Association meeting in Oklahoma City, OK. Approximately 20 financial
      institution representatives; local government officials; and Federal, State, and local law enforcement
      personnel attended.

      Public Housing and Rental Assistance Programs
          SAC Phyllis Robinson and SAs Amy Durso,
      Melissa McFadden, and Fran Novak helped to
      distribute food, linens, and toys to needy
      families attending the 10th annual "Christmas in
      the City" event sponsored by the Kansas City
      Housing Authority and other local agencies in
      Kansas City, KS. All families living in Kansas City
      Section 8 and public housing units were eligible
      to participate, and about 400 children received
      bicycles at this year's event.

                            


                                                               Santa's helper, also known as Special Agent Melissa
                                                                     McFadden, gives a bike to a young resident of
                                                                           HUD-assisted housing in Kansas City, KS




102                                                                                 Chapter 7 - Outreach Efforts
                                                                                        Chapter 7: Outreach Efforts
      SAC Peter Emerzian and ASAC Diane DeChellis provided an overview of HUD OIG's mission and
  priorities and described rental assistance fraud investigations for Section 8 coordinators meeting at
  the Maine State Housing Authority in Augusta, ME. Approximately 60 Section 8 coordinators and
  administrators attended.

                                                 

      SAC Rene Febles and SA Frank Aeillo provided an overview of landlord and tenant fraud and
  described corruption and bid rigging at a meeting in Camden, NJ, for officials from RPM Development,
  a HUD-funded multifamily housing developer and manager operating in both New York and New
  Jersey. Approximately seven divisional representatives attended.

                                                 

      SAC Timothy Mowery and SA Malinda Antonik provided an overview of HUD OIG's mission and
  described an array of investigations and methods to overcome fraud at a Hillsborough County
  Affordable Housing meeting in Tampa, FL. Approximately 35 Hillsborough County Affordable
  Housing staff members and representatives from the Hillsborough County Attorney's and
  Administrator's Offices attended.

                                                 

      SAC Hershel Harvell and ASAC Michael Wilson provided an overview of HUD OIG's mission and
  authority and described common tenant, landlord, and Community Development Block Grant (CDBG)
  fraud schemes at a training session for Arkansas/Texas Commission members in Texarkana, AR. HUD
  officials and approximately 20 Texas and Arkansas housing representatives attended.

                                                 

     SAC George Dobrovic described the Housing Choice Voucher program and the program's impact
  on neighborhoods, discussed violent crime and gang activity in public housing, and provided an
  overview of mortgage fraud and blight in depressed communities as a panelist at a Public Safety and
  Security conference hosted by the Youngstown Metropolitan Housing Authority in Youngstown, OH.
  Approximately 45 public housing tenants, housing authority representatives, city council members,
  and local law enforcement personnel attended.

                                                 

      SAC Herschell Harvell provided an overview of HUD OIG's priorities and initiatives, discussed
  public housing authority public corruption and the benefits of internal controls, and described
  stimulus funding for the HUD Neighborhood Stabilization, FHA, and public housing programs for North
  Texas Housing Agency Association members meeting in Lancaster, TX. At the conclusion, a question
  and answer forum was held for approximately 60 members in attendance.

                                                 

     SAC Joseph Clarke, ARIGA David Kasperowicz, and ARIGA Osiko Tekpetey participated in a
  meeting in Philadelphia, PA, with the Director of the Philadelphia Office of Public Housing and
  representatives from 37 public housing authorities scheduled to receive capital funds under the
  American Recovery and Reinvestment Act. The housing authorities participating in the meeting were
  from the Commonwealth of Pennsylvania and the State of Delaware. ARIGAs Kasperowicz and Tekpetey,




  Chapter 7 - Outreach Efforts                                                                            103
Chapter 7: Outreach Efforts
      along with SAC Clarke, provided an overview of the role and responsibilities of HUD OIG in providing
      critical oversight of the distribution and use of these funds.

                                                    

          RIGA John Buck and ARIGA Dave Kasperowicz were guest speakers at the Pennsylvania
      Association of Housing and Redevelopment Agencies (PAHRA) annual conference in Harrisburg, PA.
      PAHRA is an affiliation of Pennsylvania's housing authorities, redevelopment authorities, community
      development agencies, and nonprofit corporations. The purposes of PAHRA are to disseminate
      information relating to housing and community development; study and analyze national, State, and
      local legislation affecting housing and community development; provide a channel for the frequent
      exchange of ideas, experiences, and innovations within the field of housing and community
      development; and increase public understanding of the methods and objectives of housing and
      community development agencies. RIGA Buck and ARIGA Kasperowicz facilitated a session which
      described the Office of Audit mission and functions and highlighted recent audits with particular
      emphasis on Section 8 audits. Afterward, they participated in a question and answer session with
      approximately 70 housing representatives in attendance.

                                                    

          ASAC Gene Westerlind provided an overview of HUD OIG's mission and authority and described
      rental assistance fraud schemes at an Armour Boulevard Community Group meeting in Kansas City,
      MO. At the conclusion, ASAC Westerlind hosted a question and answer forum for approximately 15
      city officials, community leaders, multifamily property managers, and others in attendance.

                                                    

          ASAC Jeanne Daumen provided an overview of HUD OIG's mission, 2009 investigative priorities,
      and public and Indian housing investigations involving fraud and corruption at a New Jersey Chapter
      of the National Association of Housing and Redevelopment Officials (NAHRO) meeting in Newark, NJ.
      At the conclusion, a question and answer forum was held for approximately 45 housing officials in
      attendance.

                                                    

         ASAC Gene Westerlind and SA Karen Gleich provided an overview of HUD OIG's mission and
      authority and described rental assistance fraud schemes and "red flag" indicators at a Kansas NAHRO
      conference in Manhattan, KS. At the conclusion, a question and answer forum was held for
      approximately 130 housing officials in attendance.

                                                    

          ARIGA Helen Sparks made a presentation to the Northern California Fair Housing Coalition in San
      Francisco, CA. The presentation consisted of an overview of OIG, examples of issues that could be
      referred, and information on the OIG Hotline.

                                                    

         SSA Daniel Ellis provided an overview of housing assistance fraud and public housing crime and
      evictions strategies at a Pennsylvania-Delaware Affordable Housing Management Association




104                                                                             Chapter 7 - Outreach Efforts
                                                                                   Chapter 7: Outreach Efforts
  conference in Dover, DE. At the conclusion, SSA Ellis, ASAC Cary Rubenstein, and two local attorneys
  discussed the tenant eviction process for approximately 100 housing officials in attendance.

                                                

     SA Brian Caldwell provided an overview of HUD OIG's mission and role involving multifamily
  housing fraud and described Federal prosecutions at a Southeastern Affordable Housing Management
  Association conference in Hoover, AL. Approximately 250 multifamily property managers attended.

                                                

     SA Richard Salom provided an overview of HUD OIG's mission and described public housing fraud
  schemes and prevention techniques at a NAHRO conference in San Francisco, CA. Approximately 20
  housing officials attended.

                                                

     SA Greg Williams provided an overview of HUD OIG's mission and priorities and described
  methods to detect, prevent, and report fraud at a public safety meeting at the Great Brook Valley
  public housing development in Worcester, MA. Approximately 40 State and local law enforcement
  personnel, city officials, and community members attended.

                                                

      SA Jesse Barragan provided an overview of HUD OIG's mission and described housing counseling
  fraud schemes and prevention techniques at an annual Rural Community Assistance Corporation
  conference in Sacramento, CA. Approximately 30 housing officials attended.

                                                

      SA John Rodriguez provided an overview of rental assistance programs and tenant and landlord
  fraud indicators at a meeting with the Southern California Chapter of the Family Self-Sufficiency
  Network members in Norwalk, CA. Approximately 60 Southern California housing authority
  representatives attended.

  Community Planning and Development
     SACs Rene Febles and Timothy Mowery and RIGA Jim McKay provided an overview of the
  concerns and vulnerabilities in the Neighborhood Stabilization program and described the HUD OIG
  zero tolerance stance and planned program monitoring at a conference held for Neighborhood
  Stabilization grant administrators in Orlando, FL. Approximately 275 State and local government
  representatives attended.

                                                

     SAC Peter Emerzian, ASAC Michael Wixted, SA John Keaney, and the Connecticut HUD Office of
  Community Planning and Development (CPD) Director Gary Reisine provided an overview of the
  Neighborhood Stabilization program and described the program's vulnerabilities at a meeting with
  Connecticut Department of Economic and Community Development officials in Hartford, CT.
  Approximately 20 community development officials attended.

                                                



  Chapter 7 - Outreach Efforts                                                                           105
Chapter 7: Outreach Efforts
          SAC Barry McLaughlin and ARIGA Brent Bowen provided an overview of HUD CPD audits and
      fraud indicators associated with the Neighborhood Stabilization program at a HUD-sponsored
      conference in Chicago, IL. Approximately 60 HUD grantees attended.

                                                    

         SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, SA Steven Tufts, and HUD CPD
      representative Lynn Morrow provided an overview of the HUD Neighborhood Stabilization program
      and described the program's fraud vulnerabilities at a meeting in Augusta, ME, for employees of the
      Maine Department of Economic and Community Development. At the conclusion, a question and
      answer forum was held for approximately 20 staff members in attendance.

                                                    

          SAC Rene Febles, RIGA Edgar Moore, ARIGA Joseph Vizer, SA Damian Salvati, FBI SSA Sandra Brown,
      and AUSA Brian Howe provided an overview of HUD OIG audits, investigations, and corruption
      prosecutions during an outreach session for New Jersey CDBG officials in Newark, NJ. At the
      conclusion, a question and answer forum was held for approximately 30 representatives in
      attendance.

                                                    

         SAC Peter Emerzian, ASACs Diane DeChellis and Michael Wixted, and SAs Alexander Rosania and
      Jessica Piecuch provided an overview of HUD OIG's mission and priorities and described the
      Neighborhood Stabilization program outlined in the Housing and Economic Recovery Act of 2008 at a
      meeting with Massachusetts OIG personnel in Boston, MA. Approximately 25 investigators, auditors,
      and others attended.

                                                    

         SAC Michael Powell and ASAC Nadine Gurley provided an overview of HUD OIG's mission and role
      and described responsibilities involving the HUD Neighborhood Stabilization program and previous
      grantee prosecutions at a meeting with Alabama Community Planning and Development directors and
      HUD CPD staff in Birmingham, AL. Approximately 20 representatives attended.

                                                    

          SAC Peter Emerzian, ASAC Diane DeChellis, ARIGA Kevin Smullen, and SA Brian Gosselin provided
      an overview of the HUD Neighborhood Stabilization program and described the program's fraud
      vulnerabilities at a meeting in Montpelier, VT, with Vermont Agency of Commerce and Community
      Development employees. At the conclusion, a question and answer forum was held for approximately
      24 staff members in attendance.

                                                    

         SAC Peter Emerzian, RIGA John Dvorak, ASAC Diane DeChellis, ARIGA Kevin Smullen, SA Edward
      Redmond, and HUD CPD representative Roslyn Block provided an overview of the HUD Neighborhood
      Stabilization program and described the program's fraud vulnerabilities at a meeting in Concord, NH,
      with New Hampshire Community Development Finance Agency employees. At the conclusion, a
      question and answer forum was held for 20 staff members in attendance.

                                                    



106                                                                             Chapter 7 - Outreach Efforts
                                                                                   Chapter 7: Outreach Efforts
     SAC Peter Emerzian, RIGA John Dvorak, ASAC Michael Wixted, SA Thomas Neighbors, and HUD
  CPD representative Paul Connolly provided an overview of the HUD Neighborhood Stabilization
  program grant awarded to the City of Brockton and described the program's fraud vulnerabilities at a
  meeting in Brockton, MA, with employees of Building a Better Brockton, Inc. At the conclusion, a
  question and answer forum was held for 20 staff member in attendance.

                                                

      SAC Peter Emerzian, RIGA John Dvorak, ASAC Diane DeChellis, SA Alex Rosania, and HUD CPD
  representative Robert Shumeyko provided an overview of the HUD Neighborhood Stabilization
  program and described the program's fraud vulnerabilities at a meeting in Providence, RI, with Rhode
  Island Office of Housing and Community Development and Office of Housing staff. At the conclusion,
  a question and answer forum was held for approximately 20 employees in attendance.

                                                

     SAC Peter Emerzian, RIGA John Dvorak, ASAC Michael Wixted, ARIGA Michael Motulski, SA Samuel
  Ortiz-Diaz, and HUD CPD representative Paula Newcombe provided an overview of the HUD
  Neighborhood Stabilization program and described the program's fraud vulnerabilities at a meeting in
  Springfield, MA, with Springfield's Office of Community Development, Office of Housing and
  Neighborhood Services, and Office of Economic Development staff and National Development Council
  members. At the conclusion, a question and answer forum was held for approximately 20 employees
  and members in attendance.

                                                

      SAC Peter Emerzian; RIGA John Dvorak; ASAC Michael Wixted; ARIGA Kevin Smullen; SA Jessica
  Piecuch; and HUD CPD representatives Robert Shumeyko, Samantha Graves, and Laura Schiffer
  provided an overview of the HUD Neighborhood Stabilization program and described the program's
  fraud vulnerabilities at meetings in Boston, MA, with Massachusetts Department of Housing and
  Community Development and Boston Department of Neighborhood Development staff. At the
  conclusion, a question and answer forum was held for approximately 45 employees in attendance.

                                                

     SAC Peter Emerzian, RIGA John Dvorak, ASAC Diane DeChellis, ARIGA Kevin Smullen, SA Gregory
  Williams, and HUD CPD representative Richard Patoski provided an overview of the HUD
  Neighborhood Stabilization program and described the program's fraud vulnerabilities at a meeting in
  Worcester, MA, with Worcester Economic and Neighborhood Development staff. At the conclusion, a
  question and answer forum was held for approximately 20 employees in attendance.

                                                

     SAC Joseph Clarke and RIGA John Buck met with the Director of HUD's Philadelphia, PA, Office of
  Community Planning and Development and several grantees scheduled to receive funds under the
  Neighborhood Stabilization program. Grantees participating in the meeting were from Allentown,
  York County, and Philadelphia, PA; the Commonwealth of Pennsylvania; and the State of Delaware.
  RIGA Buck and SAC Clarke provided an overview of the role and responsibilities of HUD OIG in
  providing critical oversight of these funds.

                                                




  Chapter 7 - Outreach Efforts                                                                           107
Chapter 7: Outreach Efforts
          RIGA Heath Wolfe and SAC Joe Clark gave a presentation to the Neighborhood Stabilization
      program grantees in Columbus, OH. The presentation consisted of an overview of HUD OIG's mission
      and goals and the functions of the Offices of Investigation and Audit. RIGA Wolfe presented
      information on the Neighborhood Stabilization program, common CPD audit findings, and the
      Program Fraud Civil Remedies Act. SAC Clark presented information on CDBG fraud and potential
      criminal issues/activities associated with the Neighborhood Stabilization program and provided
      examples of HUD OIG criminal cases involving government funds. There were more than 300
      individuals in attendance.

                                                      

          RIGA Gerald Kirkland, ARIGA William Nixon, and Senior Auditor Danita Wade held a discussion
      with Terdema Ussery, the Dallas Housing Authority's new board chairman. The discussion took place
      in Dallas, TX. RIGA Kirkland, ARIGA Nixon, and Senior Auditor Wade presented information on the
      audit work performed at the Authority and background on HUD and OIG's role and responsibilities.
      They answered questions from Mr. Ussery on the condition of the Authority, causes, and
      recommendations to improve the Authority's operations.

                                                      

          RIGA Joan Hobbs and SAC Jim Todak addressed a conference of about 300 people in Los Angeles,
      CA, regarding the Neighborhood Stabilization program. They explained the role of OIG and the types
      of problems that would be addressed in the program.

                                                      

          ASAC Gene Westerlind and SA Ray Essman provided an overview of HUD OIG's mission and
      authority at a Community Action Task Force meeting in East St. Louis, IL. Approximately 20
      individuals, including representatives of religious and nonprofit organizations, city officials, and the
      U.S. Attorney, attended.

                                                      

         ARIGA Tanya Schulze gave a presentation at the Housing Authority Association of Southern
      California's quarterly meeting in Burbank, CA. ARIGA Schulze gave an overview of OIG's
      organizational structure and responsibilities, as well as recent audit results and the audit process.
      There were about 45 members in attendance from housing authorities in Southern California.

                                                      

         SAs John Keaney and Michaela Jackson provided an overview of the HUD Neighborhood
      Stabilization program at a Connecticut Department of Economic and Community Development
      Neighborhood Stabilization workshop in Hartford, CT. Approximately 75 Neighborhood Stabilization
      program partners and city officials attended.

      Audit Outreach
         The Seattle, WA, Offices of Audit and Investigation gave a presentation to a group of recently hired
      HUD staff in conjunction with the Region X "HUD's World" program, in which new HUD employees are
      taken to each of the Region X HUD program offices for an overview of each program's organization and




108                                                                                Chapter 7 - Outreach Efforts
                                                                                      Chapter 7: Outreach Efforts
  functions. ARIGAs Ed Schmidt and Tracey Vargas gave an overall presentation on the mission and
  organization of HUD OIG, along with a description of the work performed by the Office of Audit. SAs
  Charles Grace and Dana Papesh described the functions of the Office of Investigation.

                                                 

       ARIGA Kelly Anderson and Senior Auditor Zakia Haneef participated in the Loyola University Spring
  2009 Career Fair at the Gentile Center on the campus of Loyola University in Chicago, IL. The career
  fair provided the the opportunity to meet and inform undergraduate and graduate students about the
  career and internship opportunities available with HUD OIG.

                                                 

      Information Systems Audits Division Director, Hanh Do, and Financial Audits Division Director,
  Tom McEnanly, attended the Information Systems Audit and Control Association National Capital Area
  Chapter's 1st Annual Career Night in Washington, DC. The Directors discussed HUD OIG's
  organizational structure and mission as well as information systems and financial audits performed
  by their respective divisions. They also discussed career opportunities with students, accounting
  instructors, and audit professionals.

                                                 

     ARIGA Frederick Smith participated in a meeting of the Accounting Advisory Board for the
  University of Northern Colorado School of Business in Greeley, CO. The board consists of
  representatives from public accounting, industry, nonprofits, and State and Federal Government. ARIGA
  Smith identified the attributes required of government auditors, especially entry-level auditors. He
  discussed how HUD OIG accomplishes its mission; keeps the HUD Secretary, Congress, and the
  American public fully and currently informed; and works collaboratively with HUD staff and program
  participants to ensure the success of HUD program goals.

                                                 

      ARIGA Kim Randall participated in an employer panel at the University of Missouri - Kansas City,
  MO. Employers conducted timed mock interviews with students, provided students with feedback on
  their interviewing skills, and offered suggestions on how to improve their skills. Employers also
  explained what their jobs entailed and discussed potential job openings and internships with the
  students.

                                                 

     ARIGA Tracey Carney and Auditor Teri Smith provided an overview of HUD OIG’s mission, goals,
  and audit process, during HUD's disaster recovery team's retreat in Ocean Springs, MS. Tracey and
  Teri answered questions and provided clarification on a number subjects presented by the attendees.
  The retreat was held for 12 members of HUD's disaster recovery team in attendance.

  Law Enforcement Outreach
      ASACs Lou Mancini and Kevin Chan provided an overview of HUD OIG investigations, fraud
  indicators, and investigative priorities and described the Housing and Economic Recovery Act of 2008
  and the FHA, Neighborhood Stabilization, and Emergency Shelter Grant programs for individuals
  attending a meeting held at the Westchester County District Attorney's Office in White Plains, NY.




  Chapter 7 - Outreach Efforts                                                                             109
Chapter 7: Outreach Efforts
         Reviewing and making recommendations on legislation, regulations, and policy issues is a critical
      part of the Office of Inspector General's (OIG) responsibilities under the Inspector General Act.
      During this 6-month reporting period, OIG reviewed 121 issuances. This chapter highlights some of
      OIG's prior comments on notices, comments for this reporting period, and other policy directives.

      Enacted Legislation Related to Single-Family Housing
         Due to the collapse of the subprime mortgage market and resulting increase in foreclosures,
      Congress and the President approved the Housing and Economic Recovery Act of 2008 and the
      American Recovery and Reinvestment Act of 2009. This legislation contains significant new funding
      and programs for the U.S. Department of Housing and Urban Development (HUD); specifically, the
      Neighborhood Stabilization ($5.92 billion) and the HOPE for Homeowners programs. These programs
      and their related rules create new challenges and risks to HUD and its partners. OIG plans to closely
      monitor proposed guidance and regulations and work in cooperation with the Department on these
      new programs. To that end, OIG has reviewed and provided comments on the draft front-end risk
      assessments for these and other funded programs.

          In addition, the Housing and Economic Recovery Act of 2008 contains four items that OIG believes
      will reduce fraud and strengthen the Federal Housing Administration (FHA) single-family mortgage
      programs. Specifically,

         -   Section 2129 amends Title 18, Section 1014, to include FHA loans. Therefore, it is a criminal
             offense to make a false statement on an FHA loan commitment, insurance agreement, or
             application for insurance or guarantee. The offender may receive up to 30 years in jail and/or
             up to a $1 million fine.
         -   Section 2113 prohibits seller-funded downpayment assistance. Seller-funded downpayment
             assistance has resulted in substantial loses to the FHA fund.
         -   Section 2113 increases the cash investment of the buyer. Therefore, buyers must have an
             equity investment in the FHA loan.

         -   The Act also places a moratorium on FHA's proposed risk-based insurance premium structure,
             thus allowing the equitable treatment of program participants.

      Proposed Rules
         OIG nonconcurred on a number of HUD-proposed rules. Working cooperatively with the
      Department, we were able to reach agreement on these nonconcurrences. OIG continues to work with
      HUD to resolve other outstanding nonconcurrences.

                                                     




112                                                                   Chapter 8 - Reviews of Policy Directives
                                                                           Chapter 8: Review of Policy Directives
          In the audit resolution process, Office of Inspector General (OIG) and U.S. Department of Housing
      and Urban Development (HUD) management agree upon the needed actions and timeframes for
      resolving audit recommendations. Through this process, OIG hopes to achieve measurable
      improvements in HUD programs and operations. The overall responsibility for assuring that the
      agreed-upon changes are implemented rests with HUD managers. This chapter describes significant
      management decisions with which OIG disagrees. It also contains a status report on HUD's
      implementation of the Federal Financial Management Improvement Act of 1996 (FFMIA). In addition to
      this chapter on audit resolution, see appendix 2, table B, "Significant Audit Reports Described in
      Previous Semiannual Reports in Which Final Action Had Not Been Completed as of March 31, 2009."

      Audit Reports Issued before Start of Period with No Management
      Decision as of March 31, 2009
      Office of Housing, Washington, DC

          Single-Family Mortgage Insurance Claims, Issued July 11, 2006. The Inspector General referred this
      issue to the Deputy Secretary on December 4, 2006, because agreement could not be reached with the
      Office of Housing. The three recommendations relate to the Office of Housing's not independently
      determining that mortgage loans insured under the Mutual Mortgage Insurance Fund met program
      requirements after paying billions in single-family insurance claims. During the period October 1,
      2003, through June 3, 2005, HUD received and paid claims on loans for which the lender did not show
      that the borrower (1) was able to make the required monthly payments, (2) made the minimum
      investment in the property, and (3) was creditworthy. HUD paid the claims and did not subsequently
      review the loan files for compliance with the program requirements, fraud, and/or
      misrepresentations. HUD relied upon lender certifications that loans were eligible and contained all
      required supporting documents, a preendorsement review of the insurance applications for key
      documents, and risk-based compliance testing of recently insured loans. We estimate that final HUD
      costs for claims that HUD's files did not support as meeting program requirements during the period
      reviewed totaled $356 million on those claims for which all revenues and expenses were finalized.

         In his February 23, 2007, response, the Deputy Secretary stated support of OIG's objective and
      agreed with the overall conclusions reached. The Deputy Secretary directed the Office of Housing to
      immediately begin implementing procedures in conjunction with and acceptable to OIG to effect the
      recommendations. However, the Office of Housing did not submit its plan to implement the Deputy
      Secretary's directive until March 30, 2007. Even then, the plan was unacceptable. On June 11, 2007,
      the Office of Housing submitted an additional proposal, which was also rejected by OIG. OIG met
      again with Office of Housing officials on September 30, 2008, and an agreement was reached on
      proposed actions by the Office of Housing that satisfied two of the three outstanding
      recommendations, 1A and 1C. However, recommendation 1B remains without a management
      decision. In his August 4, 2008, memorandum, the Assistant Secretary for Housing stated that the
      Federal Housing Administration (FHA) will follow up and seek recovery from any lender that cannot
      support the claims in the audit sample. The recommendation remains open because the Office of
      Housing has not provided adequate documentation in support of claims paid on 31 of the 44 loans
      from OIG's audit sample that did not meet FHA eligibility requirements. (Report No. 2006-SE-0001).




114                                                                              Chapter 9 - Audit Resolution
                                                                                     Chapter 9: Audit Resolution
 Significant Revised Management Decisions
    Section 5(a)(11) of the Inspector General Act, as amended, requires that OIG report information
 concerning the reasons for any significant revised management decisions made during the reporting
 period. During the current reporting period, there were significant revised management decisions on
 two audits.

 Dallas Housing Authority - Dallas, TX

    Issue Date: December 5, 2007. As part of our strategic plan objective to assist HUD's efforts to
 reduce rental assistance overpayments, we audited the portability features of the Dallas Housing
 Authority's Housing Choice Voucher program (voucher program). Our objective was to determine
 whether the Authority managed and administered the portability features of its voucher program in
 accordance with HUD requirements.

     The Authority mismanaged its portable vouchers and failed to administer portability in
 accordance with HUD requirements. It could not identify its portable families and attempted to
 collect portability payments from other housing authorities based on unreliable billing information. It
 did not bill other housing authorities or reconcile its accounts accurately or in a timely manner.
 Further, it violated portability requirements by denying and discouraging families from porting into its
 voucher program. This condition occurred because the Authority's management did not establish
 and implement the controls, systems, and procedures needed to ensure accurate and responsible
 operation of its program.

     We recommended that HUD require the Authority to (recommendation 1A) reconcile its
 portability accounts, (recommendation 1B) establish and implement adequate and effective controls
 to ensure that the portability features of its voucher program operate in compliance with HUD
 requirements, (recommendation 1C) repay administrative fees associated with the portable vouchers
 since it did not properly administer its program in accordance with requirements, and
 (recommendation 1D) support or repay more than $3.7 million that it requested from HUD.

     HUD agreed with the recommendations in March 2008. After multiple discussions in August 2008,
 HUD requested to revise the management decisions for recommendations 1C and 1D to allow the
 funds to be repaid to the Authority instead of HUD. HUD also wanted to combine the two
 recommendations. It stated that the Authority hired a certified public accountant (CPA) to perform
 agreed-upon procedures regarding the Authority's portability files to support its 2005 request for the
 release of more than $3.7 million. The CPA's agreed-upon procedures1 projected more than $1 million
 in errors from unexplained differences, differences in the balance requested and the balance
 according to the Authority's data, and files missing the required forms. HUD reviewed the results of
 the agreed-upon procedures to ensure adequacy and acceptability. It agreed that more than $1 million
 should be repaid to the Authority's program reserve. HUD stated that the Authority would have to
 spend these funds in accordance with HUD requirements, thus reducing future outlays by HUD. OIG
 agreed to revise the management decisions on August 15, 2008. (Audit Report: 2008-FW-1003)

 HDC Retirement Village. - St. Louis, Missouri

     Issue Date: June 29, 2006. HUD OIG conducted an audit which disclosed that HDC Retirement
 Village's owner did not use project funds in compliance with the regulatory agreement. It also violated
 several other terms of the agreement.


 1
     The agreed-upon procedures did not confirm balances with other housing authorities.




 Chapter 9 - Audit Resolution                                                                               115
Chapter 9: Audit Resolution
          We recommended that HUD require HDC to (1) obtain independent management; (2) develop and
      implement procedures and controls to ensure future compliance; (3) provide documentation to
      support the nearly $167,000 in unsupported distributions for payroll, office utilities, office
      maintenance, and miscellaneous expenses or reimburse the project's reserve account the applicable
      portion that could not be supported as necessary to the project; (4) deposit nearly $18,000 for
      improper distributions into the project's reserve for replacement or a restricted capital account;
      (5) resolve sewer liens; (6) properly fund the tenant security deposit account with nearly $7,000;
      (7) reimburse tenants from project funds nearly $2,000 for their rent credits; and (8) pursue civil
      money penalties and administrative sanctions.

           On October 27, 2008, the owner of HDC sold the project. The new owner did not finance the
      transaction with an FHA-insured mortgage. After paying the sewer liens and other project expenses,
      all net proceeds from the sale were transferred to the new owner's reserve for replacement account in
      the amount of more than $100,000. Since this amount was short of the amount that we requested be
      repaid or supported, HUD requested that OIG accept a revised management decision. HUD stated that
      although the owner did not provide supporting documentation, it believe that some of the questioned
      expenses were legitimate project expenses. On November 10, 2008, disallowed costs of more than
      $82,000 were written off, and the audit was closed. (Audit report: 2006-KC-1012)

      Significant Management Decision with Which OIG Disagrees
      Single Family Housing Late Endorsement Rule Changes

          Issue Date: August 16, 2006. On May 17, 2005, HUD issued Mortgagee Letter 2005-23, removing the
      6-month payment history requirement for loans submitted late for endorsement. HUD OIG analyzed
      the impact of the policy changes and reviewed the decision process followed by HUD in approving the
      rule change to determine whether the changed late endorsement submission rules were adequately
      supported. Although HUD asserted that the change did not materially increase FHA's mortgage
      insurance risk, it did not perform a risk analysis to support this determination. A review of the
      performance of loans from seven prior OIG late endorsement audits found a three and one-half times
      higher risk of claims when loans had unacceptable payment histories within the prior 6 months.
      Further, since the issuance of the mortgagee letter, the default rate for loans submitted late has
      increased and is significantly higher than the default rate for loans submitted in a timely manner.

          Based upon the results of this review, OIG recommended that HUD rescind Mortgagee Letter
      2005-23 until appropriate rule changes can be designed that are supported by an adequate risk
      assessment considering newly endorsable loans. On November 9, 2006, the Office of Housing
      disagreed with the OIG recommendations, and the report was referred to the Deputy Secretary for
      final decision. On February 27, 2007, the Deputy Secretary instructed the Office of Housing to
      implement our recommendations, including a recommendation to rescind Mortgagee Letter 2005-23
      until appropriate rule changes can be designed that are supported by an adequate risk assessment
      considering newly endorsable loans. A management decision to do so was accepted on March 30,
      2007, with a March 30, 2008, final action target date, which was not met.

          Upon further review of information from OIG and the Office of Housing, the Deputy Secretary again
      instructed the Office of Housing to implement the OIG recommendations, and a notice of a proposed
      rule to rescind the provisions of Mortgagee Letter 2005-23 and reinstate the 6-month payment history
      rule for loans submitted late for endorsement was published in the Federal Register on June 9, 2008,
      for comments. On February 18, 2009, we learned that this recommendation had been closed by the
      Office of Housing. However, the final rule reinstating the 6-month payment history was never




116                                                                              Chapter 9 - Audit Resolution
                                                                                    Chapter 9: Audit Resolution
 published, and Mortgagee Letter 2005-23 was still in effect two and one-half years after the audit
 report was issued. The rationale provided by the Office of Housing did not support closure of the
 recommendation.

     On March 3, 2009, OIG contacted the Deputy Assistant Secretary for Single Family Housing to
 determine why the audit recommendation was closed without the agreed-to action having been
 completed. The Deputy Assistant Secretary informed OIG that the Office of General Counsel (OGC)
 advised that his office could not proceed further on finalizing the proposed rule to rescind the
 provisions of Mortgagee Letter 2005-23 and reinstate the 6-month payment history rule for loans
 submitted late for endorsement. The Deputy Assistant Secretary added that the failure/inability to
 issue revised standards is beyond the control of the program office and, since the Office of Single
 Family Housing has taken every action within its control, the management decision should be closed
 out. However, OGC advised that it was still committed to finalizing the rule.

    OIG has reopened the recommendation, and it will remain open until the agreed-upon final action
 has been completed. (Audit Report: 2006-SE-0002)

 Federal Financial Management Improvement Act of 1996
    In fiscal year 2008, HUD did not substantially comply with FFMIA. In this regard, HUD's financial
 management systems did not substantially comply with Federal financial management system
 requirements.

    FFMIA requires that HUD implement a remediation plan that will bring financial systems into
 compliance with Federal financial management system requirements within 3 years or obtain Office of
 Management and Budget concurrence if more time is needed.

    FFMIA requires OIG to report in its Semiannual Reports to the Congress instances and reasons
 when an agency has not met the intermediate target dates established in its mediation plan required
 by FFMIA. In April 1998, HUD determined that 38 of its systems were not in substantial compliance
 with FFMIA. At the end of 2008, the Department reported that 2 of its 42 financial management
 systems were not in substantial compliance with FFMIA. These two systems are the HUD
 Procurement System and Small Purchase System.

                                               




 Chapter 9 - Audit Resolution                                                                           117
Chapter 9: Audit Resolution
      Internal Reports
      13 Audit Reports
      Chief Financial Officer (1 Report)
      2009-FO-0003                 Additional Details to Supplement Our Report on HUD's Fiscal Years 2008 and
                                   2007 Financial Statements, 11/14/2008. Better Use: $1,522,900,000.
      Chief Information Officer (1 Report)
      2009-DP-0003                 Review of the Centralized HUD Account Management Process, 01/09/2009.
      Government National Mortgage Association (2 Reports)
      2009-DP-0002                 Review of Controls over Securitized Single Family Loans, 12/03/2008.
      2009-FO-0001                 Audit of Ginnie Mae's Financial Statements for Fiscal Years 2008 and 2007,
                                   11/07/2008.
      Housing (4 Reports)
      2009-DP-0001                 Review of Single-Family Partial Claims Collection Process, 11/20/2008. Better
                                   Use: $175,726.
      2009-FO-0002                 Audit of the FHA's Financial Statements for Fiscal Years 2008 and 2007,
                                   11/07/2008.
      2009-NY-0001                 HUD Did Not Adequately Monitor Its Performance-Based Contract
                                   Administrator, New York State Housing Trust Fund Corporation, 10/16/2008.
                                   Questioned: $2,088,908; Unsupported: $2,088,908.
      2009-PH-0001                 HUD's Region 3 Program Centers Did Not Always Process Section 202 and
                                   Section 811 Capital Advances in Accordance with HUD Requirements, 12/09/2008.
                                   Questioned: $46,287,890; Unsupported: $46,287,890.
      Public and Indian Housing (3 Reports)
      2009-AO-0001                HUD's Receiver Did Not Provide Adequate Management Oversight to Ensure That
                                  the Housing Authority of New Orleans Complied with HUD's Requirements When
                                  Performing Its Housing Choice Voucher Program, Disaster Voucher Program, and
                                  Public Housing Operations, 12/12/2008. Questioned: $3,569.
      2009-AO-0002                 HUD's Receivership Did Not Ensure That the Housing Authority of New Orleans
                                   Properly Accounted for Its Fungibility Funding, Monitored and Paid Two of Its
                                   Contractors, and Paid Its Accounts Payable Disbursements, 01/29/2009.
                                   Questioned: $7,535,600; Unsupported: $5,068,456.
      2009-SE-0002                 NAHASDA Program Income from 1937 Act Properties, 02/06/2009.
      Audit-Related Memorandums1
      Community Planning and Development (1 Report)
      2009-NY-0801                 Deconstruction Activity Costs under the World Trade Center Memorial and
                                   Cultural Program Are Impacting Other Approved Programs, 11/06/2008.
                                   Better Use: $868,000.


      1
        The memorandum format is used to communicate the results of reviews not performed in accordance with
      generally accepted government audit standards, to close out assignments with no findings and recommendations,
      to respond to requests for information, to report on the results of a survey, to report results, or to report the results
      of civil actions or settlements.




120                                                                                                 Appendix 1 - Audit Reports Issued
                                                                                                         Appendix 1: Audit Reports Issued
 Housing (1 Report)
 2009-SE-0801            HUD's Recent Performance-Based Contract Administration Activity Was
                         Inconsistent with Agreed-Upon Management Decisions between HUD and HUD
                         OIG on Audit Report 2007-SE-0001, Dated June 7, 2007, 12/08/2008.
 External Reports
 68 Audit Reports
 Community Planning and Development (19 Reports)
 2009-AT-1002            The City of Augusta Needs to Improve Controls Over its CDBG Façade Program,
                         Augusta, GA, 02/10/2009. Questioned: $180,817; Unsupported: $180,817; Better
                         Use: $270,175.
 2009-AT-1004            The City of Durham Did Not Adequately Administer Its CDBG Program, Durham,
                         NC, 03/31/2009. Questioned: $1,251,548; Unsupported: $1,239,865; Better
                         Use: $125,278.
 2009-CH-1001            New Phoenix Assistance Center Substantially Failed to Manage Its Supportive
                         Housing Program Grant, Chicago, IL, 10/24/2008. Questioned: $1,020,323;
                         Unsupported: $1,004,599; Better Use: $929,519.
 2009-CH-1004            Cook County Failed to Adequately Manage Its HOME Investment Partnerships
                         Program, Chicago, IL, 02/13/2009. Questioned: $65,544.
 2009-DE-1001            The Adams County Office of Community and Development Did Not Comply with
                         HOME Investment Partnerships Program Regulations, Denver, CO, 02/11/2009.
                         Questioned: $3,974,959; Unsupported: $3,867,459.
 2009-FW-1004            The Texas Department of Housing and Community Affairs Properly Administered
                         Supplemental I Disaster Recovery Program Funds, Austin, TX, 01/14/2009.
 2009-LA-1004            Alameda County HOME Investment Partnership Consortium Did Not Use
                         Program Funds in Compliance with HUD Requirements, Hayward, CA, 11/26/2008.
                         Questioned: $5,734,863.
 2009-LA-1005            The City of San Diego Did Not Administer Its CDBG Program in Accordance with
                         HUD Requirements When Funding the City's Redevelopment Agency Projects,
                         San Diego, CA, 12/30/2008. Questioned: $12,989,963; Unsupported: $11,183,193;
                         Better Use: $7,269,854.
 2009-LA-1006            St. Vincent de Paul Village, Inc., Supportive Housing Program, San Diego, CA,
                         02/09/2009.
 2009-LA-1007            The City of Los Angeles Housing Department Did Not Always Ensure That Its
                         HOME-Assisted Rehabilitation Work Was Complete and in Accordance with HOME
                         Requirements, Los Angeles, CA, 02/20/2009. Questioned: $22,466; Unsupported:
                         $22,466.
 2009-NY-1001            The City of Newburgh Needs to Make Improvements in Administering Its Section
                         108 Loan Guarantee Program, Newburgh, NY, 11/07/2008. Questioned: $1,597,007;
                         Unsupported: $1,002,849; Better Use: $3,765,047.
 2009-NY-1003            Lower Manhattan Development Corporation CDBG Disaster Recovery Assistance
                         Funds, New York, NY, 12/04/2008. Questioned: $468,649; Unsupported: $468,649;
                         Better Use: $3,031,351.




 Appendix 1 - Audit Reports Issued                                                                       121
Appendix 1: Audit Reports Issued
      2009-NY-1004       The Economic Development Corporation Did Not Administer Its CDBG Program
                         in Accordance with HUD Requirements, Newark, NJ, 12/08/2008. Questioned:
                         $1,811,732; Unsupported: $1,678,732; Better Use: $662,184.
      2009-NY-1005       The Township of South Orange Village Did Not Always Disburse CDBG Funds As
                         Per HUD Requirements, South Orange Village, NJ, 12/16/2008. Questioned: $83,757;
                         Better Use: $214,667.
      2009-NY-1006       The City of Rome Did Not Always Administer Its CDBG Program in Accordance
                         with HUD Requirements, Rome, NY, 01/26/2009. Questioned: $198,559;
                         Unsupported: $58,036; Better Use: $431,312.
      2009-NY-1008       The City of Newburgh Did Not Always Administer Its CDBG Program in
                         Accordance with HUD Requirements , Newburgh, NY, 02/24/2009. Questioned:
                         $894,783; Unsupported: $894,783; Better Use: $78,176.
      2009-NY-1009       The City of Yonkers Had Weaknesses in the Administration of its Section 108
                         Loan Guarantee Program, Yonkers, NY, 03/06/2009.
      2009-PH-1005       The City of Bethlehem Generally Administered Its CDBG Program in Accordance
                         with HUD Requirements, Bethlehem, PA, 02/02/2009.
      2009-PH-1007       The City of Norfolk Did Not Ensure That Program Income Was Returned to Its
                         HOME Program as Required, Norfolk, VA, 03/20/2009. Questioned: $288,728.
      Housing (11 Reports)
      2009-BO-1002       Orchard Court Multifamily Project Was Not Properly Managed in Accordance
                         with HUD Regulations, Bath, ME, 11/06/2008. Questioned: $567,813; Unsupported:
                         $265,412.
      2009-FW-1002       The Owner of Ebony Lake Healthcare Center Violated Its Regulatory Agreement
                         with HUD, Brownsville, TX, 11/25/2008. Questioned: $837,549; Unsupported:
                         $180,100.
      2009-FW-1005       Allied Home Mortgage Capital Corporation Did Not Fully Follow HUD's Branch
                         Office Requirements, Houston, TX, 02/10/2009.
      2009-FW-1006       Enterprise Home Ownership Partners-Dallas, Inc. Achieved Program Objectives
                         but Did Not Fully Comply with Certain Requirements, Dallas, TX, 02/18/2009.
      2009-FW-1007       The Owners of Stonebrook Apartments Phase I and Phase II Violated Their
                         Regulatory Agreements with HUD, Baytown, TX, 03/25/2009. Questioned:
                         $187,507; Unsupported: $16,945.
      2009-KC-1001       CitiMortgage Did Not Follow HUD Requirements When Underwriting 20 Loans
                         and Performing Its Quality Control Program, St. Louis, MO, 11/13/2008.
                         Questioned: $109,315; Better Use: $1,213,529.
      2009-KC-1002       Clarion Mortgage Capital Did Not Fully Comply with HUD's or Its Own Quality
                         Control Requirements, Leawood, KS, 12/17/2008.
      2009-KC-1003       CTX Mortgage Did Not Follow HUD's Requirements When Underwriting 12 FHA
                         Loans and Developing Its Quality Control Plan, Overland Park, KS, 12/17/2008.
                         Better Use: $523,717.
      2009-LA-1008       Campaige Place at Jackson Did Not Use Its Project Funds in Compliance with
                         HUD's Regulatory Agreement and Other Federal Requirements, Phoenix, AZ,
                         03/18/2009. Questioned: $186,741; Unsupported: $34,669.




122                                                                      Appendix 1 - Audit Reports Issued
 2009-NY-1007            The City of Rochester's Management Controls Over the Asset Control Area
                         Program Needs Improvement To Comply With All Requirements, Rochester, NY,
                         02/12/2009. Questioned: $190,700; Unsupported: $186,000.
 2009-PH-1004            The City of Camden Did Not Always Administer Its Asset Control Area Program
                         in Compliance with HUD Requirements, Camden, NJ, 01/30/2009. Questioned:
                         $453,233; Unsupported: $441,500.
 Public and Indian Housing (22 Reports)
 2009-AT-1001            The Housing Authority of the City of Conyers Did Not Maintain Adequate
                         Controls over its Federal Funds, Conyers, GA, 10/20/2008. Questioned: $891,468;
                         Unsupported: $705,704.
 2009-AT-1003            The Puerto Rico Housing Finance Authority Generally Calculated Housing
                         Assistance Correctly, San Juan, PR, 02/25/2009.
 2009-BO-1001            The Taunton Housing Authority Needs to Improve Accounting for its Interprogram
                         Funds, Taunton, MA, 10/01/2008. Questioned: $593,418; Unsupported: $593,418.
 2009-BO-1003            New Hampshire Housing Finance Authority Generally Administered Its Cost
                         Allocation, Operating Reserves, and Technology Expenditures as Required,
                         Bedford, NH, 11/18/2008.
 2009-BO-1004            The City of Hartford Did Not Always Comply with Its Annual Contributions
                         Contracts and HUD Regulations in Administering Its Housing Choice Voucher
                         Program, Hartford, CT, 01/05/2009. Questioned: $630,955; Unsupported: $623,229;
                         Better Use: $1,773,893.
 2009-CH-1002            The Indianapolis Housing Agency Failed to Operate Its Housing Choice Voucher
                         Program According to HUD's and Its Requirements, Indianapolis, IN, 01/23/2009.
                         Questioned: $2,317,387; Unsupported: $2,081,512; Better Use: $8,950,914.
 2009-CH-1003            The Portage Metropolitan Housing Authority Improperly Operated Its Section 8
                         Housing Choice Voucher Program, Ravenna, OH, 01/28/2009. Questioned:
                         $750,080; Unsupported: $298,178; Better Use: $1,226,156.
 2009-CH-1005            The Chicago Housing Authority Did Not Always Ensure That Section 8 Units Met
                         HUD's Housing Quality Standards, Chicago, IL, 02/19/2009. Questioned: $101,618;
                         Better Use: $3,167,688.
 2009-DE-1002            The Housing Authority of the City of Brush Did Not Perform Contracting
                         Activities in Accordance with Federal Procurement Requirements, Brush, CO,
                         02/25/2009.
 2009-FW-1001            The Fort Smith Housing Authority Made Inappropriate Guarantees, Did Not
                         Follow Procurement Requirements, and Spent Program Funds on Questionable
                         Activities, Fort Smith, AR, 10/22/2008. Questioned: $534,686; Unsupported:
                         $530,246.
 2009-FW-1003            Housing Authority of the City of El Paso Did Not Follow Procurement and Other
                         Requirements, El Paso, TX, 12/24/2008. Questioned: $705,917.
 2009-KC-1004            The St. Louis Housing Authority Did Not Perform Adequate Physical
                         Inventories, St. Louis, MO, 02/03/2009.
 2009-KC-1005            The East St. Louis Housing Authority's Section 8 Voucher Program Units Did Not
                         Always Meet HUD's Housing Quality Standards, East St. Louis, IL, 03/02/2009.
                         Questioned: $64,528; Better Use: $1,708,938.




 Appendix 1 - Audit Reports Issued                                                                         123
Appendix 1: Audit Reports Issued
      2009-LA-1001       The Housing Authority of the County of Marin Did Not Correctly Calculate
                         Tenant Rents in the Public Housing Program, San Rafael, CA, 10/17/2008. Better
                         Use: $3,811.
      2009-LA-1002       The Housing Authority of the City of Los Angeles Did Not Adequately Conduct
                         Housing Quality Standards Inspections, Los Angeles, CA, 11/17/2008. Better Use:
                         $65,565,605.
      2009-LA-1003       The Area Housing Authority of the County of Ventura Did Not Comply with HUD
                         Requirements In Its Annual Contributions Contract, Ventura, CA, 11/25/2008.
                         Better Use: $736,315.
      2009-NY-1002       The New York City Housing Authority Had Administration Weaknesses in Its
                         Capital Fund Program, New York, NY, 11/25/2008. Questioned: $590,363.
      2009-PH-1001        The Richmond Redevelopment and Housing Authority Did Not Ensure That Its
                          Section 8 Housing Choice Voucher Program Units Met Housing Quality Standards,
                          Richmond, VA, 11/14/2008. Questioned: $68,506; Better Use: $1,138,025.
      2009-PH-1002        The Delaware County Housing Authority Did Not Ensure That Its Section 8
                          Housing Choice Voucher Program Units Met Housing Quality Standards, Woodlyn,
                          PA, 12/03/2008. Questioned: $49,846; Better Use: $1,935,920.
      2009-PH-1003        The Housing Authority of the City of Pittsburgh Did Not Ensure That Its Leased
                          Housing Units Met Housing Quality Standards under Its Moving to Work
                          Program, Pittsburgh, PA, 01/15/2009. Questioned: $100,362; Better Use: $9,304,880.
      2009-PH-1006        The Housing Authority of the City of Annapolis Did Not Comply with HUD and
                          State of Maryland Lead-Based Paint Requirements in a Timely Manner,
                          Annapolis, MD, 03/06/2009.
      2009-SE-1001        The Housing Authority of Douglas County Needs to Strengthen Its Internal
                          Controls, Roseburg, OR, 01/09/2009. Questioned: $2,197.
      Audit-Related Memorandums
      General Counsel (1 Report)
      2009-SE-1801       Actions under Program Fraud Civil Remedies Act, Washington Mutual Bank,
                         Seattle, WA, 11/18/2008. Questioned: $91,978.

      Public and Indian Housing (1 Report)
      2009-BO-1801        Housing Authorities at Bath and Brunswick Overpaid Basic Rent and Housing
                          Assistance Payments for Section 8 Tenants in a Subsidized Multifamily Project
                          (Orchard Court), Bath, ME, 01/27/2009. Better Use: $32,299.

                                                    




124                                                                        Appendix 1 - Audit Reports Issued
                                                                                Appendix 1: Audit Reports Issued
Appendix 1: Audit Reports Issued
                                            Table A
                                Audit reports issued prior to start of period
                             with no management decision at March 31, 2009
                  * Significant audit reports described in previous semiannual reports

             Report number              Reason for lack of                 Issue date/target
                and title              management decision             for management decision

      *2006-SE-0001 Single Family        See chapter 9, page 112              07/11/2006
      Mortgage Insurance Claims




126                                                                              Appendix 2 - Tables
                                                                                    Appendix 2: Tables
                                             Table B
                 Significant audit reports in which final action had not been completed
                                  within 12 months after the date of the
                                       Inspector General’s report

       Report                     Report title                Issue       Decision           Final
       number                                                 date          date            action

 1997-AT-1003        Municipality of Mayaguez, CDBG and     07/01/1997   10/29/1997       06/30/2009
                     Section 108 Loan Guarantee
                     Assistance Programs, Mayaguez, PR

 2002-AT-1002        Housing Authority of the City of       07/03/2002   10/31/2002       04/30/2010
                     Tupelo, Housing Programs
                     Operations, Tupelo, MS

 2002-KC-0002        Nationwide Survey of HUD's Office of   07/31/2002   11/22/2002        Note 2
                     Housing Section 232 Nursing Home
                     Program

 2004-PH-0001        Procedures for Filing Uniform          11/26/2003   04/14/2004       05/31/2009
                     Commercial Code Continuation
                     Statements

 2004-DP-0002        Application Control Review of the      02/25/2004   07/14/2004        Note 1
                     Tenant Rental Assistance
                     Certification System

 2004-PH-1008        Safe Haven Outreach Ministry,          06/03/2004   08/31/2004        Note 1
                     Incorporated, Washington, DC

 2004-CH-1007        A-Pan American Mortgage Group,         08/09/2004   08/09/2004        Note 1
                     Non-Supervised Loan Correspondent,
                     Chicago, IL

 2004-CH-1803        Somerset Point Nursing Home,           08/09/2004   08/09/2004       07/31/2009
                     Multifamily Equity Skimming,
                     Shaker Heights, OH

 2004-PH-1012        Mortgage America Bankers, LLC,         09/10/2004   01/06/2005       05/31/2009
                     Nonsupervised Loan Correspondent,
                     Kensington, MD

 2004-FW-1009        Mays Property Management,Inc.,         09/17/2004   02/23/2005       07/31/2009
                     Multifamily Management Agent,
                     Little Rock, AR

 2005-AT-1004        Housing Authority of the City of       11/19/2004   03/15/2005       03/15/2015
                     Durham, NC




 Appendix 2 - Tables                                                                                   127
Appendix 2: Tables
          Report                 Report title                 Issue      Decision           Final
          number                                              date         date            action

      2005-CH-1002   Washington Mutual Bank,                11/29/2004   01/28/2005        Note 1
                     Underwriting of Federal Housing
                     Administration-Insured Loans,
                     Downers Grove, IL

      2005-CH-1003   Royal Oak Township Housing             11/29/2004   03/29/2005      05/31/2009
                     Commission, Public Housing
                     Program, Ferndale, MI

      2005-AT-1013   Corporacion Para el Fomento            09/15/2005   01/11/2006        Note 1
                     Economico de la Ciudad Capital
                     Did Not Administer Its Independent
                     Capital Fund in Accordance with
                     HUD Requirements, San Juan, PR

      2005-CH-1020   Housing Authority of the City of       09/29/2005   01/25/2006      12/31/2009
                     Gary, Section 8 Housing Program,
                     Gary, IN

      2006-CH-0001   Real Estate Assessment Center's        11/30/2005   01/10/2006      12/31/2011
                     Physical Condition Assessment
                     Was Compromised

      2006-AT-1004   The Housing Authority of the City      01/13/2006   04/25/2006      06/30/2010
                     of Prichard Did Not Ensure Section 8
                     Subsidy Payments Were for Eligible
                     Units, Tenants, and Landlords,
                     Prichard, AL

      2006-NY-1003   The Housing Authority of the City      02/14/2006   08/17/2006      01/01/2015
                     of Newark's Controls over Bond
                     Financing Activities, Obtaining
                     Supporting Documentation, and
                     Legal Settlements Require
                     Improvement, Newark, NJ

      2006-CH-1007   Huntington National Bank,              03/15/2006   09/18/2006      09/30/2009
                     Supervised Lender, Generally
                     Complied with Requirements
                     Regarding Submission of Late
                     Requests for Endorsement and
                     Underwriting of Loans,
                     Columbus, OH

      2006-NY-0001   HUD's Controls over the Reporting,     06/08/2006   01/08/2007      01/31/2010
                     Oversight, and Monitoring of the
                     Housing Counseling Assistance
                     Program Were Not Adequate




128                                                                                 Appendix 2 - Tables
                                                                                       Appendix 2: Tables
       Report                    Report title                Issue      Decision        Final
       number                                                date         date         action

 2006-BO-1009        The Rhode Island Housing and          07/06/2006   10/24/2006   11/01/2010
                     Mortgage Finance Corporation
                     Incorrectly Made More Than $1.8
                     Million in Section 8 Subsidy Pay-
                     ments and Released More Than
                     $900,000 from Restricted Residual
                     Receipts Accounts, Providence, RI

 2006-BO-0001        HUD Incorrectly Approved $42          07/11/2006   10/13/2006   10/01/2013
                     Million in Operating Subsidies for
                     Phase-Down for Demolition Add-On
                     Funding

 2006-AT-1016        The Municipality of Humacao Did       07/28/2006   11/17/2006   09/30/2009
                     Not Administer Its CDBG in
                     Accordance with HUD
                     Requirements, Humacao, PR

 2006-CH-1014        National City Mortgage Company,       07/31/2006   01/31/2007   09/08/2009
                     Nonsupervised Lender, Did Not
                     Comply with HUD's Requirements
                     Regarding Underwriting of Loans and
                     Quality Control Reviews,
                     Miamisburg, OH

 2006-SE-0002        The Office of Single Family Housing   08/16/2006   03/30/2007    Note 2
                     Expanded Late Endorsement
                     Eligibility Without Studying
                     Associated Risks

 2006-KC-1013        The Columbus Housing Authority        08/30/2006   10/17/2006   11/30/2012
                     Improperly Expended and
                     Encumbered Its Public Housing
                     Funds, Columbus, NE

 2006-AT-1019        The Municipality of Toa Baja Did      09/06/2006   12/11/2006   06/30/2009
                     Not Administer Its Section 108 Loan
                     Guarantee Assistance Program in
                     Accordance with HUD Requirements,
                     Toa Baja, PR

 2006-DP-0802        Assessment of HUD's Compliance        09/21/2006   11/24/2006   10/01/2009
                     with OMB Memorandum M-06-16,
                     "Protection of Sensitive Agency
                     Information"




 Appendix 2 - Tables                                                                              129
Appendix 2: Tables
          Report                  Report title                 Issue      Decision           Final
          number                                               date         date            action

      2007-AT-1002   Pine State Mortgage Company Did         11/03/2006   03/02/2007      08/31/2009
                     Not Always Comply with FHA
                     Underwriting and Quality Control
                     Requirements, Atlanta, GA

      2007-LA-0001   Tax Credit Project Owners Are           11/08/2006   07/05/2007      10/01/2010
                     Allowed to Charge Higher Rents
                     for Tenant-Based Section 8 Voucher
                     Households than Non-Voucher
                     Households

      2007-CH-1002   Benton Harbor Housing Commission        01/25/2007   05/25/2007      05/31/2009
                     Did Not Effectively Manage Its Public
                     Housing Program and Has Not Used
                     Special Purpose Grant Funds It
                     Received More Than Nine Years Ago,
                     Benton Harbor, MI

      2007-DP-0003   Review of HUD's Procurement             01/25/2007   05/25/2007      09/30/2010
                     Systems

      2007-KC-0002   HUD Can Improve Its Use of Residual     01/29/2007   01/29/2007      01/31/2011
                     Receipts to Reduce Housing
                     Assistance Payments

      2007-DP-0004   FY 2006 Review of Information           02/22/2007   06/21/2007        Note 1
                     Systems Controls in Support of
                     the Financial Statements Audit

      2007-AT-1004   The Wilmington Housing Authority        03/09/2007   06/25/2007      06/28/2010
                     Needs to Improve Internal Controls
                     Over Its Program, Wilmington, NC

      2007-DP-0005   Review of HUD's Information             04/05/2007   08/03/2007      04/30/2009
                     Technology Security Program

      2007-AT-1007   The Municipality of Toa Baja Needs      04/11/2007   07/16/2007      05/30/2009
                     to Improve Its CDBG Program
                     Administration, Toa Baja, PR

      2007-KC-0003   HUD Did Not Recapture Excess Funds      04/30/2007   08/27/2007        Note 1
                     from Assigned Bond-Financed
                     Projects

      2007-BO-0002   HUD Did Not Process Multifamily         05/21/2007   09/07/2007      10/15/2009
                     Accelerated Processing Applications
                     within Established Processing Goals
                     and the Multifamily Accelerated
                     Processing Guide Is Outdated



130                                                                                  Appendix 2 - Tables
                                                                                        Appendix 2: Tables
       Report                    Report title                 Issue      Decision        Final
       number                                                 date         date         action

 2007-LA-1011        Suburban Mortgage Company Did          05/29/2007   12/31/2007    Note 1
                     Not Comply with HUD Requirements
                     in the Origination of FHA-Insured
                     Single-Family Mortgages, Phoenix, AZ

 2007-LA-1012        Central City Lutheran Mission Did      06/04/2007   09/21/2007    Note 1
                     Not Properly Administer Its
                     Supportive Housing Program
                     Grants, San Bernardino, CA

 2007-SE-0001        HUD Did Not Ensure That Payments       06/07/2007   10/05/2007    Note 1
                     to Contract Administrators Were for
                     Work Performed or That Interest Was
                     Earned on Advances and Recovered

 2007-NY-1008        The City of Newark Did Not Always      06/22/2007   10/17/2007   04/30/2009
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Newark, NJ

 2007-FW-1011        Capmark Finance, Inc.                  07/02/2007   10/23/2007   10/31/2009
                     Misrepresented Asbury Square
                     Apartments' Financial and Physical
                     Condition When Underwriting the
                     $9.098 Million Loan, Tulsa, OK

 2007-CH-1011        The Indianapolis Housing Agency        07/23/2007   11/19/2007   04/01/2009
                     Lacked Adequate Controls over
                     Expenses Charged to Its Section 8
                     Program, Indianapolis, IN

 2007-LA-1014        The Housing Authority of the           07/27/2007   11/23/2007   11/24/2017
                     County of San Mateo Did Not
                     Use HUD Program Funds in
                     Accordance with HUD Requirements,
                     San Mateo, CA

 2007-CH-1012        The Plymouth Housing Commission        08/03/2007   11/23/2007   04/30/2009
                     Needs to Improve Its Section 8
                     Housing Choice Voucher Program
                     Administration, Plymouth, MI

 2007-AT-1010        The Cathedral Foundation of            08/14/2007   12/03/2007   07/01/2009
                     Jacksonville Used More Than
                     $2.65 Million in Project Funds for
                     Questioned Costs, Jacksonville, FL




 Appendix 2 - Tables                                                                               131
Appendix 2: Tables
          Report                 Report title                Issue      Decision           Final
          number                                             date         date            action

      2007-PH-0002   HUD's Oversight of Contractors'       08/17/2007   12/12/2007        Note 1
                     Marketing of Its Real Estate-Owned
                     Properties

      2007-DP-0006   Review of HUD's Personal Identity     08/28/2007   12/20/2007      04/30/2009
                     Verification and Privacy Program

      2007-NY-1012   The City of Passaic's Community       09/12/2007   12/17/2007      04/29/2009
                     Development Department Has
                     Weaknesses in Its HOME Investment
                     Partnerships Program, Passaic, NJ

      2007-AT-0001   HUD Needs to Improve Controls         09/19/2007   09/19/2007      09/30/2009
                     Over Its Contract Administration
                     Processes

      2007-LA-1016   A Community of Friends Did Not        09/21/2007   01/18/2008        Note 1
                     Always Administer Its Cash Match in
                     Compliance with HUD Requirements,
                     Los Angeles, CA

      2007-KC-0004   More Than 80 Percent of Recently      09/24/2007   03/28/2008        Note 1
                     Insured Title II Manufactured
                     Housing Loans Are on Homes
                     With Substandard Foundations

      2007-KC-0801   Lenders Submitted Title II            09/24/2007   03/11/2008        Note 1
                     Manufactured Housing Loans for
                     Endorsement without the Required
                     Foundation Certifications

      2007-AT-1011   The Wilmington Housing Authority      09/26/2007   01/24/2008      01/01/2011
                     Did Not Follow HUD Requirements
                     for Its Nonprofit Development
                     Activities, Wilmington, NC

      2007-CH-1015   Cook County Lacked Adequate           09/26/2007   01/24/2008        Note 1
                     Controls over Its HOME Investment
                     Partnerships Program, Chicago, IL

      2007-CH-1016   The Plymouth Housing Commission       09/28/2007   01/24/2008      07/24/2009
                     Failed to Adequately Administer Its
                     Section 8 Housing Choice Voucher
                     Program, Plymouth, MI

      2007-CH-1017   The City of Cincinnati Lacked         09/30/2007   01/28/2008      09/30/2011
                     Adequate Controls over Its HOME
                     Investment Partnerships Program,
                     Cincinnati, OH



132                                                                                Appendix 2 - Tables
                                                                                      Appendix 2: Tables
       Report                    Report title                 Issue      Decision        Final
       number                                                 date         date         action

 2007-CH-1018        The City of Milwaukee Needs to         09/30/2007   03/20/2008   10/30/2009
                     Improve Existing Controls over Its
                     HOME Program Regarding Housing
                     Conditions and Contracting,
                     Milwaukee, WI

 2007-SE-1004        The Tacoma Consortium Did Not          09/30/2007   01/25/2008    Note 1
                     Properly Administer its HOME
                     Investment Partnerships Grants,
                     Tacoma, WA

 2007-DP-0001        Review of Unisys Performance and       10/19/2007   02/08/2008    Note 1
                     Security Controls

 2008-NY-0801        CDBG Disaster Recovery Assistance      10/23/2007   04/03/2008   05/29/2009
                     Funds Lower Manhattan
                     Development Corporation

 2008-SE-1001        Accounting for Program Income          10/30/2007   07/23/2008   07/23/2009
                     from NAHASDA-Assisted 1937
                     Act Housing Projects at Warm
                     Springs Housing Authority,
                     Warm Springs, OR

 2008-DP-0002        Review of FHA Controls over Its        10/31/2007   02/26/2008   10/30/2009
                     Information Technology Resources

 2008-LA-0001        The Los Angeles Multifamily Hub        11/05/2007   03/03/2008    Note 1
                     Did Not Properly Monitor Its
                     Performance-Based Contract
                     Administrator, Los Angeles
                     LOMOD

 2008-FO-0003        Additional Details to Supplement Our   11/14/2007   05/14/2008    Note 1
                     Report on HUD's FY 2007and 2006
                     Financial Statements

 2008-AT-1002        The Municipality of Canovanas          11/15/2007   03/07/2008   05/29/2009
                     Needs to Improve Administration of
                     Its CDBG Program, Canovanas, PR

 2008-CH-1001        The Housing Authority of the City      11/19/2007   03/10/2008   04/15/2009
                     of Michigan City Failed to Follow
                     Federal Requirements for Its
                     Nonprofit Development Activities,
                     Michigan City, IN




 Appendix 2 - Tables                                                                               133
Appendix 2: Tables
          Report                  Report title                   Issue      Decision           Final
          number                                                 date         date            action

      2008-AO-0001   HUD Had a Less Than 1 Percent             12/04/2007   04/01/2008      12/31/2009
                     Error Rate in Housing Ineligible
                     Participants for Katrina Disaster
                     Housing Assistance Program and
                     Disaster Voucher Program Disaster
                     Housing Assistance

      2008-NY-1002   Richard A. Hutchens and Associates,       12/05/2007   03/05/2008      05/28/2009
                     Management Agent, Used Project
                     Funds for Ineligible and/or
                     Unsupported Costs, Buffalo, NY

      2008-FW-1004   Community Development                     12/18/2007   04/16/2008      04/15/2009
                     Corporation of Brownsville Did
                     Not Use Its Housing Counseling
                     Grants for the Intended Purpose,
                     Brownsville, TX

      2008-LA-1003   Home for Life Foundation Did Not          12/18/2007   02/26/2008        Note 1
                     Properly Administer Its Supportive
                     Housing Program Grants, Los
                     Angeles, CA

      2008-NY-0001   HUD's Monitoring Controls and             12/31/2007   03/27/2008      06/30/2009
                     Procedures Regarding the CDBG
                     Program Were Not Adequate

      2008-FW-1005   The Housing Authority of the City of      01/07/2008   04/24/2008      04/17/2009
                     McKinney Inappropriately Advanced
                     Funds and Transferred Real Estate to
                     Its Not-for-Profit Affiliate, McKinney,
                     TX

      2008-AT-1004   The City of West Palm Beach Did           01/09/2008   05/05/2008      05/01/2009
                     Not Properly Administer Its CDBG
                     Program, West Palm Beach, FL

      2008-AT-1005   The City of Fort Lauderdale Did           01/11/2008   05/05/2008      05/01/2009
                     Not Properly Administer Its CDBG
                     Program, Fort Lauderdale, FL

      2008-KC-0001   HUD's Quality Assurance Division          01/14/2008   06/05/2008      05/15/2009
                     Did Not Always Resolve Materially
                     Deficient or Potentially Fraudulent
                     Loans Consistently




134                                                                                    Appendix 2 - Tables
                                                                                          Appendix 2: Tables
       Report                     Report title                Issue      Decision        Final
       number                                                 date         date         action

 2008-LA-1004        The City of Los Angeles Housing        01/15/2008   05/14/2008   05/14/2009
                     Department Did Not Adequately
                     Monitor HOME Program-Assisted
                     Rehabilitation Construction, Los
                     Angeles, CA

 2008-NY-1003        The City of New York's Department      01/23/2008   05/21/2008   05/21/2009
                     of Housing Preservation and
                     Development Had Administrative
                     Weaknesses in Its HOME Program,
                     New York, NY

 2008-AO-1002        State of Louisiana, Road Home          01/30/2008   05/12/2008    Note 1
                     Program, Funded 418 Grants Coded
                     Ineligible or Lacking an Eligibility
                     Determination, Baton Rouge, LA

 2008-LA-1006        Phoenix Apartments Did Not Use         02/04/2008   05/28/2008   05/28/2009
                     Project Funds in Accordance with
                     HUD Requirements, Concord, CA

 2008-LA-1007        The Housing Authority of the County    02/08/2008   09/24/2008   09/24/2009
                     of Los Angeles Did Not Adequately
                     Administer Its Section 8 Voucher
                     Program, Los Angeles, CA

 2008-KC-1001        The Douglas County Housing             02/11/2008   05/28/2008   03/31/2017
                     Authority Improperly Encumbered
                     and Spent Its Public Housing Funds,
                     Omaha, NE

 2008-CH-1003        The Highland Park Housing              02/15/2008   03/19/2008   04/01/2009
                     Commission Did Not Effectively
                     Administer Its Public Housing and
                     Capital Fund Programs, Highland
                     Park, MI

 2008-SE-1002        Oneida Housing Authority Did Not       02/20/2008   09/30/2008   04/30/2009
                     Properly Recognize and Use Program
                     Income from Native American
                     Housing Assistance and Self-
                     Determination Act-Assisted 1937 Act
                     Housing Projects, Oneida, WI

 2008-DP-0003        FY 2007 Review of Information          03/04/2008   06/26/2008   04/30/2009
                     Systems Controls in Support of the
                     Financial Statements Audit




 Appendix 2 - Tables                                                                               135
Appendix 2: Tables
          Report                 Report title                  Issue      Decision           Final
          number                                               date         date            action

      2008-AT-1006   Fulton County Lacked Adequate           03/07/2008   06/13/2008      06/01/2009
                     Controls Over Its HOME Program,
                     Atlanta, GA

      2008-DE-1002   The Housing Authority of the City of    03/18/2008   03/18/2008      11/30/2010
                     Brighton Did Not Maintain Proper
                     Inventory Records and Improperly
                     Awarded Contracts, Brighton, CO

      2008-FW-1006   Dallas Housing Authority                03/20/2008   07/07/2008      12/15/2009
                     Management Failed to Implement
                     Internal Controls over Its Housing
                     Choice Voucher Program, Dallas, TX

      2008-FW-1008   The Owner of Century Mission Oaks       03/21/2008   06/26/2008      07/11/2009
                     Violated Its Regulatory Agreement
                     with HUD, San Antonio, TX

      2008-KC-0002   HUD Did Not Ensure That Housing         03/24/2008   07/22/2008      10/01/2011
                     Authorities Properly Administered
                     the Community Service and Self-
                     Sufficiency Requirement

      2008-AO-0801   Review of Duplication of Participants   03/28/2008   08/01/2008      08/01/2009
                     Benefits under HUD's Katrina
                     Disaster Housing Assistance Program
                     and Disaster Voucher Program




136                                                                                  Appendix 2 - Tables
                                                                                        Appendix 2: Tables
                 Significant audit reports issued within the past 12 months
      that were described in previous semiannual reports in which final action had not
                            been completed as of March 31, 2009

       Report                    Report title                  Issue      Decision        Final
       number                                                  date         date         action

 2008-CH-1006        The Indianapolis Housing Agency Did     04/15/2008   08/12/2008   08/06/2010
                     Not Effectively Operate Its Section 8
                     Housing Choice Voucher Program,
                     Indianapolis, IN

 2008-PH-1006        The Richmond Redevelopment and          04/15/2008   07/14/2008   06/10/2009
                     Housing Authority Did Not Effectively
                     Operate Its Housing Choice Voucher
                     Program, Richmond, VA

 2008-CH-1007        The Housing Authority of the City of    04/18/2008   08/16/2008   06/30/2029
                     Fort Wayne Needs to Improve Its
                     Section 8 Housing Choice Voucher
                     Program Administration, Fort Wayne,
                     IN

 2008-AT-0002        The Miami Dade Housing Agency Did       04/24/2008   08/22/2008   12/31/2009
                     Not Maintain Adequate Controls over
                     Its Capital Fund Program

 2008-CH-1008        The Lansing Housing Commission          04/30/2008   07/30/2008   07/31/2038
                     Failed to Follow HUD's Requirements
                     for Its Nonprofit Development
                     Activities, Lansing, MI

 2008-PH-1008        The State of Maryland Did Not           04/30/2008   08/27/2008   08/31/2009
                     Always Administer Its HOME-
                     Assisted Single-Family Owner-
                     Occupied Rehabilitation Program in
                     Accordance with Federal
                     Regulations, Crownsville, MD

 2008-LA-1009        The Housing Authority of the City of    05/05/2008   09/26/2008   09/26/2009
                     Eloy Did Not Have Adequate Internal
                     Controls to Safeguard Assets and
                     Ensure Compliance with HUD's
                     Requirements, Eloy, AZ

 2008-SE-1004        A Plus Mortgage, Inc., Overcharged      05/07/2008   09/24/2008   05/31/2009
                     Borrowers and Allowed Independent
                     Contractors and Unapproved
                     Branches to Originate Loans,
                     Tukwila, WA




 Appendix 2 - Tables                                                                                137
Appendix 2: Tables
          Report                 Report title                  Issue      Decision           Final
          number                                               date         date            action

      2008-AT-0003   HUD Lacked Adequate Controls over       05/14/2008   09/10/2008      10/01/2011
                     the Physical Condition of Section 8
                     Voucher Program Housing Stock

      2008-BO-1006   Woonsocket Housing Authority            05/14/2008   07/10/2008      04/30/2009
                     Housing Choice Voucher Program
                     and Public Housing Program
                     Deficiencies Resulted in Cost
                     Exceptions Totaling $904,494,
                     Woonsocket, RI

      2008-BO-0002   Maintenance of Effort Requirements      05/21/2008   10/02/2008        Note 1
                     Are Needed to Ensure Intended Use
                     of CDBG Program Funds

      2008-NY-1006   The City of Troy Did Not Always         05/21/2008   10/30/2008      04/30/2009
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Troy, NY

      2008-LA-1010   The Housing Authority of the City of    05/28/2008   09/10/2008      06/01/2009
                     San Buenaventura Did Not Manage
                     HUD Program Funds in Accordance
                     with HUD Requirements, San
                     Buenaventura, CA

      2008-NY-1007   The County of Essex Did Not Always      05/29/2008   09/16/2008      06/01/2009
                     Administer Its CDBG Program in
                     Accordance with HUD Requirements,
                     Verona, NJ

      2008-CH-1009   Cook County Lacked Adequate             06/07/2008   10/03/2008      10/03/2009
                     Controls over Its HOME Investment
                     Partnerships Program Income and
                     Administrative Costs, Chicago, IL

      2008-AT-1009   The City of Augusta Controls Over Its   06/09/2008   08/04/2008      07/01/2009
                     HOME Program Were Inadequate,
                     Augusta, GA

      2008-CH-1010   The City of Cincinnati Lacked           06/11/2008   10/09/2008      10/08/2009
                     Adequate Controls over Its
                     System Reporting and Rental
                     Rehabilitation Projects for Its
                     HOME Investment Partnerships
                     Program, Cincinnati, OH




138                                                                                  Appendix 2 - Tables
                                                                                        Appendix 2: Tables
       Report                     Report title                 Issue      Decision        Final
       number                                                  date         date         action

 2008-DP-0004        Review of Selected FHA Major            06/12/2008   10/08/2008   12/31/2009
                     Applications' Information Security
                     Controls

 2008-CH-1011        The Portage Metropolitan Housing        06/30/2008   10/28/2008   05/16/2009
                     Authority Needs to Improve Its
                     Section 8 Housing Choice
                     Voucher Program Administration,
                     Ravenna, OH

 2008-LA-1012        The Housing Authority of the City       07/01/2008   10/14/2008   07/15/2009
                     of Calexico Did Not Comply with
                     Public Housing Program Rules
                     and Regulations, Calexico, CA

 2008-LA-1013        First Magnus Financial Corporation      07/14/2008   11/07/2008   09/21/2009
                     Violated the Real Estate Settlement
                     Procedures Act When Paying
                     Incentives to Brokers for Generating
                     FHA Mortgages, Tucson, AZ

 2008-PH-1009        The Housing Authority of the City of    07/14/2008   09/29/2008   06/30/2009
                     Allentown Did Not Ensure That Its
                     Section 8 Housing Choice Voucher
                     Program Units Met Housing Quality
                     Standards, Allentown, PA

 2008-FW-0001        HUD's CDBG Set-Aside for Colonias       07/29/2008   11/24/2008   11/27/2009
                     Was Not Used for Its Intended
                     Purposes

 2008-FW-1011        The Dallas Housing Authority            07/31/2008   10/28/2008   02/27/2010
                     Mismanaged Its Housing Choice
                     Voucher Program, Dallas, TX

 2008-LA-1014        First Magnus Financial Corporation      08/01/2008   11/17/2008   11/16/2009
                     Violated the Real Estate Settlement
                     Procedures Act When Paying
                     Builders and Real Estate Companies
                     Marketing Fees and Non-Competition
                     Fees in Exchange for FHA Mortgage
                     Business, Tucson, AZ

 2008-FW-1012        The City of Tulsa Allowed Its Largest   08/04/2008   11/24/2008   11/30/2009
                     Subrecipient to Expend $1.5 Million
                     in Unsupported CDBG Funding,
                     Tulsa, OK




 Appendix 2 - Tables                                                                                139
Appendix 2: Tables
          Report                 Report title                Issue      Decision           Final
          number                                             date         date            action

      2008-AO-1005   State of Louisiana, Road Home         08/07/2008   01/13/2009        Note 1
                     Program, Did Not Ensure That All
                     Additional Compensation Grant
                     Applicants Were Eligible, Baton
                     Rouge, LA

      2008-NY-1010   Wells Fargo Bank NA, Rochester, NY,   08/26/2008   01/28/2009      08/31/2009
                     Branch Office, Did Not Always
                     Comply with HUD/FHA Loan
                     Origination Requirements

      2008-BO-1008   The State of Connecticut Department   09/04/2008   12/01/2008      04/30/2009
                     of Social Services Significantly
                     Underleased Its Housing Choice
                     Voucher Program and Did Not
                     Always Comply with Its Annual
                     Contributions Contracts and HUD
                     Regulations, Hartford, CT

      2008-LA-0003   Implementation Weaknesses Existed     09/04/2008   12/19/2008      08/31/2009
                     in All Major Phases of the FHA
                     Appraiser Review Process

      2008-AT-1012   The City of Jacksonville Lacked       09/05/2008   12/08/2008      09/30/2009
                     Adequate Controls over Its HOME
                     Program, Jacksonville, FL

      2008-KC-1006   Heartland Funding Corporation         09/08/2008   01/22/2009      09/30/2009
                     Violated the Real Estate Settlement
                     Procedures Act and Did Not Fully
                     Comply with HUD's Underwriting,
                     Quality Control, or Employee
                     Compensation Requirements,
                     Springfield, MO

      2008-AT-0004   The Miami-Dade Housing Agency Did     09/17/2008   09/17/2008      12/31/2009
                     Not Maintain Adequate Controls over
                     Capital Fund Program Drawdowns,
                     Miami, FL

      2008-LA-1016   The City of Los Angeles Housing       09/18/2008   12/02/2008      09/18/2009
                     Department Did Not Comply with
                     HOME Affordability Monitoring and
                     Inspection Requirements for Its
                     HOME-Assisted Rental Housing, Los
                     Angeles, CA




140                                                                                Appendix 2 - Tables
                                                                                      Appendix 2: Tables
       Report                     Report title                    Issue         Decision          Final
       number                                                     date            date           action

 2008-PH-1013        The Housing Authority of Baltimore       09/19/2008       01/13/2009      07/31/2009
                     City Did Not Ensure That Its Program
                     Units Met Housing Quality Standards
                     under Its MTW Program, Baltimore,
                     MD

 2008-CH-1012        The City of Cincinnati Lacked            09/23/2008       01/22/2009      09/15/2009
                     Adequate Controls over Its System
                     Reporting and Rental Rehabilitation
                     Projects for Its HOME Investment
                     Partnerships Program, Cincinnati,
                     OH

 2008-DE-1003        The State of Colorado Did Not            09/23/2008       01/14/2009      09/30/2011
                     Comply with CDBG Program
                     Requirements, Denver, CO

 2008-CH-1014        The City of Cincinnati Did Not           09/26/2008       01/22/2009      02/23/2010
                     Adequately Manage Its HOME
                     Investment Partnerships Program,
                     Cincinnati, OH

 2008-CH-1015        The City of Dayton Lacked Adequate       09/26/2008       01/23/2009      09/26/2009
                     Controls Regarding Staff Salaries Paid
                     From Its CDBG Program, Dayton, OH

 2008-CH-1016        The Springfield Housing Authority        09/29/2008       01/23/2009      07/31/2009
                     Did Not Always Ensure That Section
                     8 Units Met HUD's Housing Quality
                     Standards, Springfield, IL

 2008-KC-0007        HUD Inappropriately Authorized the       09/29/2008       09/29/2008      08/31/2009
                     Use of Residual Receipts in Lieu of
                     Reserve for Replacement or
                     Operating Funds

                                                   

 Audits excluded                                              Notes
 50 audits under repayment plans                              1      Management did not meet the
                                                                     target date. Target date is over
 33 audits under debt claims collection
                                                                     1 year old.
 processing, formal judicial review,
 investigation, or legislative solution                       2      Management did not meet the
                                                                     target date. Target date is under
                                                                     1 year old.




 Appendix 2 - Tables                                                                                        141
Appendix 2: Tables
                                                          Table C
                                  Inspector General-issued reports with questioned and
                                          unsupported costs at March 31, 2009
                                                       (thousands)

                                Audit reports                                Number of          Questioned       Unsupported
                                                                            audit reports         costs             costs
          A1 For which no management decision had been                             40               96,231           80,678
             made by the commencement of the reporting
             period
          A2 For which litigation, legislation, or investigation                    6               14,317           11,524
             was pending at the commencement of the
             reporting period
          A3 For which additional costs were added to re-                           -               14,360           4,480
             ports in beginning inventory
          A4 For which costs were added to noncost reports                          0                  0                0
          B1 Which were issued during the reporting period                         41               96,526           81,004
          B2 Which were reopened during the reporting                               0                  0                0
             period
                                                       Subtotals (A+B)             87              221,434          177,686
          C   For which a management decision was made                            551              166,200          137,763
              during the reporting period
              (1) Dollar value of disallowed costs:
                     - Due HUD                                                    152               90,589           88,335
                     - Due program participants                                   44                73,337           47,295
              (2) Dollar value of costs not disallowed                             83               2,274            2,133
          D For which management decision had been made                             7               14,749           11,956
            not to determine costs until completion of
            litigation, legislation, or investigation
          E   For which no management decision had been                           25               40,485           27,967
              made by the end of the reporting period                            <59>4            <28,711>4        <16,784>4




      1
        32 audit reports also contain recommendations with funds be put to better use.
      2
        6 audit reports also contain recommendations with funds due program participants.
      3
        6 audit reports also contain recommendations with funds agreed to by management.
      4
        The figures in brackets represent data at the recommendation level as compared to the report level.
        See explanations of tables C and D.




142                                                                                                           Appendix 2 - Tables
                                                                                                                 Appendix 2: Tables
                                                     Table D
                           Inspector General-issued reports with recommendations
                               that funds be put to better use at March 31, 2009
                                                  (thousands)

                               Audit reports                                       Number of              Dollar
                                                                                  audit reports           value

     A1 For which no management decision had been made by                                 28             251,163
        the commencement of the reporting period
     A2 For which litigation, legislation, or investigation was                           4               15,863
        pending at the commencement of the reporting period
     A3 For which additional costs were added to reports in                                -               498
        beginning inventory
     A4 For which costs were added to noncost reports                                     0                 0
     B1 Which were issued during the reporting period                                     27             1,638,003
     B2 Which were reopened during the reporting period                                   0                 0
                                                          Subtotals (A+B)                 59             1,905,527
     C   For which a management decision was made during                                 421             1,646,279
         the reporting period
         (1) Dollar value of disallowed costs:
                - Due HUD                                                                 9              941,358
                - Due program participants                                                31             44,821
         (2) Dollar value of costs not disallowed                                         82             660,100
     D For which management decision had been made not to                                 2               6,517
       determine costs until completion of litigation, legisla-
       tion, or investigation
     E   For which no management decision had been made by                               15               252,731
         the end of the reporting period                                                <22>3            <31,460>3




 1
   32 audit reports also contain recommendations with questioned costs.
 2
   6 audit reports also contain recommendations with funds agreed to by management.
 3
   The figures in brackets represent data at the recommendation level as compared to the report level.
   See explanations of tables C and D.




 Appendix 2 - Tables                                                                                                 143
Appendix 2: Tables
      Explanations of Tables C and D
           The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to
      report cost data on management decisions and final actions on audit reports. The current method of
      reporting at the "report" level rather than at the individual audit "recommendation" level results in
      misleading reporting of cost data. Under the Act, an audit "report" does not have a management
      decision or final action until all questioned cost items or other recommendations have a management
      decision or final action. Under these circumstances, the use of the "report" based rather than the
      "recommendation" based method of reporting distorts the actual agency efforts to resolve and
      complete action on audit recommendations. For example, certain cost items or recommendations
      could have a management decision and repayment (final action) in a short period of time. Other cost
      items or nonmonetary recommendation issues in the same audit report may be more complex,
      requiring a longer period of time for management's decision or final action. Although management
      may have taken timely action on all but one of many recommendations in an audit report, the current
      "all or nothing" reporting format does not take recognition of their efforts.

          The closing inventory for items with no management decision on tables C and D (line E) reflects
      figures at the report level as well as the recommendation level.



                                                     




144                                                                                      Appendix 2 - Tables
                                                                                            Appendix 2: Tables
       State                 Page numbers

      Alabama                105, 106
      Arkansas               31, 48, 103
      Arizona                35, 38, 56, 83, 86, 102
      California             16, 18, 25, 30, 31, 40, 41, 42, 43, 44, 46, 47, 49, 50, 63, 65, 70, 83, 84,
                             100, 101, 104, 105, 108
      Colorado               14, 15, 16, 17, 18, 21, 32, 66, 100, 101, 109
      Connecticut            27, 35, 105, 108
      District of Columbia   22, 100, 109, 114
      Delaware               105
      Florida                14, 15, 35, 42, 47, 48, 50, 59, 60, 103, 105
      Georgia                19, 29, 36, 65, 70, 99
      Illinois               15, 18, 19, 21, 22, 26, 28, 39, 40, 41, 44, 46, 47, 67, 71, 98, 99, 100, 106,
                             108, 109
      Indiana                25
      Kansas                 9, 10, 49, 58, 102, 104
      Louisiana              20, 37, 58, 71, 75, 78, 80, 81, 82, 85, 87
      Maine                  37, 49, 54, 99, 103, 106
      Maryland               32, 45, 46, 59, 83
      Massachusetts          29, 37, 43, 58, 59, 98, 105, 106, 107
      Michigan               20, 50
      Minneapolis            71
      Mississippi            79, 80, 83, 84
      Missouri               9, 16, 21, 22, 32, 47, 49, 50, 104, 109
      Nebraska               20, 38
      Nevada                 41, 83, 101
      New Hampshire          17, 98, 106
      New Jersey             10, 16, 18, 19, 38, 39, 49, 58, 63, 65, 70, 72, 100, 103, 104, 106
      New York               10, 19, 20, 30, 40, 41, 44, 48, 49, 50, 53, 58, 59, 60, 64, 67, 68, 70, 71, 72,
                             76, 85, 101, 109
      North Carolina         63
      Ohio                   28, 38, 44, 47, 103, 108
      Oklahoma               102




146                                                                                        Appendix 3 - Index
                                                                                              Appendix 3: Index
    State             Page numbers


   Oregon             31
   Pennsylvania       14, 17, 26, 27, 35, 39, 45, 58, 59, 60, 70, 103, 107
   Puerto Rico        100
   Rhode Island       39, 99, 107
   South Dakota       35
   Tennessee          45, 47, 93
   Texas              9, 11, 14, 17, 18, 30, 36, 37, 38, 40, 55, 83, 84, 86, 101, 102, 103, 108, 115
   Utah               48, 49
   Vermont            37, 99, 106
   Virginia           21, 28, 66, 101, 102
   Washington         12, 45, 108


                                         




 Appendix 3 - Index                                                                                    147
Appendix 3: Index
      Office of Audit
      Headquarters Office of Audit, Washington, DC                 202-708-0364
      Region 1                   Boston, MA                        617-994-8380
                                 Hartford, CT                      860-240-4800


      Region2                    New York, NY                      212-264-4174
                                 Albany, NY                        518-464-4200
                                 Buffalo, NY                       716-551-5755
                                 Newark, NJ                        973-622-7900
      Region 3                   Philadelphia, PA                  215-656-0500
                                 Baltimore, MD                     410-962-2520
                                 Pittsburgh, PA                    412-644-6372
                                 Richmond, VA                      804-771-2100
      Region 4                   Atlanta, GA                       404-331-3369
                                 Miami, FL                         305-536-5387
                                 Greensboro, NC                    336-547-4001
                                 Jacksonville, FL                  904-232-1226
                                 Knoxville, TN                     865-545-4369
                                 San Juan, PR                      787-766-5202
      Region 5                   Chicago, IL                       312-353-7832
                                 Columbus, OH                      614-469-5745
                                 Detroit, MI                       313-226-6190
      Region 6                   Fort Worth, TX                    817-978-9309
                                 Houston, TX                       713-718-3199
                                 Oklahoma City, OK                 405-609-8606
                                 San Antonio, TX                   210-475-6898
      Regions 7/8                Kansas City, KS                   913-551-5870
                                 St. Louis, MO                     314-539-6339
                                 Denver, CO                        303-672-5452
      Regions 9/10               Los Angeles, CA                   213-894-8016
                                 Phoenix, AZ                       602-379-7250
                                 San Francisco, CA                 415-489-6400
                                 Seattle, WA                       206-220-5360
      Gulf Coast Region          New Orleans, LA                   504-671-3715
                                 Jackson, MS                       601-965-4700




150                                                  HUD OIG Operations Telephone Listing
                                                      HUD OIG Operations Telephone Listing
 Office of Investigation
 Headquarters Office of Investigation, Washington, DC              202-708-0390
 Region 1                               Boston, MA                 617-994-8450
                                        Hartford, CT               860-240-4800
                                        Manchester, NH             603-666-7988
 Region 2                               New York, NY               212-264-8062
                                        Buffalo, NY                716-551-5755
                                        Newark, NJ                 973-776-7347
 Region 3                               Philadelphia, PA           215-656-0500
                                        Baltimore, MD              410-962-4502
                                        Pittsburgh, PA             412-644-6598
                                        Richmond, VA               804-771-2100
 Region 4                               Atlanta, GA                404-331-3359
                                        Miami, FL                  305-536-3087
                                        Greensboro, NC             336-547-4000
                                        Jacksonville, FL           904-208-6126
                                        Knoxville, TN              865-545-4000
                                        San Juan, PR               787-766-5868
                                        Tampa, FL                  813-228-2026
 Region 5                               Chicago, IL                312-353-4196
                                        Cleveland, OH              216-522-4421
                                        Columbus, OH               614-469-6677
                                        Detroit, MI                313-226-6280
                                        Indianapolis, IN           317-226-5427
                                        Minneapolis-St. Paul, MN   612-370-3130
 Region 6                               Arlington, TX              817-978-5440
                                        Houston, TX                713-718-3196
                                        Oklahoma City, OK          405-609-8601
                                        San Antonio, TX            210-475-6819
 Region 7/8                             Kansas City, KS            913-551-5866
                                        St. Louis, MO              314-539-6559
                                        Denver, CO                 303-672-5350
                                        Billings, MT               406-247-4080
                                        Salt Lake City, UT         801-524-6090
 Region 9/10                            Los Angeles, CA            213-894-0219
                                        San Francisco, CA          415-489-6683
                                        Phoenix, AZ                602-379-7255
                                        Sacramento, CA             916-930-5691
                                        Las Vegas, NV              702-366-2144
                                        Seattle, WA                206-220-5380
 Gulf Coast Region                      New Orleans, LA            504-671-3701
                                        Arlington, TX              817-978-5440
                                        Baton Rouge, LA            225-334-4913
                                        Hattiesburg, MS            601-299-4279
                                        Houston, TX                713-718-3196
                                        Jackson, MS                601-965-5772


 HUD OIG Operations Telephone Listing                                             151
HUD OIG Operations Telephone Listing
HUD OIG Operations Telephone Listing
Report fraud, waste, and mismanagement in HUD
          programs and operations by

     Calling the OIG Hotline: 1-800-347-3735

      Faxing the OIG Hotline: 202-708-4829

       Sending written information to:
Department of Housing and Urban Development
       Inspector General Hotline (GFI)
              451 7th Street, SW
           Washington, DC 20410

 E-mailing the OIG Hotline: hotline@hudoig.gov

   Internet:http://www.hud.gov/complaints/
                fraud_waste.cfm

        All information is confidential,
       and you may remain anonymous.
Semiannual Report to Congress
October 1, 2008, through March 31, 2009

www.hud.gov/offices/oig

No. 61    HUD-2009-11-OIG
